Doc. 166

Shah v. Meier Enterprises, Inc., et al

APPENDIX 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

SHANTUBHAI SHAH,

)

Plaintiff,

)
v.
MEIER ENTERPRISES, INC., a
Washington Corporation; PAUL GIEVER,
CEO/President; STEVEN ANDERSON, an
Individual; and BOBBI KEEN, an Individual;
Defendants.

Civil No.: 3:17-cv-00226-JE

)
)

OPINION AND ORDER

)
)
)
)
)

)
)
)
)
)

Shantubhai N. Shah
6637 SW 88th Place
Portland, OR 97223
Plaintiffpro se
Krishna Balasubramani
Sather Byerly & Holloway, LLP
111 SW Fifth Avenue, Suite 1200
Portland, OR 97204
Attorney for Defendants

OPINION AND ORDER - la

Dockets.Justia.com

JELDERKS, Magistrate Judge:
Pro se Plaintiff Shah brings this action against Defendants Meier Enterprises, Inc.
(“Meier”); and individuals Paul Giever, Steven Anderson, and Bobbi Keen alleging age, race,
and national origin discrimination under federal and Washington state laws, whistle blower
retaliation under Oregon and Washington state laws; and common law retaliatory wrongful
discharge. 1
The parties have filed cross motions for summary judgment. Plaintiff has also filed two
motions for sanctions, a motion to withdraw consent to Magistrate Judge Jurisdiction, a motion
for reconsideration of this Court’s Opinion and Order denying Plaintiff leave to file a Second
Amended Complaint, and a motion for “Leave to file Plaintiffs Affidavit in Support of First
Amended Motion for Summary Judgment.”
Plaintiffs motions for sanctions, motion for reconsideration and motion to withdraw
consent are denied. Plaintiffs motion for leave to file an affidavit is granted.
For the reasons set forth below, Defendants’ motion for summary judgment is granted
and Plaintiffs motion for summary judgment is denied.
* ,

Background
Plaintiff was 77 years old at the time of filing and was 75 years old during the relevant
period. He was bom in India and identifies himself as an Asian American. (Am.Compl. f[j 2, 14).
During the relevant time period, Plaintiff was a “Registered Professional Engineer” in Oregon

In his Amended Motion for Summary Judgment Plaintiff, for the first time, alleged a claim of common law fraud.
Plaintiff subsequently withdrew this claim in his Response to Defendants’ Cross Motion for Summary Judgment.

OPINION AND ORDER - 2 a

and Washington who was employed by Meier Enterprises as a Sr. Electrical Engineer/Project
Manager. (Am.Compl.

16, 17).

Meier Enterprises is a privately-held Washington Corporation with its principal place of
business in Kennewick, Washington. It is also a registered foreign corporation with Oregon’s
Secretary of State. (Am.Compl. ^[3; Meier Ent., Inc. Answer f3; Anderson Deck ^2). It is a fullservice, architectural and engineering consulting firm. (Anderson Deck f2). Defendant Steve
Anderson was the President of Meier from 2006 through August 2016. (Anderson Deck ^|3).
Defendant Paul Giever succeeded Anderson and currently holds the position of President.
(Giever Depo. p. 5). Defendant Bobbi Keen is the Controller/Human Resources Director. (Keen
Deck f 1).
Five Group Managers and the Controller/Human Resources Director report directly to the
President. (Keen Deck f2). Meier’s strategic committee, which consisted of Defendant
Anderson, Defendant Giever, Defendant Keen, CAO/Director of Marketing Denise Sweeden,
and Director of Projects Anthony Cockbain, is responsible for hiring professional engineers.
(Keen Deck f 11). Meier uses several different avenues to find qualified candidates, including
Volt Workforce Solutions, which was how Defendants were put in contact with Plaintiff. (Keen

Decl.m 7).
Meier was seeking to fill both an Electrical Group Manager position and a Senior
Electrical Engineer/Project Manager position. (Keen Deck 1J5, 6). After being contacted by Volt,
Keen, Anderson and Mechanical Group Manager Colin Bates interviewed Plaintiff by phone on
March 10, 2016. (Keen Deck f8; Anderson Deck

6). Meier did not consider Plaintiff for the

Group Manager position after the initial interview because he lacked Washington Labor and
Industries (“L&I”) familiarity and experience and because he and his work were unknown to

OPINION AND ORDER - 3a

Defendants. (Keen Depo. pp. 32,33, 34, 37, 39-40, 41-42; Anderson Depo. pp. 40-41, 42,4445, 78-79; Anderson Decl. ^6). Instead, Meier asked Plaintiff to continue the interview process
for the Senior Electrical Engineer/Project Manager position in the Vancouver, Washington
office. This position would report to the Electrical Group Manager. (Shah Depo. p. 16, Depo: Ex.
2). Plaintiff flew to Kennewick, Washington on March 14, 2016, for an in-person interview with
Anderson, Bates and electrical professional engineer consultant Pam Ameson. (Shah Depo. pp.
18,20; Keen Decl. 110). On March 21, 2016, Plaintiff had an in-person interview in the
Vancouver office with Anderson and several of the Vancouver employees. (Anderson Decl. ^|5).
Plaintiff testified that no one made any comments about his age, race or national origin during
the interview process. (Shah Depo. pp. 21-22). Meier offered Plaintiff the Senior Electrical
Engineer/Project Manager position on March 22, 2016 and Plaintiff began work that same day.
(Shah Depo. p. 22; Depo. Ex. 3). Plaintiff was informed that he was being hired on an at-will
basis and that the first 60 days of employment constituted a probationary period. (Shah Depo. p.
23; Depo. Ex. 3).
Meier received Kelly Waterman’s resume on April 6, 2016, for the Electrical Group
Manager position. (Keen Decl. ^fl6). Waterman is younger than Plaintiff and is Caucasian. (Def.
Reply p. 2).Waterman had experience with Washington L&I and knew the local L&I reviewer.
(Keen Depo. p. 37). Waterman and his work were also known to Meier’s clients and he had
demonstrated an ability to successfully manage difficult projects. (Keen Depo. pp. 33, 37;
Anderson Decl. ^[23). Meier sent an offer letter to Waterman on April 26, 2016. (Keen Decl.
116).
In the meantime, Anderson was serving as the interim Electrical Group Manager and was
managing the administrative functions of the Electrical Group. (Anderson Decl. f4). He assigned

OPINION AND ORDER - 4a

Plaintiff as the professional electrical engineer for the Pasco High School project. (Anderson
Decl. ^[7). Plaintiff was responsible for the original electrical design package sent to L&I for state
required review. The submittal was twice rejected. (Anderson Decl. f7). Plaintiff was asked to
address the reviewer comments. In an email dated Wednesday, April 27, 2006, Anderson asked
Plaintiff to discuss concerns raised during the L&I review process and informed Plaintiff that
Meier could not afford any further delay. (Shah Depo. Ex. 10). Plaintiff emailed Pam Ameson
regarding the reviewer’s comments and responded by email to Anderson that he would be out of
town until Monday. (Shah Depo. Exs. 10, 15). Anderson raised additional issues with Plaintiffs
work performance in an email later that day, telling Plaintiff he needed to pay closer attention to
detail and that he had been removed from the Pasco High School job “because this was not
happening.” (Shah Depo. Ex. 12; Anderson Decl. fflf7-9). Plaintiff responded “I trusted Doug
(Farris, the electrical designer) to do what he was doing on different plans. In rush job out of
door we make errors that should not happen. I will give utmost attention and not trust designers.”
(Shah Depo. Ex. 13). Defendants found it necessary to hire an outside consultant to correct and
carry on the work that Plaintiff had been assigned. (Anderson Decl. |8).
In an email dated May 2, 2016. In his email Plaintiff wrote:
I have major concerns about projects designed by Doug without my directions or
supervision and it takes lot [sic] of time and effort to understand what he has done
.... He hardly ever talks to me what he is doing.. .. There is not a direct link all
hours of work between us. Doug is unorganized and makes lots of errors in
assumptions and names of panel. I cannot trust his design work without my
engineering directions.
I would be doing injustice both to Meier and its clients by stamping drawings of
projects designed without my directions or supervision.
In addition it’s a violation of engineering practice to stamp drawings not done
under engineer’s supervision or directions. My suggestions would be to design
projects by Zack in Vancouver office with my directions so I have comfort as an
—Engineer of Record.
——
_______ __ ______________________
OPINION AND ORDER - 5 a

(Shah Depo. Ex. 18.).
In response, Anderson advised Plaintiff by email that he had been hired to direct and
review the work of the engineers and designers. (Shah Depo. Ex. 19; Anderson Deck ^9). He
informed Plaintiff that an outside consultant had been hired to review Plaintiffs work and that
was “not good.” Anderson indicated that he would talk to Farris about Plaintiffs comments but
that Plaintiff needed to “concentrate on your project requirements and they need to improve.”
(Shah Depo. Ex. 19). Plaintiff advised Anderson that he would be taking the next two days off
from work, time off he had failed to properly request under Meier company policy. (Shah Depo.
pp. 70, 72; Depo. Ex. 21).
During Plaintiffs employment period, the strategic committee met on April 14, 2016 and
April 26, 2016 and discussed, among other items, concerns about Plaintiffs work performance.
(Anderson Deck ^[12; Keen Deck f 11). The committee discussed concerns that had been
expressed by other staff and whether Meier should continue Plaintiffs employment despite
Plaintiff being involved in several projects. (Keen Deck 1J13, Anderson Deck ffl|12-13).
On May 3, 2016, one of Meier’s clients on a different project identified significant issues
with the electrical portion of a draft report that was Plaintiffs responsibility. (Shah Depo. Ex.
22). One of Plaintiff s colleagues also raised issues with Plaintiffs thoroughness and level of
contribution. (Shah Depo. Ex. 23; Newell Deck

6). These concerns were communicated to

Plaintiff on May 3, 2006. (Shah Depo. Ex. 23). Based on Plaintiffs unsatisfactory work
performance on the Pasco High School project, client complaints about his work product on a
separate project, and the questionably timed and improperly requested time off, the strategic
committee decided to terminate Plaintiffs employment. (Anderson Deck ^ 21). Plaintiff was not

OPINION AND ORDER - 6a

given a formal warning to improve his work because he was in his probationary period. (Keen
Depo. p. 74).
Under its agreement with Volt, Meier would incur an $18,500 recruiter fee if Plaintiff
stayed with Meier more than 60 days. (Keen Deck f^|6,15). The last day to terminate Plaintiffs
employment without incurring the fee was May 9,2016. (Keen Deck f 15). On May 9, 2016,
after 60 days of employment and only 35 days of work, Anderson met with Plaintiff in the
Vancouver office, told him it was not working out and asked for the Meier keys. (Shah Depo.
pp. 103-104; Anderson Deck Tf22).
Later on May 9th, Plaintiff filed a complaint with the Board of Professional Engineers and
Land Surveyors. (Shah Depo. pp. 106-107; Depo. Ex. 25). Plaintiff filed a complaint with the
Equal Employment Opportunity Commission (EEOC) in July 2016. (Shah Depo. p. 115).
Waterman began working for Meier on May 31, 2016, as the Group Manager in Meier’s
Kennewick office. (Keen Deck T|16). In September 2016, Meier’s Vancouver office was closed
down and Plaintiffs position was never filled. (Keen Depo. pp. 25, 68; Depo Ex. 1; Anderson
Depo. p. 86).

Evaluating Motions for Summary Judgment
Federal Rule of Civil Procedure 56(c) authorizes summary judgment if no genuine issue
exists regarding any material fact and the moving party is entitled to judgment as a matter of law.
The moving party must show the absence of an issue of material fact. Celotex Corp. v. Catrett,
All U.S. 317, 325, 106 S.Ct. 2548 (1986). The moving party may discharge this burden by
showing that there is an absence of evidence to support the nonmoving party's case. Id. When the

OPINION AND ORDER - 7a

moving party shows the absence of an issue of material fact, the nonmoving party must go
beyond the pleadings and show that there is a genuine issue for trial. Id.
The substantive law governing a claim or defense determines whether a fact is material.
T. W. Elec. Serv., Inc. v. Pacific Elec. Contractors Ass % 809 F.2d 626, '630 (9th Cir. 1987).
Reasonable doubts concerning the existence of a factual issue should be resolved against the
moving party. Id. at 630-31. The evidence of the nonmoving party is to be believed, and all
justifiable inferences are to be drawn in the nonmoving party's favor. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242,255, 106 S.Ct. 2505 (1986). No genuine issue for trial exists, however, where
the record as a whole could not lead the trier of fact to find for the nonmoving party. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587,106 S.Ct. 1348 (1986).
Where parties file cross-motions for summary judgment, the court “evaluate^] each
motion separately, giving the non-moving party in each instance the benefit of all reasonable
inferences.” A. C.L. U. ofNev. v. City ofLas Vegas, 466F.3d 784, 790—91 (9th Cir.2006) (quoting
A.C.L. U. ofNev. v. City ofLas Vegas (A.C.L. U. I), 333 F.3d 1092, 1096-97 (9th Cir.2003)).

Discussion
I. Statutory Whistleblower Claims
Plaintiff has asserted whistleblower claims under both Washington and Oregon state law.
Where, as here, the laws of more than one jurisdiction arguably apply to an issue, a federal court
exercising diversity jurisdiction must apply the choice of law rules of the state in which it is
located. Klaxon Co. v. StentorElec. Mfg. Co., 313 U.S. 487, 496 (1941). To resolve choice of
law questions, the Oregon Supreme Court has adopted the “most significant relationship”
approach of the Restatement (Second) of Conflict of Laws in determining the appropriate

OPINION AND ORDER - 8 a

substantive law. Casey v. Manson Constr. & Eng'g Co., 247 Or. 274, 287-88 (1967). However,
Oregon state law requires that courts first make a threshold determination that there is an actual
conflict between the law of the forum and that of another state. Fields v. Legacy Health Sys., 413
F.3d 943, 951 (9th Cir. 2005)(citing Portland Trailer & Equip., Inc. v. A-l Freeman Moving &
Storage, Inc., 182 Or.App. 347, 49 P.3d 803, 806 (Or.Ct.App.2002). If no material conflict exists
between the laws or interests of the forum and the other state, we apply forum law. Portland
Trailer, 49 P.3d at 806.
Plaintiff brings whistleblower claims under ORS 659A.199 and ORS 659A.030.
Oregon’s whistleblower statutes make it an unlawful practice for an employer - public or private
- to retaliate against an employee who has in good faith reported information that “the employee
believes is evidence of a violation of state or federal law, rule or regulation.” ORS 659A.199.
Oregon Revised Statute ORS 659A.030(f) makes it unlawful for “any person” to retaliate against
“any other person” who has opposed any unlawful discriminatory practice under ORS 659A.030
or who has filed a complaint, testified or assisted in any proceeding under that chapter.
Plaintiff also asserts whistleblower retaliation under Revised Code of Washington (RCW)
Sections 49.17.160 and 19.60.210. As correctly stated by Defendants, RCW 49.17.160 protects
an employee who files a complaint under the Washington Industrial Safety and Health Act
(WISHA). Section 49.60.210 prohibits retaliation against those who oppose any practices
forbidden by Chapter 49.60. This Chapter sets forth Washington’s anti-discrimination law.
Washington statutes do not contain a provision similar to ORS 659A.199 that apply to private
employees. See RCW 42.40, 42.41.
With the apparent conflict between Washington’s and Oregon’s statutory treatment of
whistleblower retaliation it is necessary to proceed to apply Oregon’s choice of law test. Under

OPINION AND ORDER - 93

the Restatement, a court should consider the following contacts to determine which state has “the
most significant relationship” to the case: (a) the place where the injury occurred; (b) the place
where the conduct causing the injury occurred; (c) the domicile, residence, nationality, place of
incorporation and place of business of the parties; and (d) the place where the relationship, if
any, between the parties is centered. Restatement (Second) of Conflict of Laws § 145.
Here, Washington has the most significant contacts. The employment relationship, the
alleged unlawful conduct by Defendants; and the residency and place of business of the
Defendants are all in Washington. Only Plaintiffs residency in Oregon weighs in favor of
applying Oregon substantive law. Accordingly, Washington law applies to all of Plaintiff s state
law claims and those claims asserted under Oregon state law are-dismissed.
Having concluded that Washington law applies to Plaintiff s state law claims, we turn
next to the specifics of his statutory whistleblower retaliation claim. This claim asserts that
Plaintiffs reporting to Defendants of violations of engineering regulations and his filing of a
formal complaint with the Washington Department of Labor were protected activities under
RCW Sections 49.17.160 and 49.60.210, (Am.Compl.

>

42-50). Defendants argue that none of

these provisions applies to the facts of this case, I agree.
As noted above RCW 49.17.160 protects an employee who files a complaint under the
Washington Industrial Safety and Health Act (WISHA). Plaintiff did not file a claim under
WISHA. In addition, the complaint Plaintiff did make to Washington’s Board of Professional
Engineers and Land Surveyors was filed after he was terminated. The other purported statutory
basis for Plaintiffs claim, Section 49.60.210, prohibits retaliation against those who oppose any
practices forbidden by Chapter 49.60. This Chapter sets forth Washington’s anti-discrimination
law. There is no evidence in the record that Plaintiff opposed any unlawful practice under '

OPINION AND ORDER - 10a

Chapter 49.60 while in Defendants’ employ. Plaintiff did not file his EEOC complaint until after
he was terminated. Plaintiff cannot establish a prima facie case of whistleblower retaliation
under either of statutes upon which he relies. Accordingly, Plaintiffs statutory whistleblower
claims fail as a matter of law.
II. Wrongful Discharge
Count 1 of Plaintiff s Whistleblower Retaliation Claim alleges common law wrongful
discharge against Defendant Meier. Plaintiff alleges that Defendant Meier wrongfully discharged
Plaintiff in retaliation for notifying Meier of misconduct and reporting Meier’s misconduct to a
regulatory agency. Plaintiff also alleges that Meier discharged him for “refusing to commit an
illegal act, ignoring and supporting the unlicensed and unsupervised practice of engineering.”
(Am.Compl.

34-41).

As an initial matter and as discussed above, Plaintiffs allegation that he was terminated
in retaliation for reporting misconduct to a regulatory agency is unsupported by the record. The
evidence supports only the conclusion that Plaintiffs reports to the Board of Professional
Engineers and Land Surveyors and the EEOC were filed after he was terminated and thus cannot
support a claim for retaliatory discharge.
In a very limited exception to at-will employment doctrine, Washington courts have
allowed a wrongful discharge claim on public policy grounds. Gardner v. Loomis Armored Inc.,
128 Wash. 2d 931, 936, 913 P.2d 377, 379 (1996). Public policy tort actions are allowed in four
different situations: “(1) where employees are fired for refusing to commit an illegal act; (2)
where employees are fired for performing a public duty or obligation, such as serving jury duty;
(3) where employees are fired for exercising a legal right or privilege, such as filing workers'
compensation claims; and (4) where employees are fired in retaliation for reporting employer

OPINION AND ORDER - 11 a

misconduct, i.e., whistleblowing.” Gardner v. Loomis Armored Inc., 128 Wash. 2d at 936, 913
P.2d at 379 (1996)(citing Dicomes v. State, 113 Wash.2d 612, 618, 782 P.2d 1002 (1989)).
Plaintiff s Amended Complaint asserts a claim based on the first and fourth of these situations.
In order to establish a claim under Washington law for wrongful discharge involving

'

alleged violations of public policy, a Plaintiff must show “1) the existence of a clear public r
policy (the clarity element); 2) that discouraging the conduct in which [he] engaged would
jeopardize the public policy (thejeopardy element); 3) that his public-policy-linked conduct was
a substantial factor in (i.e. the cause of) the employer’s decision to discharge him (the causation
element); and 4) that employer is not able to offer an overriding justification for the dismissal
(the absence of justification element). Little v. Windermere Relocation, Inc., 301 F.3d 958,971
(9th Cir. 2002)(citing Ellis v. City ofSeattle, 142 Wash.2d 450, 13 P.3d 1065, 1070 (2000) (en
banc)(citations and internal quotations omitted)).

•

Plaintiff alleges that Defendant Meier violated RCW Section 18.43, which, he asserts,
helps protect public health and safety through the regulation of engineers. Plaintiff contends that
he notified Defendants of regulatory violations in an email dated May 2, 2016. In his email
Plaintiff writes:
I have major concerns about projects designed by Doug without my directions or
supervision and it takes lot [sic] of time and effort to understand what he has done
' .... He hardly ever talks to me what he is doing. . .. There is not a direct link all
hours of work between us. Doug is unorganized and makes lots of errors in
assumptions and names of panel. I cannot trust his design work without my
engineering directions.
I would be doing injustice both to Meier and its clients by stamping drawings of
projects designed without my directions Or supervision. *,
In addition it’s.a violation of engineering practice to stamp drawings not done ■
under engineer’s supervision or directions. My suggestions would be to design
projects by Zack in Vancouver office with my directions so I have comfort as an
Engineer of Record.
OPINION AND ORDER - 12 a

(Shah Depo. Ex. 18.).
In his motion for summary judgment, Plaintiff asserts that this email alerted Defendant
Meier that it was violating WAC 196-27A-020(l)(c). (PI. Am. MSJ, p. 5). This regulation sets
forth that “[registrants must inform their clients or employers of the harm that may come to the
life, health, property and welfare of the public at such time as their professional judgment is
overruled or disregarded. If the harm rises to the level of an imminent threat, the registrant is also
obligated to inform the appropriate regulatory agency.” This regulation reflects a public policy of
safeguarding the public from harm that may arise from disregard of the judgment of those
operating in the capacity of registered professional engineers. Thus the “clarity element” is met.
See Danny v. Laidlaw Transit Servs., Inc., 165 Wash. 2d 200, 219, 193 P.3d 128, 137 (2008)
(The “clarity” element does not require us to evaluate the employer's conduct at all; the element
simply identifies the public policy at stake.).
Turning to the “jeopardy element,” I conclude that the evidence fails to show that
Plaintiff engaged in particular conduct that directly related to or was necessary for the effective
enforcement of the public policy at issue. See Rose v. Anderson Hay & Grain Co., 184 Wash. 2d
268, 277, 358 P.3d 1139, 1143 (2015). Plaintiff testified that the email discussed concerns that
Doug Farris was working remotely and it was difficult to supervise his work. (Shah Depo. p. 79).
Plaintiff testified that, at the time, his email was a “suggestion” to Steve Anderson and that he
“was not thinking of legal action.” (Shah Depo. pp. 80-81).
The evidence supports only the conclusion that Plaintiff communicated with his
supervisor that he was dissatisfied with the working relationship he had with Doug Farris and the
necessity to supervise Farris’ work remotely. The vague language of Plaintiff s May 2nd email is
insufficient to constitute notice to his employer under WAC 196-27A-020 and Plaintiff has

OPINION AND ORDER - 13 a

provided no other evidence that he either engaged in whistleblowing conduct or refused to
commit an illegal act. In the absence of such evidence, Plaintiff cannot establish the jeopardy
element necessary to support his claim. Therefore, Defendant’s motion for summary judgment
on the wrongful discharge claim is granted.
III. Age Discrimination Claim Under Washington Law
Under RCW Section 49.60.180(1) and Washington Administrative Code (WAC) 162-04010, the protected class of workers is those from 40 to 70 years of age. It is undisputed that
Plaintiff was 75 years old at the time of the alleged discriminatory conduct. Accordingly,
Plaintiffs age discrimination claim under Washington state law fails.
IV. Remaining Discrimination Claims
As noted above, Plaintiff has also asserted claims of race and national origin
discrimination under federal and Washington state law and a claim for age discrimination under
federal law.
A. Standards
The Age Discrimination in Employment Act (ADEA), 29 U.S.C. § 623 et seq., makes it
unlawful for an employer to fail or refuse to hire or to discharge any individual or otherwise
discriminate against any individual with respect to compensation, terms, conditions, or privileges
of employment, because of the individual's age. Protection under the ADEA extends to all
individuals who are at least 40 years old; 29 U.S.C. § 631(a).
Title VII prohibits employers from making adverse employment decisions based upon an
individual's race or national origin: See 42 U.S.C. § 2000e-2(a). The court applies the same
analytical framework to both Title VII and ADEA claims. Wallis v. J.R. Simplot Co., 26 F .3d
885, 888 (9th Cir. 1994).

OPINION AND ORDER - 14a

Washington courts look to Title VII case law for instruction or persuasive authority in
construing WLAD. See Glasgow v. Georgia-Pacific Corp., 103 Wash.2d 401, 693 P.2d 708,
711, n. 2 (1985). Accordingly, the court's analysis of federal law applies to Plaintiffs claim for
race and national origin discrimination under the Washington Law Against Discrimination
(WLAD) as well. See Hardage v. CBS Broadcasting Inc., 427 F.3d 1177,1183 (9th Cir.2005);
Alonso v. Qwest Commc'ns. Co., LLC, 178 Wash.App. 734, 315 P.3d 610, 616, n. 11
(Wash.Ct.App.2013) (“Because our discrimination laws substantially parallel Title VII of the
Civil Rights Act of 1964, we may look to federal law for guidance.”).
For claims alleging violation of the ADEA or Title VII, federal courts apply a “burden
shifting” method first set out in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973).
The plaintiff carries the initial burden of establishing a prima facie case of discrimination. Id. at
802. That burden may be met by offering either direct evidence of discriminatory intent or
through the framework set out in McDonnell Douglas. Wallis, 26 F.3d at 889. Under the
McDonnell Douglas framework, a plaintiff can establish a prima facie case of unlawful
discrimination by showing that he belonged to a protected class, was qualified for the position in
question, was subjected to an adverse employment action, and others, who were similarly
situated but not in the protected class, were treated more favorably. E.g., Aragon v. Republic
Silver State Disposal Inc., 292 F.3d 654, 658 (9th Cir. 2002), as amended (July 18,
2002)(citations omitted); Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 142 (2000).
Establishing a prima facie case creates a presumption of unlawful discrimination. Texas Dep't of
Community Affairs v. Burdine, 450 U.S. 248, 254 (1981).
Under the McDonnell Douglas framework, the burden then shifts to the defendant to
articulate a legitimate, nondiscriminatory reason for the adverse employment action. Once the

OPINION AND ORDER -15a

defendant meets this burden of production, the presumption of unlawful discrimination “simply
drops out of the picture” St. Mary's Honor Ctr. v. Hicks, 509 U.S. 502, 511 (1993), and the
plaintiff then bears the burden of demonstrating that the employer's proffered reason is
pretextual. Burdirie, 450 U.S. at 256. This may be accomplished either by persuading the trier of
fact that a discriminatory reason more “likely motivated the employer or ... by showing that the
employer's proffered explanation is unworthy of credence.” Id.
A plaintiff may show that the employer's proffered reason is not credible because it is
internally inconsistent or is otherwise not believable. Chuangv. University of California, Davis
Board of Trustees, 225 F.3d 1115, 1127 (9th Cir.2000). However, a plaintiff “must do more than
establish a prima facie case and deny the credibility of the [defendant’s] witnesses.” Wallis, 26
F.3d at 890 (citation omitted). If the plaintiff presents evidence that is sufficient to persuade the
trier of fact that the defendant's proffered reason is false, intentional discrimination may be
inferred based upon disbelief of the employer's reason and the existence of & prima facie case of
discrimination. Nidds v. Schindler Elevator Corp., 113 F.3d 912, 918 n. 2 (9th Cir.l996)(cert.
denied 522 U.S. 950 (1997)).
B. Analysis
Plaintiff alleges that age was a substantial factor in Defendants’ decision to terminate his
employment and that, after he was terminated, Defendants hired a younger, less experienced
replacement. Plaintiff also alleges that he was treated differently and ultimately terminated
because of his race and national origin. Defendants contend that Plaintiff fails to establish a
prima facie case of discrimination for either his age or race and national origin claims.
Defendants argue that, even if Plaintiff establishes a prima facie case, Defendants have offered

OPINION AND ORDER - 16a

legitimate, non-discriminatory reasons for terminating Plaintiff s employment and Plaintiff has
not produced any evidence that the proffered reasons are pretextual.
After a thorough review of the record, I conclude that Plaintiff has failed to establish a
prima facie case of discrimination based on age, race or national origin. It is undisputed that
Plaintiff was a member of classes protected by WLAD (for race and national origin claims only),
Title VII and the ADEA and that he suffered an adverse employment action. However, Plaintiff
has not provided any direct evidence of discriminatory intent or any evidence to support the
second and third prongs of the McDonnell Douglas test.
First, Plaintiff has offered no evidence of discriminatory intent. Plaintiff testified in his
deposition that throughout his entire employment with Meier no one ever said anything about his
race, national origin or age and nothing was ever said that could even be interpreted to be about
his age, race or national origin. (Shah Depo. p. 115). Plaintiff also testified that no one made any
comments about his age, race or national origin during the interview process. (Shah Depo. pp.
21-22). Plaintiffs employment was terminated after less than two months. Anderson and the
other members of the strategic committee were involved in both Plaintiff s hiring and
termination. Such circumstances undermine any inference of discriminatory animus. See
Bradley v. Harcourt, Brace & Co., 104 F.3d 267, 270-71 (9th Cir. 1996) (employer's initial
willingness to hire the plaintiff is strong evidence the employer is not biased against that
protected class).
Second, Plaintiff has produced no evidence to rebut Defendants’ evidence that he was not
qualified for the Group Manager position, the position that was eventually given to Kelly
Waterman. Defendants offered deposition testimony and declarations that Meier did not consider
Plaintiff for the Group Manager position after the initial interview because he lacked Washington

OPINION AND ORDER - 17a

L&I familiarity and experience and because he and his work were unknown to Defendants.
(Keen Depo. pp. 32, 33, 37, 39-40, 41-42; Anderson Depo. pp. 40-41,42, 44-45, 78-79;
Anderson Deck 1[6). Instead, Meier considered and hired Plaintiff as a Senior Electrical
Engineer/Project Manager.

.

Furthermore, Plaintiff has failed to:point to evidence that shows that his work
performance was satisfactory during the less than 60 days he was in Defendants’ employ. On
Wednesday, April 27, 2006, Anderson asked Plaintiff to discuss concerns raised during the L&I
review process and informed Plaintiff that Meier could not afford any further delay. Plaintiff
responded by email that he would be out of town until Monday. Anderson raised additional
issues with Plaintiff s work performance in an email later that day, telling Plaintiff he needed to
pay closer attention to detail and that he had been removed from the Pasco High School job
because this was not happening.” Defendants found it necessary to hire an outside consultant to
correct and carry on the work that Plaintiff had been assigned. (Shah Depo. Ex. 12; Anderson
Deck til 7-9). In an email dated May 2, 2006, Anderson advised Plaintiff that he needed to
“concentrate on your project requirements and they need to improve.” (Shah Depo. Ex. 19).
Plaintiff advised Anderson that he would be taking the next two days off from work. The next
day, one of Meier’s clients on a different project identified significant issues with the electrical ’
portion of a draft report that was Plaintiff s responsibility . (Shah Depo. Ex. 22). One of
Plaintiff s colleagues also raised issues with Plaintiffs thoroughness and level of contribution.
(Shah Depo. Ex. 23 ; Newell Deck 1f1|4,6). These concerns Were communicated to Plaintiff on
May 3,2006. (Shah bepo. Ex. 23).

.

The evidence documents multiple complaints from several sources regarding Plaintiffs
work performance, Plaintiffs failure to properly request time off and apparent disinclination to

OPINION AND ORDER - 18a

*

*

accept responsibility for tasks within his job description. Plaintiff has not come forward with any
significantly probative evidence to show there is a genuine issue regarding this prong of the
McDonell Douglas test.
Finally, Plaintiff has not produced any evidence that similarly situated individuals
outside the protected classes were treated more favorably in either the decision not to hire
Plaintiff for the Group Manager position or to terminate his employment. Plaintiff asserts that he
was differently treated because Meier hired Kelly Waterman, who was younger than Plaintiff and
Caucasian, for the Group Manager position. As discussed above, Defendants offered deposition
testimony and declarations that Meier did not consider Plaintiff for the Group Manager position
after the initial interview because he lacked Washington L&I familiarity and experience and
because he and his work were unknown to Defendants. In contrast, Kelly Waterman had
experience with Washington L&I and knew the local L&I reviewer. (Keen Depo. p. 37).
Waterman and his work were also known to Meier’s clients and demonstrated an ability to
successfully manage difficult projects. (Keen Depo. pp. 33, 37; Anderson Deck ^23).
Plaintiff also cannot establish that after his termination his position was filled with
someone outside the protected classes. Plaintiff asserts that he was replaced by Kelly Waterman.
However, the timeline of events disproves this argument. Plaintiffs initial interview was on
March 10, 2016, after which Defendants, for the reasons discussed above, no longer considered
Plaintiff qualified for the Group Manager position. Plaintiff was hired and started work on March
22, 2016 in Meier’s Vancouver office. Meier received Waterman’s resume on April 6, 2016 and
sent an offer letter to him on April 26, 2016. Plaintiff was terminated on May 9, 2016.
Waterman began working for Meier on May 31, 2016 as the Group Manager in Meier’s
Kennewick office. In September 2016, the Vancouver office was closed down and Plaintiffs

OPINION AND ORDER - 19a

im­

position was never filled. Even viewing all the evidence.in a light most favorable to Plaintiff, the
evidence does not support the conclusion that similarly situated individuals outside the protected
classes were treated more favorably than Plaintiff.
Because Plaintiff has not produced evidence from which a trier of fact could conclude
that he has satisfied second or fourth prongs of the McDonell Douglas test, he has not established
aprim 'afacie case of age, race or national origin discrimination, Even assuming Plaintiff could establish a prima facie case, Defendants proffered
legitimate, non-discriminatory reasons for not offering Plainti ff the Group Manager position and
for Plaintiffs termination - i.e. Plaintiffs lack of qualifications for the Group Manager position
as opposed to the Senior Electrical Engineer/Project manager position, and Plaintiff s
unsatisfactory work performance. Plaintiff has not introduced any evidence suggesting that these
reasons were pretextual. As noted above, where, “the same actor is responsible for both the
hiring and the firing of a discrimination plaintiff, and both actions occur within a short period of
time, a strong inference arises that there was no discriminatory action,” Coghlan v. Am. Seafoods
Co., 413 F.3d 1090, 1096 (9th Cir.:2005) (citation and internal quotations omitted);'.see also
Bradley, 104 F.3d at 270-71. An “extraordinarily strong showing of discrimination [is]
necessary to defeat the same-actor inference.” Coghlan, 413 F,3d at 1097 (citation omitted).
Plaintiff has not made any such showing here. Accordingly, Defendants’ motion for summary
judgment on Plaintiffs federal age discrimination claim and federal and state race and national
origin claims is granted.2

• i

2 Plaintiff also asserts that individual Defendants Anderson, Keen and Giver violated RCW 49.60.220 by aiding,
abetting or otherwise inciting Meier to unlawfully discharge Plaintiff. In the absence of support for Plaintiffs
discrimination claims, Plaintiff s aiding and abetting claim fails as a matter of law.

OPINION AND ORDER - 20a

Conclusion
Plaintiffs motions for sanctions (#138, #154); motion for reconsideration (#140); and
motion to withdraw consent to Magistrate Judge jurisdiction (#139) are DENIED. Plaintiffs
motion for leave to file an affidavit (#123) is GRANTED. For the reasons set out above,
Defendants’ motion for summary judgment (#129) is GRANTED and Plaintiffs motion for
summary judgment (#72, #78) is DENIED.

DATED this 13th day of September, 2018.

/s/ John Jelderks
John Jelderks
U.S. Magistrate Judge

OPINION AND ORDER -21a

Case: 18-359''° 05/17/2021, ID: 12114470, DktEntP" 33-1, Page 1 of 10

APPENDIX 2
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
MAY 17 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
SHANTUBHAIN. SHAH,
Plaintiff-Appellant,

No.

18-35962

D.C. No. 3:17-cv-00226-JE

v.
MEMORANDUM*
MEIER ENTERPRISES, INC.,
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Marco A. Hernandez, District Judge, and
John Jelderks, Magistrate Judge, Presiding
Argued and Submitted April 13, 2021
Seattle, Washington
Before: O’SCANNLAIN and CALLAHAN, Circuit Judges, and FITZWATER,**
District Judge.
Dissent by Judge O’SCANNLAIN
In this removed action alleging employment discrimination claims, plaintiff

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The-Honorable.Sidney A. Fitzwater. United States District Judge for the
Northern District of Texas, sitting by designation.

MEMORANDUM - 22a

Case: 18-35962. "5/17/2021, ID: 12114470, DktEntry: P~

Page 2 of 10

Shantubhai N. Shah (“Shah”) appeals the summary judgment dismissing his claims
and the order denying his motion to remand.1 We have jurisdiction under 28 U.S.C.
§1291 and affirm.
We review both the denial of Shah’s motion to remand and the grant of
summary judgment de novo. See, e.g., L.F. v. Lake Wash. Sch. Dist. Ml4, 947 F.3d
621,625 (9th Cir. 2020) (summary judgment); Harris v. Bankers Life & Cas. Co., 425
F.3d 689,692 (9th Cir. 2005) (motion to remand). We review the evidence favorably
to Shah as the party opposing defendants’ motion for summary judgment. See, e.g.,
Wallis v. Princess Cruises, Inc., 306 F.3d 827, 832 (9th Cir. 2002).
Because the parties are familiar with the facts and procedural history, we restate
only what is necessary to explain our decision.
I
The question whether the district court2 erred in denying Shah’s motion to

1
The United States Magistrate Judge decided Shah’s motion to remand as
a non-dispositive matter, and the district judge affirmed the magistrate judge’s ruling
after Shah objected. Before the magistrate judge ruled on the parties’ cross-motions
for summary judgment, all parties consented to the magistrate judge’s jurisdiction.
Although Shah sought to withdraw his consent, the magistrate judge denied the
motion when he decided the parties’ cross-motions for summary judgment and other
motions. The rulings on appeal were therefore decided by judicial officers with
authority to act.
2
The “district court” means the magistrate judge who decided the motion
to remand and the district judge who affirmed the magistrate judge’s decision.
-2-

MEMORANDUM - 23a

Case: 18-3596° 05/17/2021, ID: 12114470, DktEntry-*3-1, Page 3 of 10

remand turns on whether Shah properly served defendant Meier Enterprises, Inc.
(“Meier”)3 with the summons and complaint on November 23, 2016, or did not
properly serve Meier until later, on January 20, 2017. The district court held that
proper service was not made until January 20, 2017, so removal on February 10,
2017—i.e., within 30 days of January 20, 2017—was timely, and the motion to
remand must be denied. The question whether Meier was properly served on
November 23, 2016, or not until January 20, 2017, is governed by Oregon law. See,
e.g., Whidbee v. Pierce Cty., 857 F.3d 1019, 1023 (9th Cir. 2017) (“When a case is
removed from state court to federal court, the question whether service of process was
sufficient prior to removal is governed by state law.” (citations omitted)).
Shah maintains that the district court improperly placed the burden on him to
prove that his selected method of service on November 23,2016—certified mail, with
restricted delivery—was reasonably calculated to inform Meier of the pending action.
Although the district court did make such a statement in its opinion and order, the
court also properly recognized that there is a presumption against removal and that
“the defendant always has the burden of establishing that removal is proper” (quoting

3
Although Shah also sued four individually-named defendants and three
groups of defendants, only Meier removed the case. Meier maintained in the notice
of removal that the consent to removal of the other defendants was unnecessary
because they had not been properly served. The motion to remand turned on whether
service on Meier was proper.
-3 -

MEMORANDUM - 24a

Case: 18-35962, n*V17/2021, ID: 12114470, DktEntry: 8

, Page 4 of 10

Gaus v. Miles, Inc., 980 F.2d 564, 566 (9th Cir. 1992)). And the district court
acknowledged that “[t]he removal statute is strictly construed and ‘any doubt about
the right of removal requires resolution in favor ofremand’!’ (quoting Moore-Thomas
v. Alaska Airlines, Inc., 553 F.3d 1241,1244 (9th Cir. 2009)). We therefore conclude
from our holistic reading of the district court’s opinion and'order that it did not
improperly shift the burden to Shah to establish that removal was improper.
Nor did the district court err in holding that Shah’s attempted service on
November 23,2016 was improper. Regardless whether under Oregon law service by
mail on a corporation can ever be effective if attempted without requesting a return
receipt4—a question we need not decide in this case—Shah’s attempt to serve Meier
did not satisfy Oregon’s “reasonable notice” standard.
Under Oregon law, “[s]ummons shall be served, either within or without this
state, in any manner reasonably calculated, under all the circumstances, to apprise the
defendant of the existence and pendency of the action and to afford a reasonable
opportunity to appear and defend.” Or. R. Civ. P. 7D(1). If service is by a method
specifically permitted under Rule 7D(3), it is presumptively adequate. If not, the court
must determine whether the method used satisfies the “reasonable notice” standard

See Edwards v. Edwards, 8G1 P.2d 782, 786 (Or. 1990) (“No Oregon
case upholds service of summons by mail as adequate unless receipt is acknowledged
by defendant.”).
-4MEMORANDUM - 25a

Case: 18-3596° -05/17/2021, ID: 12114470, DktEntry: Q3-1, Page 5 of 10

under Rule 7D(1). Baker v. Foy, 797 P.2d 349,354-55 (1990). Here, service was not
effected by a method specifically permitted under Rule 7D(3), so the reasonable notice
standard under Rule 7D(1) applies. The court must consider the totality of the
circumstances as they were known to Shah at the time of service. See Paschall v.
Crisp. 910 P.2d 407, 411 (Or. Ct. App. 1996) (citation omitted).
The district court did not err in concluding that Shah failed to give Meier
reasonable notice through the November 23, 2016 attempt at service. According to
the “proof’ of delivery (a U.S. Postal Service tracking slip), the complaint and
summons were delivered on November 28, 2016 at 12:58 p.m. to “Front
Desk/Reception” at Meier’s office. Even assuming that the documents were handed
to a particular person (as opposed to, say, being deposited in a receptacle as part of the
daily mail delivery), it is simply a matter of speculation whether the delivery was
made to someone whose duties imposed the degree of responsibility that should
accompany the handling of documents of the importance of legal process. Indeed,
Oregon’s primary service method for a corporation suggests the recipient of service
should be “a registered agent, officer, or director of the corporation; or . . . any clerk
on duty in the office of a registered agent.” Or. R. Civ. P. 7D(3)(b)(i). Under the
totality of the circumstances known to Shah, the form of service attempted on
November 23, 2016 did not give Meier reasonable notice.

-5MEMORANDUM -26a

Case: 18-35962, "5/17/2021, ID: 12114470, DktEntry: P° 1, Page 6 of 10

.

; Accordingly, because the November 23,2016 attempt at service was riot proper

and Meier removed the case within 30 days of being properly served on January 20,
2017, the district court did not err in denying Shah’s motion to remand.
•

II

Turning to the merits/we hold that the district court correctly granted summary
judgment dismissing Shah’s claims.'
Shah’s discrimination claims based on Meier’s decision not to hire him for the
Group Manager position fail because he has not created a genuine issue of material
of fact under the burden-shifting framework set forth in McDonnell Douglas Corp. v.
Green, 411 U.S. 792 (1973). A reasonable jury could not find, based on the posted
job description and lack of interview questions regarding Shah’s L&I experience
alone, that Meier’s proffered reason for not hiring him—his lack of Washington Labor
& Industry experience—was not the real reason. '
Shah’s discrimination claims based on his termination similarly fail under
McDonnell Douglas because he has not shown that similarly situated individuals were
treated more favorably. Nor has he offered any evidence that would enable a
reasonable jury to, find that Meier’s proffered reasons for his termination—his poor
performance and failure to follow company policy with respect to time off—were not
the real reasons for his termination. Moreover, where “the same actor is responsible

-6MEMQRANDUM -27a

Case: 18-3596°'05/17/2021, ID: 12114470, DktEntry *3-1, Page 7 of 10

for both the hiring and the firing of a discrimination plaintiff, and both actions occur
within a short period of time, a strong inference arises that there was no discriminatory
action.” Bradley v. Harcourt, Brace & Co. 104 F.3d 267, 270-71 (9th Cir. 1996).
Shah offers no evidence that would support the reasonable finding that those
responsible for his termination did not actually believe that his performance was poor.
Accordingly, the judgment of the district court is
AFFIRMED.

-7-

MEMORANDUM - 28a

Case: 18-35962, 0*5/17/2021, ID: 12114470, DktEntry: 8* \ Page 8 of 10

FILED
Shah v. Meier Enterprises, Inc., No. 18-35962

MAY 17 2021
. MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

O’Scannlain, J., dissenting: ,

Although I agree with the memorandum’s analysis of the merits of Shah’s
employment discrimination-claim, I would not have reached that issue because I do
not agree that we should affirm the district court’s denial of Shah’s motion to
remand this case to state court at this point. Prudence and comity, I suggest,
should have had us first certify the underlying unresolved question of state civil
procedure to the Oregon Supreme Court.
I therefore respectfully dissent.
I
Whether Meier Enterprises’ notice of removal was timely turns on the
question of whether Shah’s first attempted service by mail was valid under the
governing Oregon Rules of Civil Procedure, And, as the majority observes, that
question in turn becomes: Was Shah’s mailing of notice to an officer in Meier’s
principal place of business via first class mail with restricted delivery—but without
a return receipt—“reasonably calculated” to inform Meier of the action? See Or.
R. Civ. P. 7D(1); Davis Wright Tremaine, LLP v. Menken, 45 P.3d 983, 987 (Or.
Ct. App. 2002).
On this question, Oregon law is not clear. To be sure, as the majority
observes, no Oregon case appears to have upheld service by mail where no return

MEMORANDUM - 29a

Case: 18-3596° 05/17/2021, ID: 12114470, DktEntry «3-1, Page 9 of 10

receipt was requested. See Edwards v. Edwards, 801 P.2d 782, 786 (Or. 1990).
But, equally important, the majority has not identified any case which holds that a
return receipt is always required in order for service by mail to be “reasonably
calculated” to inform the defendant of the action.
Indeed, some Oregon courts have suggested (but not held) that sending mail
by restricted delivery—which requires the mail carrier to deliver the parcel only to
the addressee—might provide greater assurance that the defendant receives notice
of the action than a simple request for a return receipt (which requires only that the
person who receives the parcel sign for it). See, e.g., Murphy v. Price, 886 P.2d
1047, 1049 (Or. Ct. App. 1994) (“[Without restricted delivery] anyone at that
address—a roommate, a neighbor, defendant’s landlord—could have signed for the
receipt... with no assurances that the defendant would ever see the papers.”); see
also Lake Oswego Review, Inc. v. Steinkamp, 695 P.2d 565, 569 (Or. 1985)
(discussing increased likelihood that a restricted delivery will be delivered to the
addressee); Davis Wright Tremaine, 45 P.3d at 988 (“[A]s a general rule, service
by mail on an individual must be by restricted delivery—i.e., only the person being
served can either accept or refuse the mailing—to satisfy the reasonable notice
standard . . . .”); id. at 989 (“[Decisions of the Oregon Supreme Court and of our
court... have repudiated [the] premise that mere service by certified mail, without
some more particularized assurance or confirmation of delivery to the defendant,
2
MEMORANDUM -30a

Case: 18-35962, ^17/2021, ID: 12114470, DktEntry: 8 O

A

Page 10 of 10

e.g., restricted delivery, return receipt requested, etc., was sufficient to satisfy
ORCP 7D(1).” (emphasis added)). Such cases do not inspire confidence that our
court has properly applied Oregon law.
II
In these circumstances, I would have preferred that we certify this open
question of law to the Oregon Supreme Court, which surely has a far greater
interest than does our court in defining what methods of service are acceptable for
lawsuits initiated within its own state courts. Given the relative frequency with
which Oregon courts have been called upon to address questions of appropriate
forms of mailed service, it may well have been inclined to accept certification.

3
MEMORANDUM -31a

APPENDIX 3
SHANTUBHAIN. SHAH, ProSe Plaintiff
6637 SW 88TH PLACE
PORTLAND, OR 97223
PHONE: 503-272-8843
Email: Shantu.shah@gmail.com

m THE UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION
SHANTUBHAI N SHAH, an Individual,
Plaintiff,
v.
MEIER ENTERPRISES, Inc. a Washington
Corporation, PAUL GIEVER,
CEO/President, STEVE ANDERSON, an
Individual, BOBBI KEEN, an Individual,

Case No, 3:17-CV-00226-JE
PLAINTIFF’S RESPONSE TO
DEFENDANTS* CROSS MOTION
FOR SUMMARY JUDGMENT

Oral
Argument
Telephone

Requested

by

Defendants.

LR 7-1 (a) CERTIFICATE
Response to Cross Motion is filed via US First Class Mail on May 21,2018 [Order 146].
The Response Brief contains 20 Pages and 4900 words excluding certificates.
I. INTRODUCTION
This case arises from Plaintiffs unlawful termination a week after Plaintiff makes
“Whistleblower report of improper actions bv employees" about Defendants’ unlicensed,
unsupervised employees performing engineering practice “in violation of state law or regulation.”
(MEIER 000887, Meier Employee Policy Manual Page 10)

PAGE-l-OF-21—PLAlNTIFF^SRESPONSE-TODEFENDANTSM3ROSS-MGH9N-

RESPONSE -32a

-May24r2018

Plaintiff Sh antubhai N. Shah, 77 years old and of Indian decent, is a registered engineer
licensed to practice in both Oregon and Washington. (Shah Decl. 1)
Plaintiff was hired by Defendant Meier Enteiprises (“Meier”) as a Senior Engineer and
Project Manager. In a matter of weeks, Plaintiff encountered hostile treatment, and gross
disregard for the Washington State Engineering practice rules. After raising an internal
complaint to defendants, Defendants terminated Plaintiffs employment. (Shah Decl. 5,13, IS)
Based on Defendants conduct, Plaintiff has asserted claims of several counts of
Whistleblower Retaliation, and Discrimination based on Plaintiff s Age and Race. (Shah Decl.
16)
Through a cross-motion for summary judgment, Defendants largely ignore their burden
using pretexts and untruthful declarations for termination and ask the court to ignore evidence of
their wrongful motives. As explained further below, Defendants motions are precluded by
genuine disputes of material fact, must therefore be denied
n. RELEVANT FACTS
A. Plaintiff a Registered Professional Engineer for 40 plus years Entitled to
Statutory Protection from Discrimination as a Protected Ciass.
Plaintiff was bom in India and became the US Citizen in 1976, and a registered
professional engineer since 1978. (Shah Decl. 1)
Plaintiff has extensive previous experience as an electrical professional engineer,
project manager, and department manager. (Shah Decl. 2,3)

PAGE 2 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE - 33a

May 21,2018

B. Defendants did not hire Plaintiff as Electrical Group Manager.
During the third week of February 2016 employment agency Volt Resources
contacts Plaintiff for a position of Defendants’ Electrical Department Group Manager to
manage electrical projects from Defendants’ Kennewick, Washington office. Volt
resources recommended Defendants “as EE Group Manager” with Plaintiffs 3-page
resume and two references from professional engineers Marie Van Dnser and Bart
Makadia who vouched Plaintiffs 40-year plus experience as a professional electrical
engineer. (Shah Deck 7)
Primary requirement of the vacant position was registration as a professional
engineer and 15 years of professional experience in projects management (MEIER
000148-149). Plaintiff met both the qualifications.
Plaintiff indicated his interest to work as an electrical department manager relying
on his previous experience on his resume managing electrical groups as a registered
professional electrical engineer with 40 plus years, not offered to Plaintiff and left vacant
position. (Shah Dec. 6,7,8)
C. Defendants hire Plaintiff as a Senior Electrical Engineer and Project Manager
On March 26,2016 after a telephone interview with Plaintiff, followed by (2) inperson interviews with Defendants’ mechanical and electrical department staff at their
Kennewick and Vancouver offices, and with their recommendations, Defendants
employed Plaintiffas a registered professional engineer in Oregon and Washington to work
on Defendants’ electrical projects management from Vancouver office staffed with only
PAGE-3 OF-21—PLAINTIFF-S RESPONSE-TO DEFENDANIS1 CROSS MOTION

RESPONSE- 34a

-May-3-1,-2018

(2) employees, to replace electrical engineer Dennis Zimmer who resigned and to
continue operating as a remote engineering office to market Defendants7 engineering
services to Portland area clients, though it did not have any local projects. (MEIER
000600,000860,000863)
Zimmer was once disciplined for complaints against him from Defendants’ clients
but was not terminated (MEIER 000617).
Defendants treated Plaintiff disoaratelv from similarly placed employe** ahri
discriminated and retaliated for his whistleblowing. /Shah Dec. 5)
D. Defendants hire Watertnan and reassign PlaintifFsprojects to him
Defendants on April 20.2016 employed a professional electrical engineer, Kelly
Waterman (MEIER 000146-147), a Caucasian with a 12-year experience (MEIER
000139) and several years younger to Plaintiff as an Electrical Group Manager, the
r

position that was hot offered to Plaintiff and at a 25% higher salary, and $5,000
Employment Offer (MEIER 000121) bonus not offered to Plaintiff (MEIER 000175176) to manage same projects, that Plaintiff was assigned to work from Defendants’
Vancouver office. (Shah Decl. 5,11)
Defendants following the appointment of Waterman and his complaint of Mav 3.
2016, reassigned projects assigned to Plaintiffto "‘new department mana^’ Waterman on
May 6, 2016 (PLAINTIFF 00009,00010) and supervise electrical designer Doug Farris
from Kennewick office, leaving Plaintiffwith no work from Vancouver office. Waterman
was given 60 Day probationary evaluation that was not offered in Plaintiff PlaintiffWas
PAGE 4 OF 21

PLAlNTn^’S RESPONSE TOiDEFENDANTS’ CROSS MOTION

May 21,2018 '

RESPONSE - 35a
■;

i

discriminated by not offering the position though he exceeded Defendants’ wpanWi*
requirements, while offered to a younger and less experienced employee. (MEIER
000123)
E. Based on good faith belief Plaintiff reported state rule violations to Defendants
and to EEOC. (Shah Dec. 13,16)
On April 26. 2018 Defendant Anderson thanks Plaintiff for gettinp done “L&I
comment response letter” and asks Plaintiff to forward to Pam for her review as company
policy to review final product by a third person. (MEIER 000862)
On May 2,2016 @ 7;56 AM Plaintiff in his best belief pursuant to Defendants’
“Open Door” policy complained in an email to his supervisor Steve Anderson Defendants’
violation of electrical engineering practice of Washington State law. (MEIER 000877)
Plaintiff in his good faith belief complaint to State of Washington State Board of
Registration for Professional Engineers and Land Surveyors cited deficient engineering
documents, prepared by unlicensed Electrical Engineer Dong Farris without a supervision
of a licensed engineer (MEIER 000070-000071), given to Plaintiff for final review
(MEIER 808886), the practice Plaintiff opposed citing State law for engineering.
After two weeks of review by an electrical consultant Pam of Farris work,
questions on unsupervised Electrical Engineer Farris prepared plans persisted two days
after the termination of Plaintiff. (MEIER 000864).
Defendants’ list deceivingly shows (6) employees including Doug Farris (marked
X) as engineers, not licensed by WA Department of Licensing, (PLAINTIFF 000002)
PAGE50F2I—PLAINTIFF’S RESPONSE-TO DEFENDANTS’- CROSSMOTION

RESPONSE - 36a

-May 21,2018

Previously designer Zackary Erz also informed his supervisor Colin Bates and
Defendant Steve Anderson about the poor quality of Farris woric. Defendants knowingly
allowed Fanis to perform engineering and design unsupervised, in violation of the state
law for engineering practice to be performed under direct supervision of licensed engineers.
(Shah Decl. 12)
While Doug Fams was not disciplined by Defendants, until Waterman on June 17,
2016 citing Plaintiffs complaint, Plaintiff was terminated without giving him a reason,
benefit of doubt, or corrective action, a discriminately disparate treatment (MEIER
000166,000167)
F. Plaintiff immediately encountered harassment from Defendants.
Following Plaintiffs complaint pursuant to Defendants’ Open Door and
Whistleblower policies Defendants retaliated against Plaintiff with adverse action in
violation of their Affirmative Action Plan, Equal Opportunity Employment, Title VII antidiscrimination of Race and National Origin, and ADEA policies. (Meier Employee
Manual Page No. 7,9, and 10)
Within an hour of Plaintiffs complaint on Mav 2 at 7:56 AM. lWenriant
Anderson at 9:00 AM retaliates and asks Erz to watch Plaintiffrather than resolving plans
prepared by Farris. (MEIER 000865,000875)
Defendants on May 3. 2016 conspired secretly to terminate Plaintiff (MEIER
000191), after completion of Cooper Geoige Building Project # 16-7951 “Due Diligence
Report” by Plaintiff on May 9,2016 was released on Mav 12.2016. flVfFirR <tnft7M)

PAGE 6 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE - 37a

May 21,2018

G. Defendants terminated Plaintiffs employment.
In retaliation to Plaintiffs whistleblowing of state law violation pursuant to
Defendants’ “Open Door” policy, Defendants terminated his employment effective
May 9, 2016.
H. Defendantsdose floundering Vancouver office
Designer Era was let go from Vancouver office after a few months of Plaintiff s
termination. Plaintiff after making certain Erz is working alone without engineer’s
supervision a violation of state law complained to State Board of Engineering that
Vancouver office was performing engineering practice without a residence engineer in
Vancouver office. It’s like a nurse or PA running a medical clinic without a doctor’s
guidance.
Meier tried to find additional staff to place in Vancouver but without luck to get
new projects that could be performed from Vancouver office. Since Meier was
inadequately staffed at Vancouver office and struggling without much success due to
competition with large engineering firms established in Portland Metro area for decades.
Three months after Plaintiff was let go, Defendants as a cost cutting measure on
August 9,2016 decided to close Vancouver office about (MEIER 000719) followed by
die departure of Era, Defendant Steve Anderson, and Marketing Manager Denise
Sweeden who mismanaged marketing efforts to keep Vancouver office fully functioning
which did not grow beyond a two-person office. Plaintiff’s replacement Waterman also

PAGE-7 OF-2-1—PLAINTIFF-S RESPONSE-TO DEFENDANTS’-CROSS-MOTIQN

RESPONSE - 38a

did not survive the hectic projects and left within a year of his employment with
Defendants (MEIER 000141)
ill. STANDARD OF REVIEW
Summary judgment is only appropriate where ‘the pleadings, the discovery and
disclosure materials on file, and any affidavits show that there is no genuine issue as to any
material fact and that the movant is entitled to judgment as a matter of law.” FRCP
56(c); Anderson v. Liberty Lobby, Inc,, All U S. 242,247,106 S.Ct. 2505,91 L.Ed.2d 202
(1986). In ruling on summary judgment, a court does not weigh evidence to determine the
truth of the matter, but “only determine[s] whether there is a genuine issue for trial.” Crane
v. Conoco, Inc., 41 F.3d 547, 549 (9th Cir.1994) (citing O'Melveny & Myers, 969 F.2d at
747). Material facts are those which might affect the outcome of the suit under governing
law. Anderson, All U.S. at 248, 106 S.Ct. 2505. When deciding a motion for summary
judgment, the Court must draw all reasonable inferences in favor of the non-moving
party. See F.D.I.C. v. O'Melveny & Myers, 969 F.2d 744, 747 (9th Cir. 1992), revon
other grounds, 512 U.S. 79, 114 S.Ct. 2048, 129 L.Ed.2d 67 (1994); see also Sicilia v.
Boeing Co., 775 F. Supp. 2d 1243, 1248 (W.D. Wash. 2011) (summarizing standard when
evaluating whistleblower retaliation claim). Here, Defendants ignore this heavy burden,
often relying on their own testimony and disregarding Plaintiff s allegations and testimony.
IV. LEGAL ARGUMENT
A. There is a Genuine Issue of Fact Supporting Plaintiff’s Discrimination Claim.
The Ninth Circuit Court of Appeal’s age discrimination ruling in the case of Francis v.
Johnson No. 13-15534 overturned a District Court’s ruling on a federal age discrimination
PAGE 8 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE - 39a

May 21,2018

complaint. The Ninth Circuit’s decision, which was issued on August 3, 2015, sets an important
precedent for how Ninth Circuit courts must handle claims arising under the Age Discrimination
in Employment Act (ADEA). The decision includes the following holding:

If an employee Files an ADEA complaint after being turned down for a promotion and the
claimant is less than 10 years older than the employee who received the promotion, then there is a
rebuttable presumption that the difference in age is insubstantial. However, as in the instant case
there s a substantial difference an age difference of 10 years or more between the Plaintiff and his
replacement Waterman who took over Plaintiff s projects management, there is a rebuttable
presumption that the difference in age is substantial. (This is the standard that has previously been
applied by the Seventh Circuit.)
Legal Standard

Pursuant to Rule 56 of the Federal Rules of Civil Procedure, Defendants, to be successful, must
prove that, in considering the “pleadings, depositions, answers to interrogatories, and admissions
on file, together with affidavits, if any,.., there is no genuine issue as to any material fact and that
they are entitled to a judgment as amatter oflaw.” See Fed. R. Civ. P. 56(c). An issue is “material”
if the dispute may affect fee outcome of fee suit under fee governing law and is “genuine” if a
reasonable jury could return a verdict for fee nonmoving party. Anderson v. 4 Liberty Lobby, Inc.

In fee instant case Defendants have articulated their legitimate pretext argument of plaintiff’s
termination as a rebuttal to Plaintiff s prima facia of discrimination by age, national origin, and

PAGE 9 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE -40a

May 21,2018

i

retaliation immediately following his complaint the proximity of a decision next day on May 3,
2016 to terminate him on May 9,2016, after Plaintiff completes his Due Diligence Report on
Cooper George Building in Spokane, Washington he visited for inspection along with a
Mechanical Engineer Jerimiah Newell that was issued to client after his departure on May 12,
2016 raises an issue of Material fact. (MEIER 000723)
Plaintiffan Asian American was not hired as an Electrical Group Manager though he presented
far superior qualifications and references than a Caucasian Waterman who was substantially

•* :
;

younger and less experienced candidate was chosen over foe Plaintiff within four weeks after
Plaintiffs was appointed to a remote office in Vancouver with inadequate staff also raises the issue
ofMaterial Fact for age, race and equal pay discrimination, hence Defendant’s Cross Motion must
be denied. (Shah Dec!. 11)
B. There is a Genuine Issue of Fact Supporting Plaintiffs Wrongful Discharge
Claim.
Defendants could have terminated Plaintiff prior to his complaint of Defendants’

;

engineering services state law violation or after the probationary review upon completion
of sixty day as was given to Waterman but did not and retaliated proximately after Plaintiff
complained to his supervisor, raises the issue of Material Fact to a fact finder, that would
rebut Defendants’ pretexts. Client Pete Miller response to Defendants' draft report on
Cooper George Building shows “overall satisfaction of the report and lots of good
information", with comments and suggestions on mechanical, fire protection, plumbing

PAGE 10 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ GROSS MOTION

May 21,2018
:
5

ESPONSE - 41a

and electrical systems, typical to all draft reports and preliminary plans issued which are
not final.
Defendants’ make an issue of electrical comments of the report that was issued to
client without keeping Plaintiff in the loop or asking him concerns by Jerimiah Newell he
raises after the fact following comments received from client, while Anderson not critical
of mechanical, fire protection, and plumbing comments of the report prepared by
Mechanical Engineer Newell, raises the issue of Material Facts of pretext by Defendants.
(MEIER 000842)
C. Plaintiff as a Whistleblower, Entitled to Statutory Protection.
Defendants’ “Whistleblower” and “Open Door” policy require an employee in his
official duty to report “an action by other employees that is a violation of any federal, state,
or local law or regulation.” (Employee Manual Page 10,11)
Plaintiff in his good faith belief and official duty as a Project Manager reported to
his supervisor Defendant Anderson the violation of state law of engineering malpractice
by his subordinate employee Doug Farris as required by these policies, is entitled to
statuary protection. (Plaintiff 000001)
Subsequent, to Defendants’ unlawful termination, Plaintiff in his good faith belief
made a complaint of state law violation to the Washington State Board of Registration for
Professional Engineers and Land Surveyors and EEOC. (MEIER 000080, 000081,
000173)

PAGE-UOE21

RESPONSE-42a

D. Defendants’ Declarations in Support of Cross Motion are pretextual
Though* Defendants’ Cross Motion for Summary Judgment ‘combined’ with their
Response to Plaintiffs Amended Motion for Summary Judgment, without obtaining court’s
prior permission was in violation of U.S. District Court of Oregon local rules1, and FRCP Rule
12 (c), court order [Document 141] permitted to file Response to Defendants’ Cross Motion.
Plaintiff seeks court permission and requests Court to use: Denosittniw of Anderson,
Newell, and Keen referenced hereinafter, submitted with Plaintiffs Motion to strike (that was
denied) in response to “Defendants’ Cross Motion and Response to Plaintiffs Motion filed by
Plaintiff’, which are not duplicated with this response due to huge amount of paper work
reduction to be filed.
Court should treat Defendants’ Cross Motion as a Rule 12(c) motion, since the pleadings
are closed. In order to determine whether Cross Motion summary judgment is appropriate all
of the facts delineated in the Cross Motion should be viewed in the light most favorable to the
plaintiff as the non-moving party.2 With close examination of accompanying Shah
Declaration, in comparison with the following untruthful statements and dates proffered by the
Defendants’ Declarations, Defendant’s Cross Motion pleadings would fail to controvert the
allegations in Plaintiffs Amended Motion for Summary Judgment.

1 Motions may not be combined with any response, reply, or other pleading. LR 7-1 (b) (Emphasis added)
2 See Saldana v. Kmart Coip., 260 F.3d 228,232 (3d Cir. 2001) (holding that court should view facts in light most
favorable to non-moving party and draw all inferences in that party’s favor); see also Skoczyias v. Atlantic Credit &
Fin., Inc., 2002 WL .55298, at *2 (E.D. Pa. Jan. 15,2002) CWhen considering a motion for summary judgment, a
court must view all facts and inferences in a light most favorable to the nonmoving party.” (citing Matsushita Elec
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, S87 (1986))); see also Brown v. Muhlenbutg Township, 269 F.3d‘
205,208 (3d Cir. 2001) (citing Beers-Capitol v. Whetzel, 256 F.3d 120, 130 n.6(3d Cir. 2001)).
PAGE 12 OF 21

RESPONSE - 43a

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

May 21,2018

1) Defendants filed two (2) sets of ‘‘redundant” (identical) Table of Contents, Table of
Authorities,

Legal

Memorandums, and

‘impertinent” (irrelevant)

and

“scandalous” (discreditable) matter 3 and “pretextual” (untruthful, hoax, or
made-up story to make believe falsehood) with following m Deciararinm, made
under the penalty of peijury in support of Defendants’ Response and Cross Motion:
a) Jeremiah Newell, Meier mechanical engineer by trade having no education,
certification, or training in electrical engineering deceivingly declares, “I was
gyery frustrated” with Mr, Shah’s (electrical) contribution to (Cooper George
MEP) 90% report” but Newell does not check with Plaintiff if Newell was missing
anything before he submits die report to Meier Client Mr. Pete Miller. (Defendants’
Cross Motion, Decl. Jeremiah Newell Page 2, Paragraph 4) Defendant Anderson
disparatelv protects Newell for not checking with Shah before he submits report.
Newell Decl. Page 2, Paragraph 6 tells a deceiving date Mav 2. 2016.
Exhibit 23 (lof 2), in fact it’s May 3.2016@11.27 AM. 27 hours after AmtewnnV
inquiry of May 2. 2016 8:29 AM, 30 minutes after Plaintiffs complaint tn
Anderson on May 2 @ 7;56 AM. (MEIER 000816)
Anderson was framing up Plaintiff by asking Colin and Newell to give a
bad report, “I was little annoyed last week with what Shantu contributed.” If
Newell was annoyed last week, whv didn’t he not renort to Anricr«nn nr oW
wdb Plaintiff last week? Right after Plaintiff’s complaint Anderson retaliated

3 The court may strike from a pleading an insufficient defense or any redundant, immaterial, impertinent, or
scandalous matter. Fed R. Civ. P. 12 (f) (Emphasis added).
PAGEJ3 0JL21

PlAlNTiEEISitESPONSEJi3.DEEENDANTS- rROSS motion

RESPONSE - 44a

May-21,^2018

against Plaintiff rather than investigating problem with Doug Farris and finding a
problem solution.
liming exposes pretext. Men lie, documents tell the truth
Only message Newell sends “last week” to Plaintiff on April 26 at 4:32 PM,
“I have got a little more to add and then I’ll send von the final Rev. A”, but Newell
did not show his “frustrations” in his email to Plaintiff. There is no document or
email produced showing Newell ever sent “final 90%” report to Shah far hi« final
review before he submitted to Mr. Pete Miller on April 26. 2016. “FmaTDue
Diligence report jointly prepared bv Newell and Shah (completed before his
termination) was submitted on May 12. 2016 three-davs after Plaintiff May

q

adverse action by Anderson. (Exhibits MEIER 000723,000821)
As a matter of fact, Newell’s supervisor and Meier Mechanical Department
Manager Mr. Colin Bates tells the total truth “Client seems to be satisfied with
bur, work” May 3, 2016 email to defendants Anderson and Keen. Thnnph
Anderson and Keen evades leadership and consnires to retaliate. (MEIER
000191)
Newell’s declaration is a pretext to Retaliation, made-up after Plaintiff on
May 2, 2016, 7:56 AM pursuant to Meier’s Employee Manual “Whistle Blower”
and Open-Door” Policy, complained to Defendant Anderson, Doug Farris work
without Plaintiff’s supervision quoting “Washington state law violation of

PAGE 14 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE- 45a

May 21,2018

engineering practice to stamp drawings not done under engineer’s (Plaintiffs)
supervision”.4
Plaintiff opposed Meier’s engineering practice violation of Washinptnn
§tate-law. Unlicensed Anderson monitored Doug and Plaintiffs work and gave
Doug directions in violations of Washington Law WAC106-25-070 (PLAINTIFF
000001, Shah Decl. 13, Meier Employee Manual Page 10,11; MEIER 000877)
Plaintiffmade recommendation to Defendant Anderson “to design projects by Zack
in Vancouver office with my directions so I have comfort as an Engineer of Record”
Plaintiff was given disparate treatment by Anderson wh« knew Farris
poor work performance, not disciplined and terminated Farris, until June 22,2016
by Kelly Waterman, citing Doug problems related to May 2 complaint by Shah to
Anderson. (Exhibits MEIER 000224,000226,000809)
b) Defendant Bobbi Keen having no engineering background untruthfully declares
“the (Strategic) committee met on April 14 (9:45 AMI and April 26. 2016 f 12:02
EMjL We discussed his work performance.” (Defendants’ Cross Motion Decl.
Bobbi Keen Page 3, Paragraph 13) when there was no such issue existed disomspH l
recorded, or produced by defendants as of Aoril 26.12:02 PM Strategic rnmmittw»
Meeting (MEIER 000786-000788) discuss Only “interviewing and selecting”
candidate Kelly Waterman, as an Electrical Group Manager (Lead Job) in those
two meetings with $125,000 salary plus a $5,000 bonus offer (Exhibit MEIER
4 Plans, specifications, plats, and reports prepared by the registrant shall be signed, dated, and stamped with said
seal or facsimile thereof. Such signature and stamping shall constitute a certification by the registrant feat the same
was prepared by or under his or her direct supervision and that to his or her knowledge and belief fee same was
prepared in accordance wife fee requirements of fee statute. ROW 18.43.079
PAfiP 15 OF 71

ELAlMIffP’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE - 46a

Mav 21.2018

000146-147), the position that was denied to 75-year old Plaintiff of Asian descent
with a three-times professional electrical engineering practice that of Waterman
much younger than Plaintiff. (PLAINTIFF 000007-000008)
Plaintiff was offered a 25% lower salary with no bonus (MEIER 000664)
though Plaintiff and Waterman both candidates for Lead Job were Professional
Engineers, licensed to practice electrical engineering in Washington.
AH department managers at Meier including Mr. Waterman were of White race.
Plaintiff’s hiring turned out a temporary measure after Waterman was hired on April 26,
2018, who carried over projects assigned to Shah, proving racial and age disparity in hiring
and compensation, is motivation factor for Discrimination^
Defendant Steve Anderson’s May 3,2016 decision to terminate Plaintiff on May 9,
2016, was for Shah’s complaint on May 2, 2016 and to save his (agency) hiring fee”
(MEIER 000191) because Volt had placed Waterman as a Lead Job after Plaintiff was
denied the position (Defendants1 Cross Motion Decl. Bobbi Keen, Page 3, Paragraphs
15-16). Decisionmaker Defendant Anderson lacks experience, training, qualifications, and
knowledge of electrical engineering to make what is right and wrong in engineering reports

5 The plaintiff may recover on a showing dial the alleged discriminatory employment practice was based on ah
individual’s race, color, religion, sex or national origin. 42 U.S.C. § 2000e-2(aXl) The plaintiff may prevail by
showing that the discrimination was "a motivating factor" in the employment decision even though other factors also
motivated die decision. Washington v. Garrett, 10 F.3d 1421, 1433 n.15 (9th Cir.l993);see also Costa v. Desert
Palace, Inc., 299 F.3d 838,853-59 (9th Cir.2002) (en banc), qjSTd, 539 U.S. 90 (2003) ("Put simply, the plaintiff in
any Title VII case may establish a violation through a preponderance of evidence (whether direct or circumstantial)
that a protected characteristic played ‘a motivating factor.”’); see oho KKO.C. v. Abercrombie & Fitch Stores, Inc.,
135 S. Ct. 2028,2032 (2015) (explaining that phrase "because of" "typically imports, at a minimum, die traditional
standard of but-fbr causation," but Title VII relaxes this standard "to prohibit even making a protected characteristic
a ‘motivating factor’ in an employment decision") Ninth Circuit Court 10. Civil Rights Title VII - Comment
PAGE 16 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE - 47a

May 21,2018

and is biased to Plaintiff since Plaintiff challenged ongoing wrongful engineering practice
under his supervision.
May 3,2016 proximate decision to discharge Plaintiff, a day after his complaint
of May 2,2016 establishes Title VII “hut for” standard6
On May 6,2016 Plaintiffs electrical projects were transferred to Waterman with a
12-year architectural consulting. If Meier retained Shah beyond May 9,2016 Meier would
have paid employment agency Volt duplicate 18% fees for both Shah and Waterman.
(PLAINTIFF 000009-000010, MEIER 00139)
c) Decisionmaker Steve Anderson, Meier's former CEO having no electrical
engineering experience, education, or WA State certification proffers contradictory
reason, “Mr. Shah’s unfamiliaritv with L&I” for not hiring Plaintiff as an Electrical
Group Manager (Lead Job)”, but Anderson assigns Plaintiff the same “L&I (project) for
the state required review as a Professional Electrical Engineer.” (Defendants’ Cross
Motion, Deck Steve Anderson Page 2, Paragraph 6 and 7) Position Job Description does
not mention L&I. (Exhibit MEIER 000148-149) Last sentence of Paragraph 6 is another
unbelievable lie, “distribute work as a Senior Electrical Engineer/Project Manager before
putting him in Lead supervisor role.” As a matter of fact, Meyer was interviewing and
hiring Mr. Waterman as an Electrical Group Manager, a Lead Job as the Strategic
Committee Meetings April 14 and 26 Staffing Notes show. (Exhibits MEIER 000786000788). Anderson Decl. Paragraph 7 has another hoax, “Mr. Shah did the Original

6 In retaliation claims, however, the correct standard in determining causation is the "but-for" standard and not the
"motivating factor" standard. Univ. ofTex. Sw. MedCtr. v. Nassar, 133 S. Ct 2517 (2013)
PAGE47-QF-21

LLAMIIEEISJ&ESEQNSETOJDEFENDANTS’ CROSS MOTION

RESPONSE-48a

Mav 21. 2018

design.” In fact, Plaintiffprotested on November 2,2016 & 7:56 AM “It’s a state violation
of engineering practice to stamp drawings not done under engineer’s supervision”. (Shah
Dec. 12 and 13, PLAINTIFF 000001)
Plaintiff was assigned L&I Project to review when Anderson was “pushing Doug
Parris to come through”, though Anderson’s pretextual reason of “linfawitliaritv with
Ml” for not offering Plaintiff Electrical Department Group Manger position
recommended by Volt with two references, is unworthy of credence. (Exhibit MEIER
000644-647,000665-666,000886)
Plaintiff as an examiner on March 26,2018 asked Deponent Anderson a question:
“So why was not he offered again electrical department manager position*?” Anderson’s
answer does not mention L&I requirement. (Anderson Dep. Page 79) L&I pretext of not
offering Plaintiff Lead Job was invented first time following Anderson’s deposition, next
day on April 27,2018 by Defendant Keen’s testimony. No prior testimony or record shows
it. (Keen Dep. Pages 38-68) These pages also highlight disparate treatment given to
Plaintiff, a new-kid-on-the-block, from that of Doug Farris’s. Doug was protected by
Anderson from Disciplinary action. No records or memos produced of what was asked
during Plaintiff and Waterman interviews of their L&I experience and no document exists
what was discussed between Defendant Anderson and Denise Sweeden hearsay regarding
Plaintiff’s termination as Keen admits. (Keen Dep. Pages 63-74)
Anderson Dec!. Page 4, Paragraphs 13 and 14 are fabricated hearsay as pretext.
There are no docs produced or email exists that corroborate Ms. Sweeden stoty. Documents
produced do not narrate dates or sources or their statements. If the committee discussed it,
PAGE 18 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE- 49a

May 21,2018

these important records or the dates of Seated exchan.es" between Defendant Anderson
and Collin Bates do not exist in Plaintiffs employee records and were not among nearly
1000 documents Defendants produced. It’s a hoax. (Hoax - “falsehood deliberately
fabricated to masquerade as the truth” - Wikipedia)
Even if someone would believe for a second Anderson’s scandalous fal^hfwt Qf
“heated exchanges” with Mechanical Department Manager Colin Bates, it shows
Defendant Anderson’s state of mind and the quality 0f his leadership ac » rpr> of not
resolving employee’s suggestions but attacking subordinate’s opinions and framing
Defendant for the sole purpose of discrimination.
Entire Anderson Deposition (Pagestld-lll) by Pro se Shah, shows Anderson-supervised
electrical department was disorganized/floundering. Defendant And
erson takes the responsibility
(52:17), resulting from lack of his engineering training, knowledge, understanding, and making
rash decisions. Since Anderson was CEO/President, no Meier employee could bell the cat

, until

Plaintiff opposed Meier’s engineering practice violation of state law Andexso
n supervision and
leadership problems existed before Plaintiff was hired. (MEIER 000809)
Anderson didn’t care about “Resume - Shantu Shah” which mentions Shah’s department
management experience with an engineering Ann in Eugene, Oregon, and Volt recommendations
by two (2) licensed engineer Bart Makadia and Mark Van Duser with their phone numbers listed.
Waterman Resume lacks electrical department management experience. (Dep. Anderson Page
10», Exhibits MEIER 000647, MEIER 000139,000665) These and man,
M ..three (3) declarations by Anderson. Keen, and

PAGE 19 OF 21

RESPONSE - 50a

after hoax

would not stand a trial, too many to

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

May 21,2018

argue, would be a pretext for the fact finder. These declarations with holes in its jetliner windows
would cripple the high-flying Meier defense at a trial. Fact finder would not buy it.
Viewing the evidence as whole with a “3-part burden shifting analysis” of McDonnell
Douglas, rieclarations Proffered under oath by Newell Jerimiah, Defendant Bobbi Keen, and
Defendant Steven Anderson, are pretext for Retaliation, and age and race discrimination7,
must be stricken.
£. Plaintiff Concedes this is Not a Fraud Case.
V. CONCLUSION

:

For the foregoing reasons, Defendants' cross-motion for summary judgment should be
denied and Plaintiff awarded appropriate relief. 8
Respectfully submitted to court on this 21st day of May 2018.
By:_
Shantubhai N. Shah, Pro Se Plaintiff
6637 SW 88th Place,
Portland, OR 97223 Phone: 503-272-8843

7 The burden-shifting framework in McDonnell Douglas Corp.v- Green, 411 U.S. 792,80i-04 (1973), is as follows:
[tjhe employee must first establish a prima facie case of discrimination. If he does, the employer must articulate a
legitimate, libndiscrimihatory reason for die challenged action. Finally, if the employer satisfies this burden, the
employee must show that the reason is pretextual either directly by persuading the court that a discriminatory reason
more likely motivated the employer or indirectly by showing that the employer’s proffered explanation is unworthy
of credence. Davis v. Team Elec. Co., 520 F.3d 1080, 1089 (9th Cir. 2008) (internal quotation marks and citations
omitted)
6 See 42 U.S.C. § 2000e-5(gX D(providing for reinstatement, back pay and "any other equitable relief as the court
deems appropriate"). Hie 1991 amendments added the legal remedies of compensator and punitive damages. 42
U.S;C. § 1981a(a)(l),
PAGE 20 OF 21

RFSPQNSE - 51a

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

May 21, 2018

CERTIFICATE OF FILING AND SERVICE
1 hereby certify that on May 21,2018,1 filed the foregoing proposed Plaintiffs Response
to Defendants’ Cross Motion for Summary Judgment with the following:
US District Court of Oregon
Portland Division
Mark 0. Hatfield U.S. Courthouse
1000 S.W. Third Ave.
Portland, OR 97204
I also hereby certify that onMay 21,2018,1 served a copy of the Plaintiffs Response to
Defendants’ Cross Motion for Summary Judgment via First Class Mail on the following:
Krishna Balasubramani OSB No. 942431
SATHER, BYERLY & HOLLOWAY, LLP
111 SW Fifth Ave, Suite 1200
Portland, OR 97204-3013
By:
Shantubhai N. Shah, Pro Se Plaintiff
6637 SW 88th Place
Portland, OR 97223
Phone: 503-272-8843

PAGE 21 OF 21

PLAINTIFF’S RESPONSE TO DEFENDANTS’ CROSS MOTION

RESPONSE - 52a

May21,2018

;»
• *irr

;

Shantubhai N. Shah
Pro Se Plaintiff
6637 SW 88th Place
Portland, Oregon 97223
Telephone: 503-272-8843
Shantu.shah@gmail .com

!
:

INTHEUNITED STAINS DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION
SHANTUBHAI N SHAH, an Individual,

Case No.: 3:17-^7-00226-JE

!■

Plaintiff,

MEIER ENTERPRISES, INC,
a Washington Corporation,
PAUL GIEVER, CEO/President,
STEVE ANDERSON, an Individual,
BOBBI KEEN, an Individual,

PLAINTIFF’S DECLARATION
IN SUPPORT OF RESPONSE
TO DEFENDANTS’ CROSS
MOTION FOR SUMMARY
JUDGMENT

Defendants.

I, Shantubhai N- Shah, declare, the following facts are based on my personal knowledge:
1. I am a professional electrical engineer registered in Oregon and Washington
since 1978, born in India in 1940, and became U.S. Citizen in 1976.
2. Prior to immigrating to USA, I have managed ethically 50 plus employees at
Gujarat State Electricity Board Power Distribution Substation in Gujarat India.

Page!
RESPONSE -53a

Shah Declaration -Shah v. Meier Enterprises et al

May 21,2018

3. I have operated Engineering Design Corporation as an owner at 5150 SW
Griffith Drive, Beaverton, Oregon from 1985 for 20 years and managed my
employees with respect pursuant to equal employment opportunity/ADEA.
4. As a professional engineer I always supervised employees’ design work
pursuant to engineering practice rules, never disciplined by licensing authority.
5. On March 10,2016, L had a phone interview by Defendant’s staff, followed by
two personal interviews at their Kennewick, and Vancouver Washington offices
respectively on March 14 and March 21, 2016, as a result I was offered the
position of Sr. Electrical Engineer and Project Manager to manage projects in
Oregon and Washington, at Defendants’ Vancouver, Washington office
beginning March 22, 2016 to replace electrical engineer Dennis Zimmer
position, who resigned with a 2-week notice. (MEIER 000175,000176)
6. Prior to my interviews with Meier Enterprises staff and before the vacancy in
Vancouver office, Erin Wellnitz of Volt Resources contacted me for a vacant
Position of Electrical Department Manager with Defendants’ Kennewick office.
7. In response to her contact with me I provided my professional experience resume
to Volt Resources describing my experience of my own firm as a principal, and
with Bonny Bennet and Peters Inc. as an Electrical Department Manager in
Eugene Oregon, and two references from Mr. Mark Van Duser, PE, and Mr. Bart
Makadia, PE about my 40 plus years of experience with them in Idaho, Oregon,
and Washington state projects as a licensed professional engineer. (MEIER

000643 thru 000649,000665-666)

Page 2

RESPONSE - 54a

Shah Declaration - Shah v. Meier Enterprises et at

May 21, 2018

?;

8. Position for the Electrical Department Group Manager was kept open, though I
expressed my interest in lead position, relying on my experience as a Manager.
9. At no time I was asked about my experience with the Labor and Industry (L&I)
State of Washington, or my familiarity with Defendants’ clients either by Volt
Resources or Defendants’ staff during my interviews, nor was one of the
Requirements of vacant positions nor I was asked about it after T was hired.
10, During my six weeks of employment at Vancouver office there were no major
local projects that could be designed in that office. Major projects I was assigned
were near to Kennewick office with 50- person staff, while the Vancouver office

•;

staffed with a designer Zackery Erz, ran inefficiently due to lack of staff.
11 . During my third Official visit on April 26,2016 to Meier office in Kennewick
Mr. Steve Anderson introduced me to a young Professional Electrical Engineer,
Mr. Kelly Waterman, a Caucasian with 12-years of experience, who was offered
Electrical Department Group Manger position at a higher salary than Plaintiff’s.
' 12..Erz advised me not to trust work performed by Mr. Doug Farris. On April 4,
2016 Erz complained Farris’s poor quality of work to Mr. Anderson and his
direct supervisor Mr. Colin Bates. (MEIER 000809) During my three official
visits to Kehnewick office for personal training, I found Farris, an unlicensed
Electrical Engineer working on a Washington School L&I plans without
directions by a professional engineer. I was provided desk next to Farris.
13. Mr. Anderson was Doug’s supervisor and was pushing Farris to complete
project documents and advised me to review of Farris designed work as a
“company policy to be reviewed bv a third party”. I opposed on May 2,2016 at

1
Page 3

RESPONSE - 55a

snan oeclaration - snan v. ivieier enterprises ei at

iviayxx, zuxe

7:58 AM via email, as it was riddled with errors since it was prepared by Farris
unlicensed engineer in violation of the State of Washington Engineering Rules.
(MEIER 000762)
14. After hiring of Mr. Waterman, and within an hour following my good faith belief
complaint about Defendants’ practice of unsupervised engineering work in
violation of the state law, I found Mr. Anderson was hostile to me via emails
(MEIER 000875, 000877) and the work assigned to me was rescheduled on
May 6,2016 for the New Department Manager, Mr. Waterman. (PLAINTIFF
000009-000010) I realized I was being discriminated and retaliated against.
15. On May 9, 2016 after a week of my complaint, Defendants’ retaliated,
terminating my employment with Defendants 2-weeks prior to my prescheduled
60-day probationary review, contrary to Defendants’ “Affirmative Action Plan”,
“Equal Employment”, “Title VH”, “Whistleblower”, “Age” and “Open Door”
policies, without telling me a specific reason. (Meier Manual Pages 7,10,11)
16. On July 25, 2016 based on my good faith belief I filed a charge against
Defendants of Discrimination by Race, Age, and Retaliation with Washington
State Human Rights Commission. On August 16,2016 U.S. Equal Employment
Opportunity Commission advised Defendants discrimination charge occurred
from March 22 and May 9,2016. (MEIER 000173,000178)
17.1 have read Declarations by Defendants, majority of which are pretextual hoax.
I declare under penalty of perjury that the foregoing is true and correct.
Signed on: May 21,2018
Shantubhai-N Shah, PE
Page 4
RESPONSE - 56^

Shah Declaration - Shah v. Meier Enterprises et al

May 21,2018

:

V

-WAC 196-25-070
Providing direct supervision.
s

i

i

Direct supervision means the actions by which a licensee maintains control over those decisions
that are the basis for the findings, conclusions, analyses, rationale, details, and judgments required for
the preparation of engineering or land Surveying plans, specifications, plats, reports, and related
activities. Direct supervision requires providing personal direction, oversight, inspection, Observation
and supervision of the work being certified.
These actions may include, but are not limited to: Direct face-to-face communications; written
communications; U.S. mail; electronic mail; facsimiles; telecommunications, or other current technology.
Contractual Or employment relations must be in place between the licensee and unlicensed preparer to
qualify as direct supervision. Mentoring is not direct supervision. Drawing or other document review after
preparation without involvement in the design and development process as described above'cannot be “
accepted as direct supervision.
[Statutory Authority: RCW 18.43.035. WSR 10-05-017, § 196-25-070, filed 2/4/10, effective 3/7/10- WSR
06-22-033, § 196-25-070, filed 10/25/06, effective 11/25/06. Formerly WAC 196-23-030 ]

*

■

:

!

}

:

:
;

(PLAINTIFF 000001)

RESPONSE -57a

Meier

Employee Manual

•

m

An agreed upon work schedule between the Employee and the company that regularly allows the
Employee to work from the Employee’s home, rather than from the principal place of employment
• Work from home at least one day every two weeks regularly.
• A work alternative mutually agreed upon between the Employee and management.
There may be occasions when work-from-home or work at an alternate site occurs and is approved by an
Employee’s supervisor. These instances of alternate work are negotiated between the Employee and his/her
manager on a case-by-case basis and are not considered telecommuting.
Affirmative Action Plan
Meier has an Affirmative Action Plan that meets the federal government requirements of being a company
of 50+ Employees and holding federal contracts. The President/CEO has the ultimate responsibility for
ensuring that equal employment opportunity and affirmative action receive the high level of priority that is
due this activity. The Controller has been designated as the Equal Employment Coordinator ofthe company
and has the full support of the President/CEO and other key management in carrying ont these duties.

m
m
m
m
m
m
m
m
m

Equal Opportunity Employer
Meier is an Equal Opportunity Employer. This means that we will extend equal opportunity to all
individuals without regard to gender, race, religion, color, sex, national origin, sexual orientation, gender
identity, age, disability, handicap or veteran status, citizenship, marital status, or any other factor protected
by law. This affirms Meier’s commitment to the principles of fair employment and the elimination of all
vestiges of discriminatory practices that may exist. We encourage all Employees to take advantage of
opportunities for promotion as they occur. Meier will not require an Employee or perspective Employee
to submit genetic information or submit to screening for genetic information as a condition of employment.
Race. Color. Religion. Sex. National Origin
Title VII of the Civil Rights Act of 1964, as amended, protects applicants and Employees from
discrimination in hiring, promotion, discharge, pay, fringe benefits, job training, classification, referral, and
other aspects of employment, on the basis of race, color, religion, sex (including pregnancy), or national
origin. Religions discrimination includes failing to reasonably accommodate an Employee’s religious
practices where the accommodation does not impose undue hardship.
Disability
Title 1 and Title V of the Americans with Disabilities Act of 1990, as amended, protect qualified individuals
from discrimination on the basis of disability in hiring promotion, discharge, pay, fringe benefits, job
training, classification, referral, and other aspects of employment. Disability discrimination includes not
making reasonable accommodation to the known physical or mental limitations of an otherwise qualified
individual with a disability who is an applicant or Employee, barring undue hardship.
Ag§
The Age Discrimination in Employment Act of 1967, as amended, protects applicants and Employees 40 .
years ofage or older from discrimination based on age in hiring, promotion, discharge, pay, fringe benefits,
job training, classification, referral, and other aspects of employment.
Genetics
Title II of the Genetic Information Nondiscrimination Act of 2008 protects applicants and Employees
from discrimination based on genetic information in hiring, promotion, discharge, pay, fringe benefits, job
training, classification, referral, and other aspects of employment. GINA also restricts employers’
Rev. 20

RESPONSE - 58a

7

12/07/2015

Meier

Employee Manaal

Whistleblower
Washington State's whistleblower law gives evety Employee the statutory tight to report all improper
actions of other Employees. Meier encourages its Employee to exercise this right when necessary.
“Improper action” means any of the following actions, undertaken by an Employee, within the performance
of his or her official duties: 1) an action that is violation of any federal, state, or local law or regulation; 2)
an action that is an abuse of authority; and/or, 3) an action that is substantial and specific danger to worker
health and safety or to the public health and safety.
Employee, who become aware of an improper action, as defined above, should report it directly to the
manager/corporate officer/board member at the organizational level immediately above the infraction level
in accord with established organizational lines. Identity of the reporting Employee will be kept confidential
to the extent possible under law unless the reporting Employee authorizes the disclosure of his or her name.
Prompt action to properly investigate will be taken and the reporting Employee will be advised of the results
of the investigation. Retaliatory action is prohibited against those reporting in good faith.
Ethical Conduct
We are committed to employing the highest quality people and strictly adhering to ethical and fair practices
in our business activities. We expect 100% commitment from you and require integrity and high ethical
standards in all business activities.
Employees should not accept gifts, make personal investments, or participate in interests or associations
that may interfere with the independent exercise of yourjudgment, the performance of your responsibilities,
and the best interest of Meier. You are not authorized to provide professional services to a competitor or
other company that may be a conflict of interest with your work at Meier.
Every Employee has some degree of access to Meier data, plans, decisions, customer lists, and/or other
confidential information. No Employee may use or release this kind of information, except as required for
the performance of his or herjob duties. You should also treat as confidential any information of a personal
nature regarding your co-workers. This also applies to the use of inside information about firms with which
Meier is considering an association.
While representing Meier, you are expected to comply with all laws and regulations; deal honestly wife all
customers, suppliers, and consultants; and, use Meier resources properly.
If you are unsure whether a situation represents a conflict of interest, please contact your manager to review
fee situation.
Employee Behavior/Personal Conduct
Professional behavior standards are necessary for fee efficient operation of Meier and for the protection of
everyone’s rights and safety. Conduct that interferes with operations, brings discredit to Meier, or is
offensive to customers or fellow Employees will not be tolerated, whether it occurs on or off company time
or company property.
Meier reserves fee right to determine What conduct is inappropriate under any circumstances and what level
of discipline such conduct warrants. Any questions should be directed to your manager or human resources.

Rev. 20

RESPONSE - 59a

10

12/07/2015

Meier

Employee Manual

Open Door

Presxdent/CEO, Controller, Chief Administrative Officer or Human Resources.
Personnel Records/Updating Personal Infarmaiim
P^sonue! files contain information about employment, including employment resumes, acknowledgements
^d pertoance reviews. Protected information such as social security numbers, birthdates and S
„UfJS.^etkeptSepf?1? fie’ Meier SnaMy resards &ese files as confidential and limits access to
rll— Med.lcal.“formatlon is topt separate from general employment records and is available
to Ofir^s only m very limited circumstances. An Employee should contact his/her manager or Human
Rtsources ^Employee would like to review the information in his/her file. If an Employee disagrees with
t6 Empl°yee may add a statement reflecting your disagreement. Employee are

As a practice Meier does not provide a copy of your Employee file upon termination.
Matching Gift Program

SSSsHSSSSS

eSrit^°Thhe
ri TnUe SerV1Ce (IRS)‘ Th* orgaQization must be classified by the IRS as a public
chanty_ The orgamzahon/project must serve the local community. No goods or service may be received
St°r,0tier deslgnaled individuals in exchange for the matching gift. AH matching
gins will be mailed directly to the non-profit from the company.
Travel

DRUG FREE WORKPLACE
Merer maintains a drug free and non-smoking work environment. Chewing tobacco and e-cigarettes
must
be kept discrete and not observable, especially to Clients.

Si^SSsS5S3r-!s=,-==K
The following work rules apply to all employees:
Whenever employees are working, are operating any company vehicle, are present
on company premises,
or are conducting related work off-site, they are prohibited from:
*
“ «*-*■« - «*■
«° -Me
—* . Being under the influence of alcohol or an illegal drug as define in
Rev. 20

RESPONSE - 60a

11

12/07/2015

1

last
Aaron
Alex
ABdtOny
-—Bill
ib
Bob

•;

Bob
Bobbl
Brandy

Brian
Brooldynn
Colin

Pale
Dave
Dennis
Derek

Denise
Diana
Donna
Donna
Obug
Doug
Ed
Eliot

Eric
Gale
Gary
Janae
Jason
Jason
—'eremiah
if
Joel
Kevin

A.: Kristi

'

Meljssa
Mike
Monica
Nathaniel
Paul
Renata,
Rick
Shatrtu
Shari

yC Steve
,Tamra
^•Tony
Will
Zack

Pierce
Butterfield
Cockbain
Moore .
Goodman
Parks
Simmons
Keen
Taylor
Burke
Jefferson
Bates
Green
West
Zimmer
Archer
Sweedca
Linsowe
Bussclman
WilKams
Radio
Farris
Lucbbcn
Black
Ferguson
Culbertson
Renting
Day
Ingalls

Walters
Newell
Shuttleworth ,
Money
Miller
Shumway
-Slater
DaValle
Fine
Weinman .
Gtever
Fleshy
Ahrens
Shah
Matthews
Anderson
Lehuta
Vader
Pickett
Erz
Manhattan

OFFICE ADDRESS:

Ext.

I*

6922
6923
6936
6949
6943
6981

AMr
APB ACC
8HM
RIG
RJP
RWS
BAR
BET
BIB
BNJ
COiB
DEG
, ■ DWW
DJ2 .
DLA
DKS
DLL
DLB
DCW
SHE
DCF
ETL
ETB
EEF
GAC
CDF
E1D
JEI
JAW
JJN

6917
6908
6921
6927
6968
6962
6925
6914
6947
6982
6932
6971
6974
6928
6935
6984
6965
6919
6924
6957
6934
6955
6916
6979
6918
6964
6972
6992
6951 ,
6980
6961
6986
6950
5933
6930
6967
6942
6931

Jts
JMM
KDM
KMS
MBS
MTD
MLF
NRW

Tide
Network Support Administrator
Mechanical Engineer
Director of Projeets
Sr. Mechanical Designer
Sr. Mechanical Engineer
Project Manager

Cell Phone;

Work Honrs

366-7799
360-5134903
460-7776
737-7807
509-528-9672
378-5888

8:30-5:30
7:30-4:30
830-530
7:30-4:30
M-Hi 9:00-1:00
7:30-4:30
7:30-4:30
7j3Q^4t30
M- Th:730~ 43P F: 730-1130
7:00-4:00
7:00-3:30
8:00-5:00
7:30-4:30

Sr. Electrical Designer
Controller
Project Accountant
IT Manager
Marketing Coordinator/Tech Writer
Mechanical Group Manager
Mechanical Technical Manager
Mid-Level Civil Designer
Sr. Electrical Engineer
Mechanical Engineer
Director of Marketing/CAO
HR Coordinator
Electrical Designer
Administrative Assistant
Senior Architect
Electrical Engineer
Senior Architect
Architectural Intern
Civil Engineer
Construction M anager/Estimator
Structural Group Manager
Sr. Architectural Designer
Civil Engineer/Assistant Project Manager
, Civil Engineer
Mechanical Engineer
Structural Engineer
Drafter
Sr. Electrical Engineer
Structural Design Engineer
Sr. Structural Designer/Asst Proj. Mgr.
CADDLead/Sr. Designer
CADD Lead/Sr. Mechanical Designer
Mechanical Engineer

509-5393093
46045007
430-6815
554-313?
SSI-8578
360.947.9950
539-2995
9474353
.

947-2331
509-4064)280
509-520-6099
3l4r607-29U

8:00-5:00
830-530
730-4:30
7:30-4:30
M-Th 6:00 - 2:30, F 6:00- 12:00
8:00-55)0
730^430
730 - 4:30 .
730^430
9:30 - 6:30 .

961-3458
9874296
948-2556
509-759-5300

M-Th 630-4:30
7-30-430
9:30-4:30
M-Th 6:00-4:30

509-727-7607
509-840-3343
.509-378-2527
947-8482
.

730-430
M-Th 9:00-630
730-430
7:30 - 4:30
7:30-430
630-430 M-Th
8:00-530
8:00-430
7:30 -430
730-430
7:00-• 330
7:00-430

509-412-2585

«8-im
509-308-1818

PMC

Strt^lTetfari^Mantor

539-8731

HP
RSA
SNS
SJM

ArchitecturalGronp Manager
Structural Engineer
Project Manager
Document Control/Records Mgmt Clerk

947-6868
509-460-7093

ms

SRA

Present

948^501

6915
6958
6987
6973
6989

TEL
TSV
WWP
ZIE

Landscape Designer
Structural Design Engineer
Senior Project Manager
CADD Lead/ Sr. Electrical Designer
Columbia

12 W. Kennewick Ave.
Kennewick. WA 99336

ODD Prefix: 737-XXXX

Phone: 735-1589
Fax: 783-5075

528-9509

360-601-6957
788-5071 6956

V--

7:30-430
730-430
7:30-430
730-430
7:30-430
Reactor 6977

Meier Engineering
101 E. 8“ St. Suite 230
Vancouver. WA 98660
Phone: 360-696-8498
Vaitt. Con£ Room: 6975

.

PLAINTIFF i000002
•;

RESPONSE-61a

'~~''tpMneferinccom)

□

Meier Architecture • Engineering a™ouJtces new hire

Posttdoo4pc«7,2016{mtp^mcieT^omAneteMft«ft<twMle

P<at«l to Nem/Sfo(httptfAqefrrtncxom<teaa^)^wfrj|)iogfl |
«e--Ts-t<^-%r. l'r->vx8rgacxv^-a,-J;j

• Meier makes the mow to dowitomi ttn^rhiihKpi^tiert^ojn^ ^"'^'
merer-mites^he^cH^oKkwntDwtvkennertctfl

ty-jsws-.

r^rr
ARCHIVES
Afirll 2016 (httpMneiertnceom/ZOIGAM/)
M«dt ZD16{httpMrielertnc.co>n/2oi6/G3/)
t*t*u*y 2Ot6(*»tpMnefertnccam/2Q16/02/)
Ow^m&er 2015 (Mtpu»nelHlnu»m/201S/12/)

November 201S (httpc//hte1ertnca>m/20 15/11/)
OOober 2015 (httpM7tefertnc.com/201 S/10/)
May 2015 (httpMnelartnc.com/2DlSAtS/)
April 20IS (1rttpimiie1eitnc.com/20l5/lM/)
Marth 2015 (http^An etertnc.com/201S/tl3/)
Nne 2014 (httpMneiertnc.com/zoi4/OG/)

NEWS

•' Meier makes the move to downtown
Kennewick (fittp^/meierinc.com/meiermakes-the-move-to-downtownkennewickO
Mete/nas fannedin the IH-atyHeiaH Progress
2016, Alin): to the atode can be found here;
__ j^AwntfrcttyheralilcB^^
«rports/ptogress-e«8ttonmrtkte6735a632.mml

RESPONSE - 62a

PLAINTIFF 000007

)

11/12/2016

Meter, tec. | Meier Arcfitectre • Engineering anrounctx new Bec*^ Group Ma^er

Meier Architecture • Engineering announces
new Electrical Group Manager

Posted' on June 14.2016. by Meier Inc, Admin

■

-. Wr. Kelly Waterman, PE, LEED AP, MBA ■

>T.

feof experience as an etectncal

|L.,

experience ranges from design production to o verall project and business management. H,sexper!L'
inC r ,eS. a^VanCed arch,tectural Wmg analysis/modeling, daylight studies, BIM Modeling photo
Ztr ca do!19 a19" rende"n9S'8nd *he u“llzalion of database driven applications to optimize
electrical design etticency and accuracy. Kelly adds exceptional value by blending form with function
and prowling early architectural input during me design process to integrate me etectrical systems
into
the building. Kelly holds a Master of Business and Bachelor of Science in Electrical Engineerinq from
Gonzaga University. Kelly is a registered Professional Engineer in Washington and a LEED AccredL “
Professional. Kelly also served as a faculty member at Ughtfeir International 2015
teaching a
woifrshop on me integration of.lighting Into architecture and me implementation ’
of control systems.
Posted in News/Biog j

«

Rick Ahrens Earns Professional Structural Engineering Lice nse
Meier Architecture • Engineering Paul Giever To Take Reins as Company Looks to
Accelerate Strategic Direction Initiatives »

PLAINTIFF 000008

r
RESPONSE-63a

Electrical Active Projects 5/06/2016 Hot important
Need totmnsferttls sheet into Bobbl-s new department manager's spreedsbee, mwBrandy
Colin
?36?“IHSChemawa Health Modernization
73267526 - m - Ul/ellplnlt - Shantu, very small review effort remain 5/16
‘ SfilT." ArCh ‘ ltyo“ra ""‘■“Wal - Zack - June construction support
Nel] ASf°Ciat^~Doug/ Shantu, Finish and stamp
date ?
7792- Olson Kundig Arch - Heritagn^rsity-Doug7Sck RFI const support, new classroom scope
TTSS-Saiddo-Vkienatchee Data Center-HOLD Doug {Bob Parks PM)
78S2
Z?*"™ 0ental'comments coming Shantu California stamp
Ull' Pf^cTech Const “ Fort Vancouver - Zack Nathaniel, NO stamp, RFI support
7893 - Akana - MEP - NOT STARTED yet conference call Wednesday - Zack
W ‘ JP?0
“p8rades " Ge,wralor DousCack Pam reviewfbr Stamp 90% out
Doug DUE 5/5 did*eet done?

OougEadie
Ke""ewick - Sruker renovation - Doug (submittal) talk to Jeramlah wire site?
7763 - Maniilaq Services - US Post Office - Doug (submittal only)

^p“prmnreTm L“<needs bK~>

Srr?-Rem0deI'8etstarted'Final next due date?-contract to Pam
7929-PHS Freezer Warehouse Pam and Doug Addendum due 5/12
Gary
- Phase 3

Pa™l loads - lit review - (L&l needs PHS load history, should be

7349 - Intermech support for Tony- Donna {on going)
Paul
7833 - PNNI- Port of Tacoma -out for review-Pam has contract
7887 - PNNL - KiBe High School - Doug, ask Paul to stamp
7922 - PNNL - SRPM-210 DO Garden City - Elect?
Jason
~ w°?wni?W
E,ementa^-submittal WA-Media Center, shantu Due 5/2
7626-West Valley SD-office addition-{review-hold) Doug
7

PLAINTIFF 000009
Page 1 of 2
RESPONSE - fi4a

. S'

Ed
7654 - Lourdes - Cafeteria remodel - Doug (submittals) minor comments, mostly Mech
7692 - Lourdes - lobby remodel contractor to pick up from City
7726 - Blue Mountain Human Society - remodel - Done (hold to June) Gazebo Mod Possible
7734 “ lou_rd.es; Generator Design, Doug - contractor to pick up from Citv
7793 - Benton County - Justice Center - contract to Pam out
~ ? j£!fS ~ 2^°! Bui,dil1g “ Start estimated pushed back to August 15th ish - contract with Pam
7837 - SARC - Office building -100% CD's complete, too expensive! redesign possible7
7847 - Union County Public Works - Rappel Base Building significant effort, est. start 6/15
7860 - Port of Sunnyside - wine production Facility Next due date 5/18? Zack - contract to Pam
7967 - Croskey Properties - Queensgate Due dates?
Jeremiah
Will
iayoufdue S/IeT ^ ~ ^ ^ Range ~ Doug (site triP 5/9-10) Pam needs contract. Bob lighting
Steve
7919 -Ross-Brandt- Humidity Protection - Pam to answer comments back to client
PROPOSALS:
15*0273 - Elect re-scope
15-0389 - Cherry City big project review with Zack and shant..
15- 0450 - Apollo - Basin Disposal get with Gary (hand off)?
16- 0049 - check with Ed
16-0081 Energy Electric - Holiday Inn - been submitted Dennis to check
16_009S Clark PUD “ River Road Generation Plant - lighting - Dennis submitted
16-0099 Manley Arch - Quest Academy Tl -MEP Colin &Shantu
Akana New Proposals
P16-0125 - Uptic Studios - Proposal went out 4/8
P15-0273 - City of Yakima Engineering Services: Community Center Renovations will begin mostly
focused on H VAC - some Electrical will trickle as a result; Change of focus to expansion of existing Police
facility due to poor assessment of proposed facilities to renovate.
P16-0138: Student Union Housing — out
0rchard highlands Retirement Community-Generator Addition - Proposal has not been
started been on our radar for 2 weeks - On the verge of being fired due to tack of movement, waiting for a
proposal to be written and signed before proceeding further
P16-O145-Otak - out

PLAINTIFF 000010
Page 2 of 2

RESPONSE^65a

RECEIVED
«b 22 m
STATE OF WASHINGTON

board of registration for
PROFESSIONAL ENGINEERS AND LAND SURVEYORS
BoardStaff
«S

Websae

gSSSS

doI.wa.gov

August 17,2016
MdierEnfetprises, ln^
Attn; Paul Gicver, PE
12 W Kennewick Ave
Kennewick WA 99336
RE;

Preliminary Investigation # 16-05-0001

Dear Mr. Gieven

electrical engfneet^
^
ta?i Pfofessional engineer on staff. On August II, 2016, the IWu s rr
card’s Practice
eommmee (PQ reviewed a synopsis ofthe complaintdocummtation along with your responses.

•ssrsEssssEsssc^^
wa.eov.

Sincerely*

John Pettainen
Investigator

~S£3K5sbssksss3ss&

<t>*» aervfces.

MEIER 000070
RESPONSE - 66a

August 17,2016
RE: Case Nufriber 16-05*0001
In Response to phone request August 17, 2016:
"HZ*?

doa“nen' "°“ Mtenceteport, to,. o,and datedMay 12,.2016-, W,

BZS^Jg***'* «***»«» »** m»~*m Mfait tepteaseciiPiai
Thank?
8obbi

“/

MEIER 000071
BES.EQfJSEj_6Za

STATE OF WASHINGTON
BOARD OF REGISTRATION FOR
PROFESSIONAL ENGINEERS AND LAND SURVEYORS
Board Staff

Fax

web Site

(360) 664-1575
(360)664-2551

<Jol.wa.gov

May 1$, 2016
Meier Enterprises,!!*;.
Attn: Paul Greyer, PE
12 W Kennewick Ave
Kennewick WA 99336
Dear Mr. Giever,
The Board of Registration for Professional Engineers and Land Surveyors (^oard?) b the state
agency responsible, under the provisions of 18.43 RGW, forlicensingand regulating the practice
Of engineering and land surveying in this gtate
^ - —
Qa May 16,2016, our office received a complaint concerning the business activities of Meier
Architecture Engineering. The complaint was filed by Shantubhai Natvarlal Shah. A preliminary
cOn^aint V ) l^Jvopened’for your reference the case number is #16-05-0001. Aeopyof the
As the assigned investigator 1 would like you to understand thatihete has been no determination
as to. whether any laws or rules under the Board’s authority have been violated. The
investigation process is merely the method to obtain the most complete and correct infbrmation
pertmnmgto toe allegations made,
❖ The purpose ofthis letter is to request adetailed response to die «H«g«tio«<i
In additionto the above noted requested information, please feel See to; provide any additional
information you feel may be beneficial in providing a complete understanding ofthis matter
This information must be received in tois office no later than June 9, 2016.
We listed the firm Meier Enterprises, Me. as the respondent in this case. The complaint listed 4
individuals and the firm. The letter is being sent to Mr. Giever as the Designated Engineer for
the firm. There has been no complaint submitted concerning Mr. Giever, he is out Starting point
for correspondence with the firm conceming this complaint.
If you have any questions call me at 360-664-1571 or via email atroettainen@dnlwa.mv
Sincerely,
John Pettainen
Mvestigator
Enclosures
A0m»»iS!r3(ivesefv*es provided by the Departamiof Licensing wfiic/i has a policy ofproviding equal access

MEIER 000080
RESPONSE -68a

dL LICENSING

mammrsnniBMiKWJF

Engineer/Land Surveyor/On>site Designer
Complaint

^ ^
BOARD'OFHtG FOR

^smwM
PO Box 9026
Olympia WA 98507-9025
Enclose the following:

i sSES
Business or person you are filing a complaint about
PTOTbrTYPePro(assfon«<yl>eaftxjS6*»»

"®*Engiheer
QOn-slte designer

'

'' r~—~f

□ Land-surveyor

Seivlcs pcouMcror prateaalenal fccnme now (laat,.F*a. UrMa)

--------- ^
UeoriwnuiW>«r|W*nowy

NeweliJerettuaii|BafesCdlin,ADdasdn;SteVex), Ferris; Dong:
MeierArchitectnre-Bngmeering
(Atm coda) TW*phonarumbef«ndaxtencJwi

509-735-158?

1—

■48287,47055, NA, HA. Respy.- •.
•"■ V-:

{Are* oem»)FKt number

wwwjneicrincicojm

Business adkfrcss

12 W.KamewiekAyb
at)
Keimewiclc,
Your contact information

I state

aPeoda
993316

.•■;-> f

•>» j

Name {Last HtAUSUh)

Shah Shantubhai Natvadal
Bustos* nemo deny)
(Area eodeJTWephcne number end extension

503-245-1722

(Araatods)««awatetW*TO;nsjwier|. Eroi address J—^

503-890-0012

shanto.shah@amailxotti

j^SWgSth Place
Cfly

Poritaffd
Complaint summary

:/

Pm«aabdefarennwyofyo»ria)nip^A«ach«niKMBanii«»»^«^^y

"'

State

| -21? code

OR

1 97223

------- --——•

---- ...., - • ■ ..........

Practicing electrical tmgineinjg without edncaition/li«»'<s> fa ►Wr™*,!
Uafeir; tmtiinley dealing by Jeremiah Newell wife fehowproftssionalengbieer.

The Information I have provided above Is true and correct, and! ham provided aO mqufred enclosures to which / have access.

It

05/16/2016

Sgneum-

bpmcmxssc (Wi/i«w»P»cti at

Date

ifJ«u neeatccomMd^r^^da

MEIER 000081
RESPONSE- 69a

H

P^ARGHiTECTURE*ENBlNEERlNG

PAYROLL CHANGE NOTICE

BM8CFCraftte,

EMPLOYEE#

SOCIAL SECURITY NO

I

NAME

ADDRESS

Kt llio
PHONE

1 CITY/STATE/ZIP

DEPARTMENT

H

i

i

STATUS

THE CHANGE(S):
From

Check all boxes that are applicable

To

□ DEPARTMENT
□ JOB TITLE
□ STATUS
□ RATE
□ ADDRESS/PHONE
□ BENEFIT PLAN
□ SPOT BONUS
jlfOTHER

fo<fi 3&C

SDO0

THE REASON FOR THE CHANGEfSV:
□ HIRED
□ RE-HIRED
□ PROMOTION
□ DEMOTION
□ TRANSFER
□ MERIT INCREASE

PROBATIONARY PERIOD COMPLETED
□ SPOT BONUS
□ RE-EVALUATION OF EXISTING JOB
□ RESIGNATION
□ RETIREMENT
□ layoff

□ WAGE SCALE CHANGE
□ LEAVE OF ABSENCE FROM

□ DISCHARGE
UNTIL_____________

(DATE)

(DATE)

TYPE OF LEAVE:.
EXPLANATION^

AUTHORIZATIONS ^
|RECOMM£NOED BY:

DATE

APPROVED BY:

DATE

xZ/iz/ife
MEIER 000121

RESPONSE -70a

12/02/16

k

NEW HIRE EMPLOYEE CHECKLIST
COMPLETED

NAME OF FORM

email to it
Employee Name:
Employee not
Home phone:
Start Date

Wtp
___ iMm*
G>L\ ft
-tmqm
feDite___
. /________
mi.«i
5/31 tiu
Cell:

Employee Resume
Offer Letter with employee signature

Pre-emplovmeiit testing
Admin. New Hire checklist
Mentor Assigned Trainer AssignedEmployee Emergency Information Form
W-4 Form (Needed for payroll immediately)
Department of Justice 1-9
E-Verify
tnual signature page
imj
Quality Assurance Orientation/QA Statement
QA statement copy to Oocument Control
Drafting Standards Orientation
Payroll Direct Deposit Form ___________
Support enforcement ________
____
Medinai Insurance (eligible date) 5TI t lip

nSmXSsm
--- Vvv*y~ / <^^~v

Dental / Life Insurance (eligible date) MlW-----Section 125 Plan (Flex / Premium Only Plan
401k Participation Form/faxed tcrNatiehwids^
United Way Participation Form
'
.
PROP Summarv/beneficiary form
Signed Job Description
60 Dav Evaluation Scheduled (@5S days)
For Official Use Only (FOUO)
Employee Fund Participation Form
Non-Compete
Kevissued (

Meier Folder to include;
Orq. Chart
Updated phone list

Seating charts
Benefit summary sheet
Wellness card
PavroH/Holldav Calendar
Phone ref, guide

/ ruxA1
✓

V

7

(y
fc/l'lt V

kJjJ-|k----

WiUk

HiMm—
<g/ i I t V

m

M.
b(C>.}l )p

7
Cn h I
Cr// h\jL

wm-

rtntW^-

0/vY r n ™

Moon Security

Utilizatiorigoal

R2A2 Classification______
....._______
New Hire Orientation-walk around office Intro to staff.

ezm»
(■'ll lilt-f.

1*4 \ 1 j W~

Skill Set Checklist
WIG
Salary Matrix ______ __________ —

60 day counter added to payroll calendar
Create professional growth fund folder
Vivid Learning - safety training
added to payroll things first payroll hourly?

hxsft- does
RESPONSE^Zla

Wm
||iV
MEIER 000123

{

j
Kelly is s licensed Electrical Engineer & LEED Accredited Professional with 12 years of experience in
architectural consulting. Over the course of his career his responsibilities have covered the spectrum of
electrical consuftmg, from CAO/BIM production to overall project and business management. He has a
passion for architectural lighting and controls design, and his expertise in this area has been recognized
both by the local and national design communities. In 2015, Kelly was selected as a faculty member and
speaker at Ughtfatr International, the largest architectural lighting conference and trade show in North
America. Kelly also provides value to clients by performing advanced daylight studies, and provides early
architectural Input during the design process to integrate the electrical systems into the building. Kelly
can help design ceilings, evaluate finishes, and help develop the overall building geometry to allow for the
seamless integration of building systems Into the architectural design. His unique ability to combine form
& function continues to provide clients with exceptional value and aesthetically pleasing, comfortable
and user friendly living, teaming, and healing environments.

z <

< CQ

oc

r
rs

LU Q_
I— <
< Q
<: lu
LU
LU
LU CL

DEI ELECTRICAL CONSULTANTS, INC.
Professional Senior Engineer I Lighting Designer l Project Manager
Spokane Valley, Washington i December 2011 ~ Present
• Electrical Project Manager and Senior Design Engineer.
• Specialized Lighting & Controls Design, Overall General Power & Systems Design.
■ Contract Management, General Management, Marketing, Web Design/Management.
■ Responsible for both design & overall project management and delivery.
» Production of Construction Documents, Specifications, CAD drawings, and Building
Information Modeling (BIM). Fluent in Autodesk Revit.
• Responsible fat organizing and implementing in-house educational programs for
training and professional development.
■ Speaker / Faculty at LightFair International 2015 in New York City, New York:
"Integrated Architectural Lighting Design & the Implementation of Effective, CodeCompliant Control Systems."

NACI ENGINEERING ( NAC, INC.)
Professional Engineer Lighting Designer 5 Project Manager
Spokane, Washington; November 2005 - December 2011
■ Electrical Project Manager & Design Engineer.
■ Lighting Designer & Architectural Daylight Studies.
» Architectural Design related to lighting & daylighting: Ceiling design, glazing selections,
building envelope, & finish selections.

MW CONSULTING ENGINEERS
Engineer in Training Electrical Designer
Spokane, Washington ? August 2004 - October 2005

y

■
«

Electrical Designer / Engineer in Training. Electrical design & specifications.
CAD & BIM document production. Technical specification writing.

■§asasMj.:-■IJ
GONZAGA UNIVERSITY ; Spokane, WA * 2004

9

SCHOOL OF ENGINEERING
Bachelor Of Science in Engineering - Electrical
• Graduated with Cum Laude Honors in 2004-3.53/4.0 GPA.
■ President's List: Fall 2000, Fall 2003
• Dean's List: Spring 2001, Fall 2002, Spring 2003
• Scholarships: Regents Scholarship, Schilling Scholarship, Walter Toly Scholarship, Carl M
Hansen Foundation Scholarship.

GONZAGA UNIVERSITY; Spokane, WA ? 2008
GRADUATE SCHOOL OF BUSINESS ADMINSTRATION
—MasterofVnstness-AdmlntstratlonfMBA}----------------------------------------------•
•

Completed Masters Business Program while working as full time Engineering Technician.
3.88/4.0 GPA

BUTTE HIGH SCHOOL 5 Butte, MT 2000
Class Rank: 1 of 389 - Valedictorian - 4.0/4.0 GPA

RESPONSE^72a

MEIER 000139

Kelly Waterman, PE

February 13,2017

Mr. Paul Giever, PE/SE
President
Meier Architecture & Engineering
12 W Kennewick Aye
Kennewick, WA 99356

Mr. Gieven
Please accept this letter as my formal resignation from my position as Electrical Group Manager at Meier
Architecture and Engineering. My resignation is in no way a reflection on Meier, and is simply related to
long pending circumstances developing in the personal lives of myself, and more notably, my staff. We
have discussed these circumstances on multiple occasions, and I feel that you have a good
understanding of the situation at hand.
I would like to thank you for the opportunity that I have had with Meier, and am grateful for the growth
and insight that I have gained during my employment here. I have enjoyed working with this great group
of people, and hope that I can continue to build on both the personal and professional relationships that
have begun during my time here.
Per our previous discussion, I have every intention of helping Meier with their existing electrical work
load, and furthermore would like to maintain a working relationship moving forward if you determine
that is a course of action you would like to pursue. To that end, and given the circumstances regarding
the departure dates that my current staff have previously indicated, I feel that it makes sense that my
last day aligns relatively closely to theirs, which would be February 24,2017, However, I understand that
you may wish to discuss other options for my last day, which l am open to consider. However, I do feel
that I will be less effective than I could be otherwise if I am here without my critical electricalstaff, and
unable to guide them through this transition, J believe the Opportunity to maintain continuity and'
functionality regarding the situation at hand is reliant on a clean transition. We can determine what
makes the most sense for everyone in a follow up discussion.
Again, I am grateful fpr the opportunity to have been a part of Meier, and I hope that we can find a
mutually beneficial path forward to continue our relationship.

Sincere!'
Keny A Waterman, PE

MEIER 000141
RESPONSE -73a

1

i
ftn£3HttECT.URe-*ertaH4EEf?ti'JS
f

April 26,2016

13
!

KcllyWatennan

RE:

EMPLOYMENT

Dear Kelly:
It is a pleasure to offer you a position with Meier Architecture * Engineering (the Company), Following
are the key points associated with the offer.
TITLE:

Electrical Group Manager

LABOR CATEGORY:

Your position will be considered as a Full-time Exempt position paid on
a bi-weekly salary basis. This classification is defined as a fuH-time
exempt employee who is scheduled to work 80 hours during each twoweek pay period.

ASSIGNMENT:

Kennewick, Washington

COMPENSATION:

$120,000 annually, $5,000 bonus after a successful 6 month evaluation

PRIMARY HIRE DATE:

May 31, 2016 or sooner

SUPERVISOR:

Steve R. Anderson, President/CEO

OTHER:

Monthly cell phone reimbursement of $90

BENEFITS FOLLOWING
60 DAY PROBATION:

Premcra Blue Cross Medical, Voluntary VSP Vision
Assurant Tiental/Group Iife/LTD/AD&P
Personal Leave, PLA starts at 120 hours
401K Match

;

'i

j

I
•:
;

j

Eligibility for medical, vision, and denial benefits is the 1st day of the month following an initial 60 day
probationary period.
Employment with the Company is voluntary' and as an employee you are free to resign at any time for any
reason. Similarly, the Company has the same right to terminate the employee at any timc, for any reason.
While the Company hopes the employment relationship will be long and mutually beneficial, the
Company can give no guarantee or assurance, cither expressed or implied, of continued employment.
Your employment may be contingent upon successfully completing any background investigation, drug
or alcohol screening tests, medical, physical, or other requirements of rite client to which you are

-f
■i

i

MEIER 000146
12 W. Kennewick Ave, j Kennewick, WA 99336 | M 509,735.1589 } F 509.783.5075 J www.meierinc.com j
RESPONSE - 74a

(

i

Kelly Waterman
April 26.2016
Page 2

assigned. Should the results of any of the above mentioned investigations or tests not meet the minimum
requirements of the ciicht, this offer may be rescinded in its entirety and. employment may be terminated
immediately upon discovery of the information.
During the Terra of my employment and for* period of one (1) year after the end of the Terra, I will not
engage in, be employed by, perform services for, participate in the ownership, management, control or
Operation of, or otherwise be connected with, either directly or indirectly, any Competing Business within
100 miles. 1 will not induce, or attempt to induce, any employee of the Company to leave such
employment to engage in, be employed by, perform services for, participate in or otherwise be connected
with, either directly or indirectly, any Competing Business.
As evidence of your acceptance of this offer, please sign below and return a copy of this letter ip me as
soon as possible.

*
\

\

y

Human Resources will schedule a time to complete your new hire paperwork on your first day. If you
have any questions, please feel free to call me at (509) 735-1589.

i

Sincerely,

>

?

Bobbi A. Keen
Controller

;

l*.

I have read, understand, and accept the terms of employment as outlined in this letter.

7

tnt/i

Name

April 26,2016

t

Dale

i
.?

;

4

j

J

MEIER 000147

t
■i

RESPONSE - 75a

Meier Architecture • Engineering
Job Description
May 31,2016
Full-Time, Exempt Position
Title: Electrical Engineering Group Manager
Basic Responsibilities: Meets project development goals (new projects). Responsible
for the performance and bi-annual evaluation of all engineers and designers assigned to
the discipline. Conducts him/herself in a professional and ethical manner.
Organizational Relationship: Reports to the President/CEO. Confers with the Director
of Projects for the delivery of engineering services. Confers with the Director of
Marketing in matters related to corporate strategic plan and business development.
Essential Functions: To perform this job successfully, an individual must be able to
perform each essential duty satisfactorily. The requirements listed below are
representative of the knowledge, skill, and/or ability required.
Reasonable
accommodations may be made to enable individuals with disabilities to perform the
essential functions.
• Represents the engineering group for all discipline meetings and planning.
• Responsible for discipline staff utilization and staffing requirements. Works with
the Director of Projects and President/CEO to assess staffing requirements based
on contracted backlogs.
• Works closely with Director of Marketing on proposal forecasting and marketing
efforts.
• Responsible for scheduling engineering staff resources to ensure that appropriate
staff is available to each Project Manager to meet project schedules.
• Mentors and provides guidance and on-the-job training to department staff.
• Enforces general organization-wide and engineering-specific policies, procedures
and work instructions.
• Keep the Director of Projects closely apprised of any project activities that may
impact deliverable schedules, staffing requirements, technical or financial
performance of projects.
• Develops implements and approves all discipline engineering standards and
details.
• Ensures that documents requiring a professional engineering seal have the
appropriate reviews and approval and is responsible for all discipline engineering
documents delivered.
• Confers with the Director of Projects and/or President/CEO for approval of
contracts.

MEIER 000148
RESPONSE -76a

i

Meier Architecture • Engineering
Job Description
• Responsible for infernal training of discipline engineering staff assigned to the
discipline to ensure the adoption, implementation, and enforcement of all
corporate procedures related to the delivery of engineering services.
• Recommends external staff training that is in alignment with the strategic plan.
• Ensures appropriate internal progress reviews for each project prior to final
approval and delivery to client.
'
• Work to meet or exceed QA Standards.
• Other duties as assigned.
Supervisory Responsibility:
This position is responsible for managing the Electrical Department.
Skill, Knowledge, Education and Experience:
• Registered Professional Electrical Engineer.
• 10 years of engineering experience; 5 years’ experience as a Project Manager or
equivalent.
• Strong organizational skills.
Work Environment:
This position operates in a professional office environment.
Physical Demands:
This position is largely a sedentary role. May be subject to bending, reaching, kneeling,
stooping and lifting up to ten (10) pounds. May require travel to project locations.
This position routinely uses standard office equipment such as computers, phones,
photocopiers, and fax machines.
Signature ^
lAjcX^e rtfAcX A
Print Name
Date

ocf oi/dm to

MEIER 000149
RESPONSE -77a

Bobbi A Keen
Front:
Sent:
To:
Subject:

Steve Anderson
Monday, May 2,2016 5:48 PM
Doug C Farris
concerns

Doug,
* have received an email from Shantu about concerns on your engineering and communication skills, i have addressed
my concerns with Shantu and that's why Pam is doing the L&l submission. Shantu did bring up some valid points though
you do need to work on being more organized and careful with back checks and please make sure your responses are
timely. My suggestion is to keep a list of commitments, I think it will help.
The other improvement areas are still the same, get your time card done Friday and keep your area dean.
I will be out in meeting all day tomorrow, but we can talk on Wednesday.
Steve R. Anderson
President / CEO

90^ AfiGl-HT££ YU R£ -CNGlNEERlNG

509-735-] 589 Main
509-737-6945 Office
509-948-6501 Ceil
PLEASE NOTE: This message, including any attachments, may include privileged, confidential and/or inside
information. Any distribution or use of this communication by anyone other than the intended recipient is
strictly prohibited and may be unlawful. If you are not the intended recipient, please notify the sender by
replying to this message and then delete it from your system.

1
MEIER 000166
RESPONSE - 78a

ARCHITECTURE »GNG«*EERJNe

DATE:

June 17,2016

TO:

Doug Farris

FROM:

Kelly Waterman

RE:

Performance

Nature of New Disciplinary Action
Personal space-you need to be cognizant of personal space. Keep your work at your desk.
Follow management instructions.

Relevant Past Occurrences or Active Disciplinary Actions
Emailfrom Steve Anderson on May 2,2016 regarding paying attention to your work. You have not
been doing tins-SpeqficaUy you sentpanel schedules to a client with the wrong project.
Required Corrections
Pay attention to detail.
Keep your work in your space.
Follow management instructions and guidance.
Appeal Rights
You have the right to appeal this disciplinary action. To be eligible, you must submit your appeal to
Human Resources within 3 working days of receiving this disciplinary action.
Supervisor’s Signature
Supervisor’s Signature:

Date: _________________

<NOTE: AN EMPLOYEES SIGNATURE IS NOTREQUIRED BUTIS RECOMMENDED; YOUARE NOT
REQUIRED TO INCLUDE THE ACKNOWLEDGEMENT LANGUAGE BELOW.>
Employee Acknowledgement
I acknowledge that I have received this disciplinary letter. I understand that my signature below does not
necessarily imply agreement with the disciplinary action tak«»n
Employee’s Signature:

Date:

cc: Personnel File

MEIER 000167
RESPONSE -79a

EEOC EctmS (Haft)

Charge of Discrimination

Charge Presented To-.
FEPA
X] EEOC

This form b oHscted by the Privacy Ac) of 1974. See onctosad Privacy Act
Stalemonl and other information bolbro completing ihfe form

Agency(ies) Charge No(s}.
551-2016-01556

Washington State Human Rights Commission

,

Sloto or focal Agoncy, ffoay
Namo (Indicate Mr.. M&. Mrs.)

Mr. Shantu N. Shah
-Street Address

and EEOC

Home Phone (Incl Area Code)

Date of Birth

(50^45-1722

11-02-1940

CBy, State and ZIP Code

6637 S.W. 88th Place, Portland, OR 97223

No. Er^iloVoet,'Mnn&Msf

MEIER ARCHITECTURE ENGINEERING

Phone No, (Include Area Code)

15-100 <*>

Street Address

City, Stale and ZIP Code

>■

Attn: Diana Linsowe, Human Resources, 12 W, Kennewick Ave., Kennewick, WA 99336
Name

No Employe** Members

Street Address

City, State and ZIP Code

DISCRIMINATION BASED ON fCfioe* appropriate boxfes) )

[3

Phone No. fihdude Amo Code)

RACE

□

COLOR

I X j RETALIATION

□ SEX

[3 AGE

DATE(S) DISCRIMINATION TOOK PLACE
[

~| RELIGION

□ O.SAB.UTY

}

Q

|

NATIONAL ORIGIN

GENETIC ItffORMARON

| "" ") OTHER (Specify)
THE PARTICULARS ARE (If DddtlkmatpaperIs needed, attach extra sheet(s))'

*1*22-2016

□

OS-^O,.

CONTtNUtNG ACTION

mSBSSBm

Employment Act, as amended (the ADEA); and in retaliation for protests I made of race and aae
discrimination, in violation of Title VII and the ADEA. X WAS
SV/hi AjeerfUtA i

iJp&hs

WoOT HftUr OP Hi A&B, HP
BBPope My ra^MiwAT/dvJ.

I want this ehargo filed with both the EEOC and the State or local Agoncy, 8 any, 1
will advise the agencies if I change my address or phone number and t win
cooperate telly with them in the processing of my Charge In accordance with their
procedures,
I declare tinder penalty of perjury that the above is tree and correct

°7/ 2SjIcH
date

RESPONSE - 80a

1

"

3c»S TVo

NOTARY- Wien necessary (or State and Local Agency Requirements

i swear or affirm that I have read the above charge and that It Is tree to
me best of my knowledge, Information and belief.
SIGNATURE OF COMPLAINANT

SUBSCRIBED ano SWORN to before me THIS date
(month, day,yean
Charging Party Signature

MEIER 000173

^

{
ARCHITECTURE •CNBINEeRINC

March 22,2016

Shantu N. Shah
6637 SW 88th Place
Portland, OR 97223
RE:

EMPLOYMENT

Dear Shantu:
It is a pleasure to offer you a position with Meier Architecture • Engineering (the Company). Following
are the key points associated with the offer.
TITLE:

Sr. Engineer/Project Manager

LABOR CATEGORY:

Your position will be considered as a Full-time Exempt position paid on
a bi-weekly salary basis. This classification is defined as a full-time
exempt employee who is scheduled to work 80 hours during each twoweek pay period.

ASSIGNMENT:

Vancouver, Washington

COMPENSATION:

$100,000 annually

PRIMARY HIRE DATE:

March 22,2016

SUPERVISOR:

Sieve R. Anderson, President/CEO

OTHER:

The Company will pay for mileage and hotel while you are in the TriCities for new hire training.
Monthly cell phone reimbursement of $50

BENEFITS FOLLOWING
60 DAY PROBATION:

Premera Blue Cross Medical, Voluntary VSP Vision
Assurant Dental/Group Life/LTD/AD&D
Personal Leave 120 hours (accrued bi-weekly at 4.61 hours)
401K Match

Eligibility for medical, vision, and dental benefits is the 1st day of the month following an initial 60 day
probationary period.
Employment with the Company is voluntary and as an employee you are free to resign at any time for any
teason. Similarly, the Company has the same right to terminate the employee at any time, for any reason.

MEIER 000175
12 W. Kennewick Ave. { Kennewick, WA 99336 j M 509.735.1589 { F 509.783.5075 1 www.meierinc.com
RESPONSE-81a

\

SKanhi N. Shah, P.E,
March 22,2016
Page 2

\

While the Company hopes the employment relationship will be Jong and mutually beneficial, the
Company can give no guarantee or assurance, either expressed or implied, of continued employment.
Your employment may be contingent upon successfully completing any background investigation, drug
or alcohol screening tests, medical, physical, or other requirements of the client to which you are
assigned. Should the results of any of the above mentioned investigations or tests not meet the minimum
requirements of the client, this offer may be rescinded in its entirety and employment may be terminated
immediately upon discovery of the information.
During the Term of my employment I will not engage in, be employed by, perform services for,
participate in the ownership, management, control or operation of, or otherwise be connected with, either
directly or indirectly, any Competing Business within 100 miles. For a period of one (1) year after the
end of my employment, I will not induce, or attempt to induce, any employee of the Company to leave
such employment to engage in, be employed by, perform services for, participate in or otherwise be
connected with, either directly or indirectly, any Competing Business.
As evidence of your acceptance of this offer, please sign below and return a copy of this letter to me as
soon as possible.
Human Resources will schedule a time to complete your new hire paperwork on your first day. If you
have any questions, please feel free to call me at (509) 735-1589.
Sincerely,

Diana Linsowe
HR Coordinator

I have read, understand, and accept the terms of employment as outlined in this letter.
-

Name

zz-l 2.016
Date

MEIER 000176
RESPONSE - 82a

IVjSE?

itiS

U.S. Equal Employment Opportunity Commission
Seattle Field Office
909 First Avenue
Suite 400
Seattle, WA 98104-1061

2 g 2015'
ftfeferAittefereogtos
8W eririg

NOTICE OF CHARGE OF DiSCRIMINATION
{This Notice replaces EEOC FORM 131)
DIGITAL CHARGE SYSTEM
August 16, 2016
To: Denise Sweeden
HR Executive
MEIER ARCHITECTURE ENGINEERING
12 W. Kennewick Ave.
Kennewick, WA 99336

This is notice that a charge of employment discrimination has been filed with
the EEOC against your organization by Shantubhai N. Shah, under: Title VII of
the Civil Rights Act (Title VII) and The Age Discrimination in Employment Act
(ADEA). The circumstances of the alleged discrimination are based on
Retaliation, Race, and Age, and involve issues of Discharge that are alleged
to have occurred on or about Mar 22, 2016 through May 09, 2016.
The Digital Charge System makes investigations and communications with
charging parties and respondents more efficient by digitizing charge
documents. The charge is available for you to download from the EEOC
Respondent Portal, EEOC's secure online system.
Please follow these instructions to view the charge within ten (10) days of
receiving this Notice;
1. Access EEOC's secure online System: https://nxg.eeoc.gov/rsp/login.jsf
2. Enter this EEOC Charge No.: 551-2016-01556
3. Enter this password: ,v,tr
Once you log into the system, you can view and download the charge, and
electronically submit documents to EEOC. The system will also advise you of
possible actions or responses, and identify your EEOC point of contact for
this charge.

MEIER 000178
RESPaN_SE^8_3_a

APPENDIX 4

MCDONNELL DOUGLAS CORPORATION, Petitioner, v.
Percy GREEN.
Supreme Court

411 U.S. 792
93 S.Ct. 1817
36 L.Ed.2d 668
McDONNELL DOUGLAS CORPORATION, Petitioner,

v.
Percy GREEN.

No. 72-490.
Argued March 28, 1973.
Decided May 14, 1973.
i Syllabus
Respondent, a black civil rights activist, engaged in disruptive and illegal activity
: against petitioner as part of his protest that his discharge as an employee of
petitioner's and the firm's general hiring practices were racially motivated. When
: petitioner, who subsequently advertised for qualified personnel, rejected
respondent's re-employment application on the ground of the illegal conduct,
respondent filed a complaint with the Equal Employment Opportunity
Commission (EEOC) charging violation of Title VII of the Civil Rights Act of 1964.
: The EEOC found that there was reasonable cause to believe that petitioner's
rejection of respondent violated § 704(a) of the Act, which forbids discrimination
against applicants or employees for attempting to protest or correct allegedly
discriminatory employment conditions, but made no finding on respondent's
y which-prohibit-s---------------- r
discrimination in any employment decision. Following unsuccessful EEOC
conciliation efforts, respondent brought suit in the District Court, which ruled
that respondent's illegal activity was not protected by § 704(a) and dismissed
McDONNELL - 84a

;
|
;
!

the § 703(a)(1) claim L
.use the EEOC had made no fim ,.g with respect
thereto. The Court of Appeals affirmed the § 704(a) ruling, but reversed with
respect to § 703(a)(1), holding that an EEOC determination of reasonable cause
was not a jurisdictional prerequisite to claiming a violation of that provision in
federal court. Held:

:
;

1

!

i

1
i
!
:

1. A complainant's right to bring suit under the Civil Rights Act of 1964 is not
confined to charges as to which the EEOC has made a reasonable-cause finding,
and the District Court's error in holding to the contrary was not harmless since
the issues raised with respect to § 703(a)(1) were not identical to those with
respect to § 704(a) and the dismissal of the former charge may have prejudiced
respondent's efforts at trial. Pp. 798—800.

i

j
l
I
i

2. In a private, non-class-action complaint under Title VII charging racial
employment discrimination, the complainant has the burden of establishing a
prima facie case, which he can satisfy by showing that (i) he belongs to a racial
minority; (ii) he applied and was qualified for a job the employer was trying to
fill; (iii) though qualified, he was rejected; and (iv) thereafter the employer
!
: continued to seek applicants with complainant's qualifications. P. 802.

i

I
!
;
;

V

I
I
:

1
Si 3. Here, the Court of Appeals, though correctly holding that respondent proved a

prima facie case, erred in holding that petitioner had not discharged its burden of j
j proof in rebuttal by showing that its stated reason for the rehiring refusal was
i based on respondent's illegal activity. But on remand respondent must be
i
; afforded a fair opportunity of proving that petitioner's stated reason was just a
I
i
pretext for a racially discriminatory decision, such as by showing that whites
engaging in similar illegal activity were retained or hired by petitioner. Other
;
evidence that may be relevant, depending on the circumstances, could include
facts that petitioner had discriminated against respondent when he was an
employee or followed a discriminatory policy toward Minority employees. Pp. 802
-805.
; 8 Cir., 463 F.2d 337, vacated and remanded.
>

) Veryl L. Riddle, St. Louis, Mo., for petitioner
i

i

•;
i

Louis Gilden, St. Louis, Mo., for respondent.
Mr. Justice POWELL delivered the opinion of the Court.

i:

;

! 1

i

■ The case before us raises significant questions as to the proper order and nature
| of proof in actions under Title VII of the Civil Rights Act of 1964, 78 Stat. 253,
j 42 U.S.C. § 2000e et seq.

S

\
!

;

2

!

McDonnell - 85a

rcraft manufacturer
j Petitioner; McDonnell
jglas Corp., is an aerospace ar
; headquartered in St. Louis, Missouri, where it employs over 30,000 people.
Respondent, a black citizen of St. Louis, worked for petitioner as a mechanic and
i laboratory technician from 1956 until August 28, 1964- when he was laid off in
the course of a general reduction in petitioner's work force.
i 3
Respondent, a long-time activist in the civil rights movement, protested
I vigorously that his discharge and the general hiring practices of petitioner were
racially motivated.- As part of this protest, respondent and other members of
! the Congress on Racial Equality illegally stalled their cars on the main roads
i leading to petitioner's plant for the purpose of blocking access to it at the time of
; the morning shift change. The District Judge described the plan for, and
; respondent's participation in, the 'stall-in' as follows:
; 4
'(F)ive teams, each consisting of four cars would 'tie up' five main access roads
! into McDonnell at the time of the morning rush hour. The drivers of the cars were |
: instructed to line up next to each other completely blocking the intersections or
roads. The drivers were also instructed to stop their cars, turn off the engines,
: pull the emergency brake, raise all windows, lock the doors, and remain in their
; cars until the police arrived. The plan was to have the cars remain in position for ■
i one houn
5
'Acting under the 'stall in' plan, plaintiff (respondent in the present action) drove
his car onto Brown Road, a McDonnell access road, at approximately 7:00 a.m.,
at the start of the morning rush hour. Plaintiff was aware of the traffic problems
that would result. He stopped his car with the intent to block traffic. The police
arrived shortly and requested plaintiff to move his car. He refused to move his
car voluntarily. Plaintiff's car was towed away by the police, and he was arrested
i for obstructing traffic. Plaintiff pleaded guilty to the charge of obstructing traffic
;

1 and was fined.' 318 F.Supp. 846.

s

6
I On July 2, 1965, a 'lock-in' took place wherein a chain and padlock were placed
I on the front door of a building to prevent the occupants, certain of petitioner's
employees, from leaving. Though respondent apparently knew beforehand of the
! 'lock-in,' the full extent of his involvement remains uncertain.--7-

Mr.DONNELL- 86a

i

Some three weeks fol

-ng the 'lock-in/ on July 25, 19^_, petitioner publicly
advertised for qualified mechanics, respondent's trade, and respondent promptly ;
; applied for re-employment. Petitioner turned down respondent, basing its
!
rejection on respondent's participation in the 'stall-in' and 'lock-in.' Shortly
thereafter, respondent filed a formal complaint with the Equal Employment
Opportunity Commission, claiming that petitioner had refused to rehire him
because of his race and persistent involvement in the civil rights movement, in
violation of §§ 703(a)(1) and 704(a) of the Civil Rights Act of 1964, 42 U.S.C. §§
20.Q0g—2(d)(1) and 2Q00e—3(a).- The former section generally prohibits racial
discrimination in any employment decision while the latter forbids discrimination ;
j against applicants or employees for attempting to protest or correct allegedly
: discriminatory conditions of employment.
! 8
The Commission made no finding on respondent's allegation of racial bias under
| § 703(a)(1), but it did find reasonable cause to believe petitioner had violated §
: 704(a) by refusing to rehire respondent because of his civil rights activity. After
■ the Commission unsuccessfully attempted to conciliate the dispute, it advised
; respondent in March 1968, of his right to institute a civil action in federal court
: within 30 days.

9
; 0n APril I5/ 1968, respondent brought the present action, claiming initially a
violation of § 704(a) and, in an amended complaint, a violation of § 703(a)(1) as ;
i weH-“ The District Court, 299 F.Supp. 1100, dismissed the latter claim of racial
discrimination in petitioner's hiring procedures on the ground that the
Commission had failed to make a determination of reasonable cause to believe
; that a violation of that section had been committed. The District Court also found ;
that petitioner’s refusal to rehire respondent was based solely on his
: participation in the illegal demonstrations and not on his legitimate civil rights
activities. The court concluded that nothing in Title VII or § 704 protected 'such
activity as employed by the plaintiff in the 'stall in' and 'lock in' demonstrations.'
318 F.Supp., at 850.

10
On appeal, the Eighth Circuit affirmed that unlawful protests were not protected
; activities under § 704(a),® but reversed the dismissal of respondent's § 703(a)
| (1) claim relating to racially discriminatory hiring practices, holding that a prior
Commission determination of reasonable cause was not a jurisdictional
; prerequisite to raising a claim under that section in federal court. The court
i ordered the case remanded for trial of respondent's claim under § 703(a)(1).

11
McDonnell - Q?g

i

;
i
;
;
>
I
;
,

:
i
)
)

In remanding, the Cck _ of Appeals attempted to set fo.
standards to govern
the consideration of respondent's claim. The majority noted that respondent had
established a prima facie case of racial discrimination; that petitioner's refusal to
rehire respondent rested on 'subjective' criteria which carried little weight in
rebutting charges of discrimination; that, though respondent's participation in
the unlawful demonstrations might indicate a lack of a responsible attitude
toward performing work for that employer; respondent should be given the
opportunity to demonstrate that petitioner's reasons for refusing to rehire him
were mere pretext.-- In order to clarify the standards governing the disposition of
an action challenging employment discrimination, we granted certiorari, 409 U.S.
1036, 93 S.Ct. 522, 34 L.Ed.2d 485 (1972).

:
j

j
\
i

12
; * We agree with the Court of Appeals that absence of a Commission finding of
; reasonable cause cannot bar suit under an appropriate section of Title VII and
j that the District Judge erred in dismissing respondent's claim of racial
discrimination under § 703(a)(1). Respondent satisfied the jurisdictional
; prerequisites to a federal action (i) by filing timely charges of employment
discrimination with the Commission and (ii) by receiving and acting upon the
Commission's statutory notice of the right to sue, 42 U.S.C. §§ 2000e—5(a) and
; 20Q0e—5(e). The Act does not restrict a complainant's right to sue to those
charges as to which the Commission has made findings of reasonable cause, and
we will not engraft on the statute a requirement which may inhibit the review of
claims of employment discrimination in the federal courts. The Commission itself
i
i does not consider the absence of a 'reasonable cause' determination as providing
I employer immunity from similar charges in a federal court, 29 CFR § 1601.30,
I and the courts of appeal have held that, in view of the large volume of
; complaints before the Commission and the nonadversary character of many of its
; proceedings, 'court actions under Title VII are de novo proceedings and ... a
! Commission 'no reasonable cause' finding does not bar a lawsuit in the case.'
; Robinson v. Lorillard Corp., 444 F.2d 791, 800 (CA4 1971); Beverly v. Lone Star
; Lead Construction Corp., 437 F.2d 1136 (CA,5 1971); Flowers v. Local 6,
! Laborers International Union of North America, 431 F.2d 205 (CA7 1970); Fekete
v. United States Steel Corp., 424 F.2d 33.1 (CA 3 1970).
!

I 13
j Petitioner argues, as it did below, that respondent sustained no prejudice from
I the trial court's erroneous ruling because in fact the issue of racial discrimination
in the refusal to re-employ 'was tried thoroughLyLiD_a .trialJastinq:fn.ii.r-day-q-wji±ij 'at least 80%' of the questions relating to the issue of 'race.'® Petitioner;
; therefore, requests that the judgment below be vacated and the cause remanded
; with instructions that the judgment of the District Court be affirmed.® We cannot
McDonnell -

j

i
j

;

!

il

i agree that the dismiss.
respondent's § 703(a)(1) clai.. was harmless error. It ;
is not clear that the District Court's findings as to respondent's § 704(a)
contentions involved the identical issues raised by his claim under § 703(a)(1).
*
: The former section relates solely to discrimination against an applicant or
•;
employee on account of his participation in legitimate civil rights activities or
; protests, while the latter section deals with the broader and centrally important
! question under the Act of whether for any reason, a racially discriminatory
: employment decision has been made. Moreover, respondent should have been
; accorded the right to prepare his case and plan the strategy of trial with the
! knowledge that the § 703(a)(1) cause of action was properly before the District
j Court.™ Accordingly, we remand the case for trial of respondent's claim of racial !
i
: discrimination consistent with the views set forth below.

; II

I

14
'
;
i
;
;
.
‘

The critical issue before us concerns the order and allocation of proof in a
:
private, non-class action challenging employment discrimination. The language
of Title VII makes plain the purpose of Congress to assure equality of
employment opportunities and to eliminate those discriminatory practices and
devices which have fostered racially stratified job environments to the
disadvantage of minority citizens. Griggs v. Duke Power Co., 401 U.S. 424, 429,
91 S.Ct. 849, 852, 28 L.Ed.2d 158 (1971); Castro v. Beecher; 459.,F.2d 7.25 (CA1 ;
[
1972); Chance v. Board of Examiners, 458 F.2d 1167 (CA2 1972); Quarles v.
i
. Philip Morris, Inc., 279 F.Supp. 505 (ED Va.1968). As noted in Griggs, supra:
:•

i 15
; 'Congress did not intend by Title VII, however, to guarantee a job to every
person regardless of qualifications. In short, the Act does not command that any ;
person be hired simply because he was formerly the subject of discrimination, or
because he is a member of a minority group. Discriminatory preference for any
; group, minority or majority, is precisely and only what Congress has proscribed.

! 16
What is required by Congress is the removal of artificial, arbitrary, and
• unnecessary barriers to employment when the barriers operate invidiously to
;• discriminate on the basis of racial or other impermissible classification.' Id., 401
I

; U.S., at 430-431, 91 S.Ct., at 853.
17
: There are societal as well as personal interests on both sides of this equation.
• The broad, overriding interest, shared by employer, employee, and consumer, is
efficient and trustworthy workmanship assured through fair and racially neutral

!

employment and pers ,.iel decisions. In the implement jn of such decisions, it
is abundantly clear that Title VII tolerates no racial discrimination, subtle or
otherwise.

18
In this case respondent, the complainant below, charges that he was denied
employment 'because of his involvement in civil rights activities' and 'because of
his race and color.'— Petitioner denied discrimination of any kind, asserting that
its failure to re-employ respondent was based upon and justified by his
participation in the unlawful conduct against it. Thus, the issue at the trial on
remand is framed by those opposing factual contentions. The two opinions of the
Court of Appeals and the several opinions of the three judges of that court
attempted, with a notable lack of harmony, to state the applicable rules as to
burden of proof and how this shifts upon the making of a prima facie case.— We
now address this problem.

19
The complainant in a Title VII trial must carry the initial burden under the statute
of establishing a prima facie case of racial discrimination. This may be done by
showing (i) that he belongs to a racial minority; (ii) that he applied and was
qualified for a job for which the employer was seeking applicants; (iii) that,
despite his qualifications, he was rejected; and (iv) that, after his rejection, the
position remained open and the employer continued to seek applicants from
persons of complainant's qualifications.— In the instant case, we agree with the
Court of Appeals that respondent proved a prima facie case. 463 F.2d 337, 353.
Petitioner sought mechanics, respondent's trade, and continued to do so after
respondent's rejection. Petitioner, moreover, does not dispute respondent's
qualifications— and acknowledges that his past work performance in petitioner's ;
employ was 'satisfactory.'—
20
The burden then must shift to the employer to articulate some legitimate,
nondiscriminatory reason for the employee's rejection. We need not attempt in
the instant case to detail every matter which fairly could be recognized as a
reasonable basis for a refusal to hire. Here petitioner has assigned respondent's
participation in unlawful conduct against it as the cause for his rejection. We
think that this suffices to discharge petitioner's burden of proof at this stage and
to meet respondent's prima facie case of discrimination.

21
The Court of Appeals intimated, however, that petitioner's stated reason for
refusing to rehire respondent was a 'subjective' rather than objective criterion
: which ’carries] little weight in rebutting charges of discrimination,' 463 F.2d, at
McDonnell - 89a

!

! 343. This was among t. statements which caused the o,. anting judge to read
!
the opinion as taking 'the position that such unlawful acts as Green committed
; against McDonnell would not legally entitle McDonnell to refuse to hire him, even ;
;
!
though no racial motivation was involved . . . Id., at 355. Regardless of
whether this was the intended import of the opinion, we think the court below
: seriously underestimated the rebuttal weight to which petitioner's reasons were
; entitled. Respondent admittedly had taken part in a carefully planned 'stall-in,'
; designed to tie up access to and egress from petitioner's plant at a peak traffic
; hour.— Nothing in Title VII compels an employer to absolve and rehire one who
! has engaged in such deliberate, unlawful activity against it.— In upholding,
i
j under the National Labor Relations Act, the discharge of employees who had
; seized and forcibly retained an employer's factory buildings in an illegal sit-down \
■ strike, the Court noted pertinently:
; 22
i 'We are unable to conclude that Congress intended to compel employers to
: retain persons in their employ regardless of their unlawful conduct,—to invest
I those who go on strike with an immunity from discharge for acts of trespass or
; violence against the employer's property . . . Apart from the question of the
constitutional validity of an enactment of that sort, it is enough to say that such
!
a legislative intention should be found in some definite and unmistakable
I expression.' NLRB v. Fansteel Corp., 306 U.S. 240, 255, 59 S.Ct. 490, 496, 83
L.Ed. 627 (1939).

:■

j

;

I
:
:

;
:

j
■:

23
Petitioner's reason for rejection thus suffices to meet the prima facie case, but
the inquiry must not end here. While Title VII does not, without more, compel
rehiring of respondent, neither does it permit petitioner to use respondent's
conduct as a pretext for the sort of discrimination prohibited by § 703(a)(1). On
remand, respondent must, as the Court of Appeals recognized, be afforded a fair ;
opportunity to show that petitioner's stated reason for respondent's rejection
'

■

was in fact pretext. Especially relevant to such a showing would be evidence that
I white employees involved in acts against petitioner of comparable seriousness to j
j the 'stall-in' were nevertheless retained or rehired. Petitioner may justifiably
: refuse to rehire one who was engaged in unlawful, disruptive acts against it, but
only if this criterion is applied alike to members of all races.
i

24
Other evidence that may be relevant to any showing of pretext includes facts as
i
to the petitioner's treatment of respondent during his prior term of employment;
i petitioner's reaction, if any, to respondent's legitimate civil rights activities; and
petitioner's general policy and practice with respect to minority employment.—
‘

McDONMELL - 90a

;
!

On the latter point, :

sties as to petitioner's employ^^t policy and practice

;
;
;
!
I

may be helpful to a determination of whether petitioner's refusal to rehire
respondent in this case conformed to a general pattern of discrimination against
blacks. Jones v. Lee Way Motor Freight, Inc., 431 F. 2d 245 (CA10 1970);
Blumrosen, Strangers in Paradise: Griggs v. Duke Power Co., and the Concept of
Employment Discrimination, 71 Mich.L.Rev. 59, 91—94 (1972).-® In short, on
the retrial respondent must be given a full and fair opportunity to demonstrate
! by competent evidence that the presumptively valid reasons for his rejection
were in fact a coverup for a racially discriminatory decision.
25
; The court below appeared to rely upon Griggs v. Duke Power Co., supra, in which
: the Court stated: 'If an employment practice which operates to exclude Negroes I
| cannot be shown to be related to job performance, the practice is prohibited.'
:
91 S.Ct, at 853, 28 L.Ed.2d 158.~ But Griggs differs from the
i instant case in important respects. It dealt with standardized testing devices
which, however neutral on their face, operated to exclude many blacks who were ;
i capable of performing effectively in the desired positions. Griggs was rightly
I
concerned that childhood deficiencies in the education and background of
l minority citizens, resulting from forces beyond their control, not be allowed to
i work a cumulative and invidious burden on such citizens for the remainder of
their lives. Id., at 430, 91 S.Ct., at 853. Respondent, however; appears in
s different clothing. He had engaged in a seriously disruptive act against the very
; one from whom he now seeks employment. And petitioner does not seek his
; exclusion on the basis of a testing device which overstates what is necessary for
j competent performance, or through some sweeping disqualification of all those
j with any past record of unlawful behavior, however remote, insubstantial, or
i unrelated to applicant's personal qualifications as an employee. Petitioner
; assertedly rejected respondent for unlawful conduct against it and, in the
! absence of proof of pretext or discriminatory application of such a reason, this
cannot be thought the kind of 'artificial, arbitrary, and unnecessary barriers to
employment' which the Court found to be the intention of Congress to remove.
! Id., at 431, 91 S.Ct., at 853.--

Ill
26
; In sum, respondent should have been allowed to pursue his claim under §
703(a) (1). If the evidence on retrial is substantially in accord with that before
—us-rn-this-caserwe-thinlrth-at-respondent carried~hrs~burden of establishing a-----i prima facie case of racial discrimination and that petitioner successfully rebutted
. that case. But this does not end the matter. On retrial, respondent must be
McDonnell - 91a

«
:

!

afforded a fair opportur,
to demonstrate that petitioner, assigned reason for
refusing to re-employ was a pretext or discriminatory in its application. If the
District Judge so finds, he must order a prompt and appropriate remedy. In the
absence of such a finding, petitioner's refusal to rehire must stand.

i
i
•:
:•

j 27
The cause is hereby remanded to the District Court for reconsideration in
| accordance with this opinion.
28
! So ordered.
;

| 29
; Remanded.

■!

1

;

;

I

; l

His employment during these years was continuous except for 21 months of
: service in the military.

i

j
;

2
!

I
s
■
i
;

I

;
\

;
;
;
:
I
i
|
I

The Court of Appeals noted that respondent then 'filed formal complaints of
discrimination with the President's Commission on Civil Rights, the Justice
Department, the Department of the Navy, the Defense Department, and the
Missouri Commission on Human Rights.’ 463 F.2d 337 (8 Cir., 1972).
3

The 'lock-in1 occurred during a picketing demonstration by ACTION, a civil rights
organization, at the entrance to a downtown office building which housed a part
of petitioner's offices and in which certain of petitioner's employees were working ;
at the time. A chain and padlock were placed on the front door of the building to
\
prevent ingress and egress. Although respondent acknowledges that he was
chairman of ACTION at the time, that the demonstration was planned and staged i
by his group, that he participated in and indeed was in charge of the picket line
i
in front of the building, that he was told in advance by a member of ACTION
'that he was planning to chain the front door,' and that he 'approved of' chaining
the door, there is no evidence that respondent personally took part in the actual
'lock-in,' and he was not arrested. App. 132—133.

: The Court of Appeals majority, however, found that the record did 'not support
•; the trial court's conclusion that Green 'actively cooperated' in chaining the doors
i of the downtown St. Louis building during the 'lock-in' demonstration.' 463 F.2d;
i at 341. See also concurring opinion of Judge Lay. Id., at 344. Judge Johnsen, in
|

McDonnell - £2a

{

! dissent, agreed with v . District Court that the 'chainiri_ -id padlocking (were)
carried out as planned, (and that) Green had in fact given it . . . approval and
authorization.' Id., at 348.
In view of respondent's admitted participation in the unlawful 'stall-in,' we find it
i unnecessary to resolve the contradictory contentions surrounding this 'lock-in.'

!

;

4

Section 703(a)(1) of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2(a) (1), in
; pertinent part provides:

i

'It shall be an unlawful employment practice for an employer ... to fail or refuse
; to hire or to discharge any individual, or otherwise to discriminate against any
individual with respect to his compensation, terms, conditions, or privileges of
I employment, because of such individual's race, color, religion, sex, or national
•;
I origin . . ..'
! Section 704(a) of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-.3(a), in
pertinent part provides:
'It shall be an unlawful employment practice for an employer to discriminate
against any of his employees or applicants for employment . . . because he has
opposed any practice made an unlawful employment practice by this subchapter

i

: 5

j Respondent also contested the legality of his 1964 discharge by petitioner, but
: both courts held this claim barred by the statute of limitations. Respondent does
] not challenge those rulings here.
i 6

i

I Respondent has not sought review of this issue.
> 7
i

>
All references are to Part V of the revised opinion of the Court of Appeals, 463
F.2d, at 352, which superseded Part V of the court's initial opinion with respect to
the order and nature of proof. 463 F.2d...337.
;

8

Tr. of Oral Arg. 11.
:

i 9

Brief for Petitioner 40.
10

i

l

i
mcdqnnell-

93a

! The trial court did not v ,uss respondent's § 703(a)(1) i_. m in its opinion and
■ denied requests for discovery of statistical materials which may have been
ij relevant to that claim.
i 11

!

i

■;

The respondent initially charged petitioner in his complaint filed April 15, 1968,
. with discrimination because of his 'involvement in civil rights activities.' App. 7,
1 8. In his amended complaint, filed March 20, 1969, plaintiff broadened his
! charge to include denial of employment because of race in violation of § 703(a)
(1). App. 27.
i

\

i

!

12

| See original opinion of the majority of the panel which heard the case, 463 F.2d,
| at 338; the concurring opinion of Judge Lay, id., at 344; the first opinion of
!
1
Judge Johnsen, dissenting in part, id., at 346; the revised opinion of the
I majority, id., at 352; and the supplemental dissent of Judge Johnsen, id., at 353.
; A petition for rehearing en banc was denied by an evenly divided Court of
; Appeals.
5 13
!

The facts necessarily will vary in Title VII cases, and the specification above of
the prima facie proof required from respondent is not necessarily applicable in
| every respect to differing factual situations.

;
i

14
/

■:

: We note that the issue of what may properly be used to test qualifications for
; employment is not present in this case. Where employers have instituted
; employment tests and qualifications with an exclusionary effect on minority
applicants, such requirements must be 'shown to bear a demonstrable
i
relationship to successful performance of the jobs' for which they were used,
Griggs v. Duke Power Co., 401 U.S. 424, 431, 91 S.Ct. 849, 853, 28 L.Ed.2d 158 j
(1971). Castro v. Beecher, 459 F.2d 725 (CA1 1972); Chance v. Board of
i
Examiners, 458 F.2d 1167 (CA2 1972).
15

(

i Tr. of Oral Arg. 3; 463 F.2d, at 353.
; 16

i
i
;
|

The trial judge noted that no personal injury or property damage resulted from
the ’stall-in' due 'solely to the fact that law enforcement officials had obtained
notice in advance of plaintiff's (here respondent's) demonstration and were at
the scene to remove plaintiff's car from the highway.' 318 ESupp. 846, 851.

!i•
:

:■

17
i

f

McP_0,NNE,LL,r.,Ma

!

The unlawful activity
chis case was directed specifics
against petitioner. We
;
: need not consider or decide here whether, or under what circumstances, unlawful
activity not directed against the particular employer may be a legitimate
i justification for refusing to hire.
j
18

| We are aware that some of the above factors were, indeed, considered by the
District Judge in finding under § 704(a), that 'defendant's (here petitioner's)
j reasons for refusing to rehire the plaintiff were motivated solely and simply by
the plaintiff's participation in the 'stall in' and 'lock in' demonstrations.' 318
; RSupp., at 850. We do not intimate that this finding must be overturned after
; consideration on remand of respondent's § 703(a)(1) claim. We do, however,
insist that respondent under § 703(a)(1) must be given a full and fair
; opportunity to demonstrate by competent evidence that whatever the stated
: reasons for his rejection, the decision was in reality racially premised,
i 19

j

;

j The District Court may, for example, determine, after reasonable discovery that
■ 'the (racial) composition of defendant's labor force is itself reflective of restrictive ;
l
or exclusionary practices.' See Blumrosen, supra, at 92. We caution that such
general determinations, while helpful, may not be in and of themselves
controlling as to an individualized hiring decision, particularly in the presence of
an otherwise justifiable reason for refusing to rehire. See generally United States j
;
: v. Bethlehem Steel Corp., 312 RSupp. 977, 992 (WDNY 1970), order modified,
446 R.2d 652 (CA2 1971). Blumrosen, supra, n. 19, at 93.
i

I 20.. _....

; See 463 R2d, at 352.

i
;

i 21
:• It is, of course, a predictive evaluation, resistant to empirical proof, whether 'an

i applicant's past participation in unlawful conduct directed at his prospective
: employer might indicate the applicant's lack of a responsible attitude toward
•
performing work for that employer' 463 R2d, at 353. But in this case, given the
seriousness and harmful potential of respondent's participation in the 'stall-in'
and the accompanying inconvenience to other employees, it cannot be said that
petitioner's refusal to employ lacked a rational and neutral business justification.
As the Court has noted elsewhere:
'Past conduct may well relate to present fitness; past loyalty may have a
i reasonable relationship to present ana future trust7_Gafnef v. Board 0f"PU&Hr
Works of Los Angeles, 341 U,S. 716, 720, 71 S.Ct. 909, 912, 95 L.Ed. 1317
! (1951).
McDonnell - 95a

l

;
*
v

APPENDIX

JUSTIA
Anderson v. Liberty Lobby, Inc., 477
U.S. 242 (1986)
Syllabus

Case

U.S. Supreme Court
Anderson v. Liberty Lobby, Inc., 477 U.S. 242 (1986)
Anderson v. Liberty Lobby, Inc.
No. 84-1602
Argued December 3,1985
Decided June 25,1986
477 U.S. 242
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
Syllabus
In New York Times Co. v. Sullivan, 376 U. S. 254, it was held that, in a libel suit brought by
a public official (extended by later cases to public figures), the First Amendment requires
the plaintiff to show that, in publishing the alleged defamatory statement, the defendant
acted with actual malice. It was further held that such actual malice must be shown with
"convincing clarity." Respondents, a nonprofit corporation described as a "citizens' lobby"
and its founder, filed a libel action in Federal District Court against petitioners, alleging
Anderson - 96a

that certain statements in a magazine published by petitioners were false and derogatory.
Following discovery, petitioners moved for summary judgment pursuant to Federal Rule of
Civil Procedure 56, asserting that, because respondents were public figures, they were
required to prove their case under the New York Times standards, and that summary
judgment was proper because actual malice was absent as a matter of law in view of an
affidavit by the author of the articles in question that they had been thoroughly researched
and that the facts were obtained from numerous sources. Opposing the motion,
respondents claimed that an issue of actual malice was presented because the author had
relied on patently unreliable sources in preparing the articles. After holding that New York
Times applied because respondents were limited-purpose public figures, the District Court
entered summary judgment for petitioners on the ground that the author's investigation
and research and his reliance on numerous sources precluded a finding of actual malice.
Reversing as to certain of the allegedly defamatory statements, the Court of Appeals held
that the requirement that actual malice be proved by clear and convincing evidence need
not be considered at the summary judgment stage, and that, with respect to those
statements, summary judgment had been improperly granted, because a jury could
reasonably have concluded that the allegations were defamatory, false, and made with
actual malice.
Held: The Court of Appeals did not apply the correct standard in reviewing the District
Court's grant of summary judgment. Pp. 477 U. S. 247-257.
(a) Summary judgment will not lie if the dispute about a material fact is "genuine,” that is,
if the evidence is such that a reasonable jury could return a verdict for the nonmoving
party. At the summary judgment stage, the trial judge's function is not himself to weigh the
evidence and
Page 477 U. S. 243
determine the truth of the matter, but to determine whether there is a genuine issue for
trial. There is no such issue unless there is sufficient evidence favoring the nonmoving
party for a jury to return a verdict for that party. In essence, the inquiry is whether the
evidence presents a sufficient disagreement to require submission to a jury, or whether it is
so one-sided that one party must prevail as a matter of law. Pp. 477 U. S. 247-252.
(b) Atrial court ruling on a motion for summary judgment in a case such as this must be
guided by the New York Times "clear and convincing" evidentiary standard in determining
whether a genuine issue of actual malice exists, that is, whether the evidence is such that a
reasonable jury might find that actual malice had been shown with convincing clarity. Pp.
Anderson - 97a

477 U. S. 252-256.
(c) A plaintiff may not defeat a defendant's properly supported motion for summary
judgment in a libel case such as this one without offering any concrete evidence from which
a reasonable jury could return a verdict in his favor, and by merely asserting that the jury
might disbelieve the defendant's denial of actual malice. The movant has the burden of
showing that there is no genuine issue of fact, but the plaintiff is not thereby relieved of his
own burden of producing in turn evidence that would support a jury verdict. Pp. 477 U. S.
256-257.
241 U.S.App.D.C. 246, 746 F.2d 1563, vacated and remanded.
WHITE, J., delivered the opinion of the Court, in which MARSHALL, BLACKMUN,
POWELL, STEVENS, and O'CONNOR, JJ., joined. BRENNAN, J., filed a dissenting
opinion, post, p. 477 U. S. 257. REHNQUIST, J., filed a dissenting opinion, in which
BURGER, C.J., joined, post, p. 477 U. S. 268.
Page 477 U. S. 244
JUSTICE WHITE delivered the opinion of the Court.
In New York Times Co. v. Sullivan, 376 U. S. 254, 376 U. S. 279-280 (1964), we held that,
in a libel suit brought by a public official, the First Amendment requires the plaintiff to
show that, in publishing the defamatory statement, the defendant acted with actual malice - "with knowledge that it was false, or with reckless disregard of whether it was false or
not." We held further that such actual malice must be shown with "convincing clarity." Id.
at 376 U. S. 285-286. See also Gertz v. Robert Welch, Inc., 418 U. S. 323, 418 U. S. 342
(1974). These New York Times requirements we have since extended to libel suits brought
by public figures as well. See, e.g., Curtis Publishing Co. v. Butts, 388 U. S. 130 (1967).
This case presents the question whether the clear-and-convincing-evidence requirement
must be considered by a court ruling on a motion for summary judgment under Rule 56 of
the Federal Rules of Civil Procedure in a case to which New York Times applies. The United
States Court of Appeals for the District of Columbia Circuit held that that requirement need
not be considered at the summary judgment stage. 241 U.S.App.D.C. 246, 746 F.2d 1563
(1984). We granted certiorari, 471 U.S. 1134 (1985), because that holding was in conflict
with decisions of several other Courts of Appeals, which had held that the New York Times
requirement of clear and convincing evidence must be considered on a motion for summary
judgmeiiLTEoatnote-ij-We-now-reverse,---------------------------------—----- -------------------------

Anderson - 98a

I
Respondent Liberty Lobby, Inc., is a not-for-profit corporation and self-described "citizens'
lobby." Respondent Willis Carto is its founder and treasurer. In October, 1981,
Page 477 U. S. 245
The Investigator magazine published two articles: "The Private World of Willis Carto" and
"Yockey: Profile of an American Hitler." These articles were introduced by a third, shorter
article entitled "America's Neo-Nazi Underground: Did Mein Kampf Spawn Yockey's
Imperium, a Book Revived by Carto's Liberty Lobby?" These articles portrayed respondents
as neo-Nazi, anti-Semitic, racist, and Fascist.
Respondents filed this diversity libel action in the United States District Court for the
District of Columbia, alleging that some 28 statements and 2 illustrations in the 3 articles
were false and derogatory. Named as defendants in the action were petitioner Jack
Anderson, the publisher of The Investigator, petitioner Bill Adkins, president and chief
executive officer of the Investigator Publishing Co., and petitioner Investigator Publishing
Co. itself.
Following discovery, petitioners moved for summaiy judgment pursuant to Rule 56. In
their motion, petitioners asserted that, because respondents are public figures, they were
required to prove their case under the standards set forth in New York Times. Petitioners
also asserted that summary judgment was proper because actual malice was absent as a
matter of law. In support of this latter assertion, petitioners submitted the affidavit of
Charles Bermant, an employee of petitioners and the author of the two longer articles.
[Footnote 2] In this affidavit, Bermant stated that he had spent a substantial amount of
time researching and writing the articles, and that his facts were obtained from a wide
variety of sources. He also stated that he had at all times believed, and still believed, that
the facts contained in the articles were truthful and accurate. Attached to this affidavit was
an appendix in which Bermant detailed the sources for each of the statements alleged by
respondents to be libelous.
Page 477 U. S. 246
Respondents opposed the motion for summary judgment, asserting that there were
numerous inaccuracies in the articles and claiming that an issue of actual malice was
presented by virtue of the fact that, in preparing the articles, Bermant had relied on several
sources that respondents asserted were patently unreliable. Generally, respondents charged
that petitioners had failed adequately to verify their information before publishing.
Anderson - 99a

Respondents also presented evidence that William McGaw, an editor of The Investigator,
had told petitioner Adkins before publication that the articles were "terrible" and
"ridiculous."
In ruling on the motion for summary judgment, the District Court first held that
respondents were limited-purpose public figures, and that New York Times therefore
applied. [Footnote 3] The District Court then held that Bermant's thorough investigation
and research and his reliance on numerous sources precluded a finding of actual malice.
Thus, the District Court granted the motion and entered judgment in favor of petitioners.
On appeal, the Court of Appeals affirmed as to 21 and reversed as to 9 of the allegedly
defamatory statements. Although it noted that respondents did not challenge the District
Court's ruling that they were limited-purpose public
Page 477 U. S. 247
figures, and that they were thus required to prove their case under New York Times, the
Court of Appeals nevertheless held that, for the purposes of summary judgment, the
requirement that actual malice be proved by clear and convincing evidence, rather than by
a preponderance of the evidence, was irrelevant: to defeat summary judgment, respondents
did not have to show that a jury could find actual malice with "convincing clarity." The
court based this conclusion on a perception that to impose the greater evidentiary burden
at summary judgment
"would change the threshold summary judgment inquiry from a search for a minimum of
facts supporting the plaintiffs case to an evaluation of the weight of those facts and (it
would seem) of the weight of at least the defendant's uncontroverted facts as well."
241 U.S.App.D.C. at 253, 746 F.2d at 1570. The court then held, with respect to nine of the
statements, that summary judgment had been improperly granted because "a jury could
reasonably conclude that the ... allegations were defamatory, false, and made with actual
malice." Id. at 260, 746 F.2d at 1577.
II
A
Our inquiry is whether the Court of Appeals erred in holding that the heightened
evidentiary requirements that apply to proof of actual malice in this New York Times case
need not be considered for the purposes of a motion for summary judgment. Rule 56(c) of
the> T7e»Hp»ral Rnloc rtf rS\ril Pmoerlurp r»TW\7iHe»c that cnmmann'nHampnt

Anderson - 100a

U1V A V^UVl U1 IVVU^O WJ. VHU A i WVUUi V ^iV/flUVU Uiut U UilAillUi. J JUUglUVUb

"shall be rendered forthwith if the pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any, show that there is no genuine issue
as to any material fact and that the moving party is entitled to a judgment as a matter of
law."
By its very terms, this standard provides that the mere existence of some alleged factual
dispute between the parties will not defeat an otherwise properly supported
Page 477 U. S. 248
motion for summary judgment; the requirement is that there be no genuine issue of
material fact.
As to materiality, the substantive law will identify which facts are material. Only disputes
over facts that might affect the outcome of the suit under the governing law will properly
preclude the entry of summary judgment. Factual disputes that are irrelevant or
unnecessary will not be counted. See generally 10A C. Wright, A. Miller, & M. Kane,
Federal Practice and Procedure § 2725, pp. 93-95 (1983). This materiality inquiry is
independent of and separate from the question of the incorporation of the evidentiary
standard into the summary judgment determination. That is, while the materiality
determination rests on the substantive law, it is the substantive law's identification of
which facts are critical and which facts are irrelevant that governs. Any proof or evidentiary
requirements imposed by the substantive law are not germane to this inquiry, since
materiality is only a criterion for categorizing factual disputes in their relation to the legal
elements of the claim, and not a criterion for evaluating the evidentiary underpinnings of
those disputes.
More important for present purposes, summary judgment will not lie if the dispute about a
material fact is "genuine," that is, if the evidence is such that a reasonable jury could return
a verdict for the nonmoving party. In First National Bank ofArizona v. Cities Service Co.,
391U. S. 253 (1968), we affirmed a grant of summary judgment for an antitrust defendant
where the issue was whether there was a genuine factual dispute as to the existence of a
conspiracy. We noted Rule 56(e)'s provision that a party opposing a properly supported
motion for summary judgment
"may not rest upon the mere allegations or denials of his pleading, but... must set forth
specific facts showing that there is a genuine issue for trial."
We observed further that
Anderson - 101a

m

3
\\

,A

'I

IX

■ V

' 'J ^

*+i.

■

"[i]t is true thafthe issui" of iri'ateri&l fact'feqiiiVed by' RuI^B^Cc) to^e'p^felit’to’entitle a^c
.d-4 >Jnft '
.J rc, »*t V.-irn'' f .:<| W'vbB >?Lf' {. ; Iou.-mv5!
partyto proceed to J'.Ki iT !
**.. - •
- •; *>rjj
i frif.-.*:d^ i**)Jon .«»/ •; .b... fr •iUu.y. .. 'J t'lfio ') -’I
. -.; i i
.
JA irtrb •>' i.t'Ji'i :,U t i • "r,
Page477UrSr249’
■ : . vu..
r
l^r • *;
<»n ?r j..
b loi'i'l. ■’ . > "■'.rt-"'* f; i t h <>',■ Jr j '.^’Vq T*fi

if,

¥?■ ^?L?f^!'P^-^!nS4H^rfS?;v.

he shown to require a jury or judge.to resolve the pMjies'.diffenpgjeijionji .of {he truth(at
*™*

*•., a-, ,,|ji* ir tovc. m h"'.

;r hfit \> < s n ■

■ nil’ ,jd j k< 10 isonii

391 U.S. at 391U. S. 288-289.,We went .on to hold that, in the face of the defendant's
properly supported motion for summary judgment, the plaintiff could not rest on his

::
j <

,«

.!>.!•

tending to support Aecpmijlainh^/d^t 391.^8-290^ „ mMa,* l)v',01;t.;,;v
Again, in Adickes v. S: HrKress‘& '(&;$& b. SM^'Cioyoj.'&e’&utf elifphtlsiSed'tiiattlie '
availability of summary judgment turned on whether a properjury question was gresentecL
There, one of the issues was whether there was a conspiracy between private persons and
law enforcement officers. The District Court granted-summary judgment for theM;b ■-/ a
defendants,^stating that there was no evidence from which .reasonably minded'jurors might
draw an inference of conspiracy. We reversed, pointing out that the.moving.parties’i, .;^o.)
submissions had not foreclosed the possibility of the existence of certain facts from which
"it wouM be'opeh'to ajury 3.4! toHnfer from the circumstances" fhat^th’ere^adlSeeii a7F ‘ 1
meeting of the minds:/d: at :WX U. S.'.s'd-'.S^'' '
:^
: i -ui
,
f»1 ' . ' ”d, jtvv .1 *’ • uo’ i- 'sb ■ eb'uii rl > •? f^i’ .c
■ Ml- m-v
*’ 1 . ‘
Ourfpiior decisions may hothave'uniformly recited the same language in^describing. .’'fit ]
genuineifactualissues.urider Rule 56;,but it is clear enoughfromnurrecent’casesthat atithe
summary judgment stage thejudge's function ismot himselfto weigh" the: evidehcefand * ud
determine the truth bf the matter,hut to determine whether there is aigehuine issue fbr, rv •t
trial. As Adickes, supra, and\CitiesirService, supra,-indicate,'there is ho is'suerfor. trial .unless*
there is sufficient evidenc&favoriiig.the nonmoving party.fpr a jurytojreturnia.verdict for 'V
that party. Cities Service, supra, at 391 U. S. 288-289. If the evidence is merely colorable,
Dombrowskvv. Easilawi, 387 U. S
(1^67)* (per curiim)36t is not significantly1 n:' *>r'1
: ^ d, ‘,'u ji'f.'/'.nm’' :(dppr) c<,j. .p ,t.l j>ai .xo^; .c - hdf
’j
probative,
•j
J oK:‘ .iIUm r
1 18**.
w ,r,v.: <
‘

‘t

Page 477 U. S. 250
d4
r*. *1
fbiy ri. O'l d ivd -jtl ‘ 'd.-/
' ' ha 'til b’ ,-i., . ol pj.rti. ■
e.
¥•
Dti:.
-j,y fG-n .-Por ^ ft \ y.f U. u ■■ »‘
• *-c -OSP > 0 ‘Kf , a *o’J
TTiat tfiic ic tVio nrnnpr -frimic

Anderson - 102a

inmiiro ic ctrontrlv cnaapctp/l

tVie> Rnlp itcplf Rnlp

5ft"

nc -.rl, *

1

r
#

I 1

*.

i

«

liii.

‘

»

clarity.
.!

Page 477, U*,S. 253, ,

i

I

• ]

The’case for the proposition that a liigher fturden of proof should have .a corresponding; j; ,
effect on the judge when deciding whether to send the case to the jury was well made by the
Court of: Appeals for (the, Second Circuit mJJnitedStatesjv. Taylor, 464 F.2d<240.(i972),' - ’
which overniled United States v. Feinberg,.140 F.2d 592 (1944), a case holding that the
standard of evidence necessary for a judge to send a casg to the jury is the same imboth civil-,
and criminal cases, even though the standard that the jury must apply in a criminal case is
more demanding than in civil proceedings. Speaking through Judge Friendly, the Second ’
t

Circuit said:

1

.

M

11 ! ' >tb

A

t

>.jV- J('

i

i J

-ti l. -

1

"It would seem at first blush — and we think also at second -- that more 'facts in evidence ,,
are needed for the judge to allow [reasonable jurors to pass on a claim] when the proponent
is required to establish, [the claim] not(merely;by a preponderance of the: evidence but .,. • ;
beyond a [reasonable doubt. " ,

u t '

1

464 F.2d°at 242. The court could hot find a
;■

^ • .li TI* -U •mf’b'*' ’Hbi. x-"U T ’

r •

‘‘V-' •’ I

t -.

. V, 1 >'f.
.

"

A ' .

r

, I-

t • 1.

t , 'll! ]

4*

.

:<

. 1

1 r iU

K-'il

*

* J

m h ,

- I*1 ■ i *1 ^

• ‘J.r^ •* 1^

"satisfying'explanation in the Feiiiberg’ opinion V^hy the jud-ge'sHoul^not place thisliigher
1 r \ ri
burden oh the prosecutib^incnminal^roceedirigsbefore^senMg'tKeHs^tb
tliejuiy?’

*

J '

r.„, IT » jin* <nq
*1. »
IbidtrTheTQyter^m al^o-e.pinted-.opt^iat dmost;.all;the CircuitS’hhd^dtDptedfsbmething v..
like Judge[Prettyman's,fprmulatipn'in -Gurleys 1United States; 160 F.2d 229,- 232-233
(1947):
fJ
;
.
■ b • I.
>"*r
a>.yi-..
,'n- <• f '*

F

!

"The true rule, therefore, is that aerial judge, in passing upon a motion for directed verdict
of acquittal, must detennine (whether,.upon' the^vidence,' giving full play to theright of thef
jury to determine credibility, weigh-the evidence, and draw justifiable inferences, of fact,-U'
reasonable mind might fairly conclude guilt beyond a reasonable doubt. If he concludes
_
that, upon the evidence, there must be such a doubt in a reasonable mind, he must grant
the motion; or, to state it another way, if there is no evidence upon whicha reasonable,
mine! might fairly conclude guilt beyond reasonable doubt, demotion.must t?etgranted. If n
he concludes that either of.the.
•ic

1

MAS .

. ■ (

’ *
r
M

Page 477 U. S. 254
■f,

r[ . :

.

-

i ■

< '

• '•'V

■ If

r

■

*

[< 1

-W' '

*). '
I

,r;<
A'

;

. ' -ob

.■1 rrhvT '

two results, a reasonable doubtor no reasonable doubt,- is fairly possible/hemust let the
/V.jj'l'lO)
» . M
h j •tj?' 1,
:
,
b. 'r
jury decidethematter." , k J
i

■ '

Anderson - 105a

J

.4-.

This view is equally applicable to a civil case to which the "clear and convincing" standard
applies. Indeed, the Taylor court thought that it was implicit in this Court's adoption of the
clear-and-convincing-evidence standard for certain kinds of cases that there was a
"concomitant duty on the judge to consider the applicable burden when deciding whether
to send a case to the jury." 464 F.2d at 243. Although the court thought that this higher
standard would not produce different results in many cases, it could not say that it would
never do so.
Just as the "convincing clarity" requirement is relevant in ruling on a motion for directed
verdict, it is relevant in ruling on a motion for summary judgment. When determining if a
genuine factual issue as to actual malice exists in a libel suit brought by a public figure, a
trial judge must bear in mind the actual quantum and quality of proof necessary to support
liability under New York Times. For example, there is no genuine issue if the evidence
presented in the opposing affidavits is of insufficient caliber or quantity to allow a rational
finder of fact to find actual malice by clear and convincing evidence.
Thus, in ruling on a motion for summary judgment, the judge must view the evidence
presented through the prism of the substantive evidentiary burden. This conclusion is
mandated by the nature of this determination. The question here is whether a jury could
reasonably find either that the plaintiff proved his case by the quality and quantity of
evidence required by the governing law or that he did not. Whether a jury could reasonably
find for either party, however, cannot be defined except by the criteria governing what
evidence would enable the jury to find for either the plaintiff or the defendant: it makes no
sense to say that a jury could reasonably find for either party without some
Page 477 U. S. 255
benchmark as to what standards govern its deliberations and within what boundaries its
ultimate decision must fall, and these standards and boundaries are in fact provided by the
applicable evidentiary standards.
Our holding that the clear-and-convincing standard of proof should be taken into account
in ruling on summary judgment motions does not denigrate the role of the juiy. It by no
means authorizes trial on affidavits. Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences from the facts are jury functions, not
those of a judge, whether he is ruling on a motion for summary judgment or for a directed
verdict. The evidence of the nonmovant is to be believed, and all justifiable inferences are
to be drawnin~hisfavor.~vldicA:es73g8TJ:Srar3q8~UrSn38-i59rNeitiier do we suggest'LliaL
the trial courts should act other than with caution in granting summary judgment, or that

Anderson - 106a

the trial court may not deny summary judgment in a case where there is reason to believe
that the better course would be to proceed to a full trial. Kennedy v. Silas Mason Co., 334
U. S. 249 (1948).
In sum, we conclude that the determination of whether a given factual dispute requires
submission to a jury must be guided by the substantive evidentiary standards that apply to
the case. This is true at both the directed verdict and summary judgment stages.
Consequently, where the New York Times "clear and convincing" evidence requirement
applies, the trial judge's summary judgment inquiry as to whether a genuine issue exists
will be whether the evidence presented is such that a jury applying that evidentiary
standard could reasonably find for either the plaintiff or the defendant. Thus, where the
factual dispute concerns actual malice, clearly a material issue in a New York Times case,
the appropriate summary judgment question will be whether the evidence in the record
could support a reasonable jury finding
Page 477 U. S. 256
either that the plaintiff has shown actual malice by clear and convincing evidence or that
the plaintiff has not. [Footnote 7]
III
Respondents argue, however, that, whatever may be true of the applicability of the "clear
and convincing" standard at the summary judgment or directed verdict stage, the
defendant should seldom, if ever, be granted summary judgment where his state of mind is
at issue and the jury might disbelieve him or his witnesses as to this issue. They rely on
Poller v. Columbia Broadcasting Co., 368 U. S. 464 (1962), for this proposition. We do not
understand Poller, however, to hold that a plaintiff may defeat a defendant's properly
supported motion for summary judgment in a conspiracy or libel case, for example, without
offering any concrete evidence from which a reasonable juror could return a verdict in his
favor, and by merely asserting that the jury might, and legally could, disbelieve the
defendant's denial of a conspiracy or of legal malice. The movant has the burden of showing
that there is no genuine issue of fact, but the plaintiff is not thereby relieved of his own
burden of producing, in turn, evidence that would support a jury verdict. Rule 56(e) itself
provides that a party opposing a properly supported motion for summary judgment may
not rest upon mere allegation or denials of his pleading, but must set forth specific facts
showing that there is a genuine issue for trial. Based on that Rule, Cities Service, 391 U.S. at
391U. S. 290, held that the plaintiff could not defeat the properly supported summary
judgment motion of a defendant charged with a conspiracy without offering "any
• 1

Anderson - 107a

i•

• 1

significant probative evidence tending to support tne complaint." as we nave recently said,
"discredited testimony
Page 477 U. S. 257
is not [normally] considered a sufficient basis for drawing a contrary conclusion." Bose
Corp. v. Consumers Union of United States, Inc., 466 U. S. 485,466 U. S. 512 (1984).
Instead, the plaintiff must present affirmative evidence in order to defeat a properly
supported motion for summary judgment. This is true even where the evidence is likely to
be within the possession of the defendant, as long as the plaintiff has had a full opportunity
to conduct discovery. We repeat, however, that the plaintiff, to survive the defendant's
motion, need only present evidence from which a jury might return a verdict in his favor. If
he does so, there is a genuine issue of fact that requires a trial.
IV
In sum, a court ruling on a motion for summary judgment must be guided by the New York
Times "clear and convincing" evidentiary standard in determining whether a genuine issue
of actual malice exists -- that is, whether the evidence presented is such that a reasonable
jury might find that actual malice had been shown with convincing clarity. Because the
Court of Appeals did not apply the correct standard in reviewing the District Court's grant
of summary judgment, we vacate its decision and remand the case for further proceedings
consistent with this opinion.
It is so ordered.
[Footnote 1]
See, e.g., Rebozo v. Washington Post Co., 637 F.2d 375, 381 (CA5), cert, denied, 454 U.S.
964 (1981); Yiamouyiannis v. Consumers Union of United States, Inc., 619 F.2d 932, 940
(CA2), cert, denied, 449 U.S. 839 (1980); Carson v. Allied News Co., 529 F.2d 206 , 210
(CA71976).
[Footnote 2]
The short, introductory article was written by petitioner Anderson, and relied exclusively
on the information obtained by Bermant.
[Footnote 3]
In Gertz v. Robert Welch, Inc., 418 U. S. 323,418 U. S. 351 (1974), this Court summarized
--------• j--------j

Anderson - 108a

t------------------r:_____________

1-----------*-1------ AT---------Tr-------1. *TV_____ - -.4-—

j

— j-------- *n

wno wm De consiuereu to De a puDiie ngure to wnom me i\ew xutk. i imes standards wui
apply:
"[The public figure] designation may rest on either of two alternative bases. In some
instances, an individual may achieve such pervasive fame or notoriety that he becomes a
public figure for all purposes and in all contexts. More commonly, an individual voluntarily
injects himself or is drawn into a particular public controversy, and thereby becomes a
public figure for a limited range of issues. In either case, such persons assume special
prominence in the resolution of public questions."
The District Court found that respondents, as political lobbyists, are the second type of
political figure described by the Gertz court — a limited-purpose public figure. See also
Waldbaum v. Fairchild Publications Inc., 201 U.S.App.D.C. 301,306, 627 F.2d 1287,1292,
cert, denied. 449 U.S. 898 (1980).
[Footnote 4]
Our analysis here does not address the question of the initial burden of production of
evidence, placed by Rule 56 on the party moving for summary judgment. See Celotex Corp.
v. Catrett, post, p. 477 U. S. 317. Respondents have not raised this issue here, and, for the
purposes of our discussion, we assume that the moving party has met initially the requisite
evidentiary burden.
[Footnote 5]
This requirement in turn is qualified by Rule 56(f)'s provision that summary judgment be
refused where the nonmoving party has not had the opportunity to discover information
that is essential to his opposition. In our analysis here, we assume that both parties have
had ample opportunity for discovery.
[Footnote 6]
In many cases, however, findings are extremely helpful to a reviewing court.
[Footnote 7]
Our statement in Hutchinson v. Proxmire, 443 U. S. 111, 443 U. S. 120, n. 9 (1979), that
proof of actual malice "does not readily lend itself to summary disposition" was simply an
acknowledgment of our general reluctance
"to grant special procedural protections to defendants in libel and defamation actions in
addition to the constitutional protections embodied in the substantive laws."
Anderson • 109a

Calder v. Jones, 465 U. S. 783,465 U. S. 790-791 (1984).
JUSTICE BRENNAN, dissenting.
The Court today holds that
"whether a given factual dispute requires submission to a jury must be guided by the
substantive evidentiary standards that apply to the case,"
ante at 477 U. S. 255. [Footnote 2/1] In my view, the Court's analysis is deeply flawed,
Page 477 U. S. 258
and rests on a shaky foundation of unconnected and unsupported observations, assertions,
and conclusions. Moreover, I am unable to divine from the Court’s opinion how these
evidentiary standards are to be considered, or what a trial judge is actually supposed to do
in ruling on a motion for summary judgment. Accordingly, I respectfully dissent.
To support its holding that, in ruling on a motion for summary judgment, a trial court must
consider substantive evidentiary burdens, the Court appropriately begins with the language
of Rule 56(c), which states that summary judgment shall be granted if it appears that there
is "no genuine issue as to any material fact and that the moving party is entitled to a
judgment as a matter of law." The Court then purports to restate this Rule, and asserts that
"summary judgment will not lie if the dispute about a material fact is 'genuine,' that is, if
the evidence is such that a reasonable jury could return a verdict for the nonmoving party."
Ante at 477 U. S. 248. No direct authority is cited for the proposition that, in order to
determine whether a dispute is "genuine" for Rule 56 purposes, a judge must ask if a
"reasonable" jury could find for the nonmoving party. Instead, the Court quotes from First
National Bank ofArizona v. Cities Service Co., 391 U.S.
Page 477 U. S. 259
253, 391U. S. 288-289 (1968), to the effect that a summary judgment motion will be
defeated if
"sufficient evidence supporting the claimed factual dispute be shown to require a jury or
judge to resolve the parties' differing versions of the truth at trial,"
ante at 477 U. S. 249, and that a plaintiff may not, in defending against a motion for
Anderson -110

summary judgment, rest on mere allegations or denials of his pleadings. After citing
Adickes v. S. H. Kress & Co., 398 U. S. 144 (1970), for the unstartling proposition that "the
availability of summary judgment tum[s] on whether a properjury question [is]
presented," ante at 477 U. S. 249, the Court then reasserts, again with no direct authority,
that, in determining whether a jury question is presented, the inquiry is whether there are
factual issues "that properly can be resolved only by a finder of fact because they may
reasonably be resolved in favor of either party." Ante at 477 U. S. 250. The Court maintains
that this summary judgment inquiry "mirrors" that which applies in the context of a motion
for directed verdict under Federal Rule of Civil Procedure 50(a):
"whether the evidence presents a sufficient disagreement to require submission to a jury, or
whether it is so one-sided that one party must prevail as a matter of law."
Ante at 477 U. S. 251-252.
Having thus decided that a "genuine" dispute is one which is not "one-sided," and one
which could "reasonably" be resolved by a "fair-minded" jury in favor of either party, ibid.,
the Court then concludes:
"Whether a jury could reasonably find for either party, however, cannot be defined except
by the criteria governing what evidence would enable the jury to find for either the plaintiff
or the defendant: it makes no sense to say that a jury could reasonably find for either party
without some benchmark as to what standards govern its deliberations and within what
boundaries its ultimate decision must fall, and these standards and boundaries are, in fact,
provided by the applicable evidentiary standards."
Ante at 477 U. S. 254-255.
Page 477 U. S. 260
As far as I can discern, this conclusion, which is at the heart of the case, has been reached
without the benefit of any support in the case law. Although, as noted above, the Court cites
Adickes and Cities Service, those cases simply do not stand for the proposition that, in
ruling on a summary judgment motion, the trial court is to inquire into the "one-sidedness"
of the evidence presented by the parties. Cities Service involved the propriety of a grant of
summary judgment in favor of a defendant alleged to have conspired to violate the antitrust
laws. The issue in the case was whether, on the basis of the facts in the record, a jury could
infer that the defendant had entered into a conspiracy to boycott. No direct evidence of the
conspiracy was produced. In agreeing with the lower courts that the circumstantial
evidence presented by the plaintiff was insufficient to take the case to the jury, we observed
Anderson - 111a

that there was "one fact" that petitioner had produced to support the existence of the illegal
agreement, and that that single fact could not support petitioner's theory of liability.
Critically, we observed that
"[t]he case at hand presents peculiar difficulties because the issue of fact crucial to
petitioner's case is also an issue of law, namely the existence of a conspiracy."
391 U.S. at 391U. S. 289. In other words, Cities Service is, at heart, about whether certain
facts can support inferences that are, as a matter of antitrust law, sufficient to support a
particular theory of liability under the Sherman Act. Just this Term, in discussing summary
judgment in the context of suits brought under the antitrust laws, we characterized both
Cities Service and Monsanto Co. v. Spray-Rite Service Corp., 465 U. S. 752 (1984), as cases
in which "antitrust law limit[ed] the range of permissible inferences from ambiguous
evidence...." Matsushita Electric Industrial Co. v. Zenith Radio Corp., 475 U. S. 574,475
U. S. 588 (1986) (emphasis added). Cities Service thus provides no authority for the
conclusion that Rule 56 requires a trial court to consider whether direct evidence produced
by the parties is "one-sided." To the contrary, in Matsushita, the most recent
Page 477 U. S. 261
case to cite and discuss Cities Service, we stated that the requirement that a dispute be
"genuine" means simply that there must be more than "some metaphysical doubt as to the
material facts." 475 U.S. at 475 U. S. 586. [Footnote 2/2]
Nor does Adickes, also relied on by the Court, suggest in any way that the appropriate
summary judgment inquiry is whether the evidence overwhelmingly supports one party.
Adickes, like Cities Service, presented the question of whether a grant of summary
judgment in favor of a defendant on a conspiracy count was appropriate. The plaintiff, a
Page 477 U. S. 262
white schoolteacher, maintained that employees of defendant Kress conspired with the
police to deny her rights protected by the Fourteenth Amendment by refusing to serve her
in one of its lunchrooms simply because she was white and accompanied by a number of
black schoolchildren. She maintained, among other things, that Kress arranged with the
police to have her arrested for vagrancy when she left the defendant’s premises. In support
of its motion for summary judgment, Kress submitted statements from a deposition of one
of its employees asserting that he had not communicated or agreed with the police to deny
plaintiff service or to have her arrested, and explaining that the store had taken the
challenged action not because of the race of the plaintiff, but because it was fearful of the
Anderson - 112a

1

reaction of some of its customers if it served a racially mixed group. Kress also submitted
affidavits from the Chief of Police and the arresting officers denying that the store manager
had requested that petitioner be arrested, and noted that, in the plaintiffs own deposition,
she conceded that she had no knowledge of any communication between the police and any
Kress employee, and was relying on circumstantial evidence to support her allegations. In
opposing defendant's motion for summary judgment, plaintiff stated that defendant, in its
moving papers, failed to dispute an allegation in the complaint, a statement at her
deposition, and an unsworn statement by a Kress employee, all to the effect that there was
a policeman in the store at the time of the refusal to serve, and that it was this policeman
who subsequently made the arrest. Plaintiff argued that this sequence of events "created a
substantial enough possibility of a conspiracy to allow her to proceed to trial...398 U.S.
at 398 U. S. 157.
We agreed, and therefore reversed the lower courts, reasoning that Kress
"did not carry its burden because of its failure to foreclose the possibility that there was a
policeman in the Kress store while petitioner was awaiting service, and that this policeman
reached an understanding with some
Page 477 U. S. 263
Kress employee that petitioner not be served."
Ibid. Despite the fact that none of the materials relied on by plaintiff met the requirements
of Rule 56(e), we stated nonetheless that Kress failed to meet its initial burden of showing
that there was no genuine dispute of a material fact. Specifically, we held that, because
Kress failed to negate plaintiffs materials suggesting that a policeman was in fact in the
store at the time of the refusal to serve,
"it would be open to a jury... to infer from the circumstances that the policeman and a
Kress employee had a 'meeting of the minds,' and thus reached an understanding that
petitioner should be refused service."
Id. at 398 U. S. 158.
In Adickes, we held that a jury might permissibly infer a conspiracy from the mere presence
of a policeman in a restaurant. We never reached, and did not consider, whether the
evidence was "one-sided," and, had we done so, we clearly would have had to affirm, rather
than reverse, the lower courts, since, in that case, there was no admissible evidence
submitted by petitioner, and a significant amount of evidence presented by the defendant
J_________________J____ — -.1-----------A. i-1.

Anderson - 113a

.

rr<L __________ j.:____

_____ 1--

tenuing 10 reout me exisience oi a conspiracy, me question we uiu reacn was simpiy
whether, as a matter of conspiracy law, a jury would be entitled, again, as a matter of law, to
infer from the presence of a policeman in a restaurant the making of an agreement between
that policeman and an employee. Because we held that a jury was entitled so to infer, and
because the defendant had not carried its initial burden of production of demonstrating
that there was no evidence that there was not a policeman in the lunchroom, we concluded
that summary judgment was inappropriate.
Accordingly, it is surprising to find the case cited by the majority for the proposition that
"there is no issue for trial unless there is sufficient evidence favoring the nonmoving party
for a jury to return a verdict for that party." Ante at 477 U. S. 249. There was, of course, no
admissible evidence in Adickes favoring the nonmoving plaintiff; there was only an
Page 477 U. S. 264
unrebutted assertion that a Kress employee and a policeman were in the same room at the
time of the alleged constitutional violation. Like Cities Service, Adickes suggests that, on a
defendant's motion for summary judgment, a trial court must consider whether, as a
matter of the substantive law of the plaintiffs cause of action, a jury will be permitted to
draw inferences supporting the plaintiffs legal theory. In Cities Service, we found, in effect,
that the plaintiff had failed to make out a prima facie case; in Adickes, we held that the
moving defendant had failed to rebut the plaintiffs prima facie case. In neither case is
there any intimation that a trial court should inquire whether plaintiffs evidence is
"significantly probative," as opposed to "merely colorable," or, again, "one-sided." Nor is
there in either case any suggestion that, once a nonmoving plaintiff has made out a prima
facie case based on evidence satisfying Rule 56(e) that there is any showing that a
defendant can make to prevail on a motion for summary judgment. Yet this is what the
Court appears to hold, relying, in part, on these two cases. [Footnote 2/3]
As explained above, and as explained also by JUSTICE REHNQUIST in his dissent, see post
at 477 U. S. 271,1 cannot agree that the authority cited by the Court supports its position.
In my view, the Court's result is the product of an exercise
Page 477 U. S. 265
akin to the child's game of "telephone," in which a message is repeated from one person to
another and then another; after some time, the message bears little resemblance to what
was originally spoken. In the present case, the Court purports to restate the summary
judgment test, but, with each repetition, the original understanding is increasingly
distorted.
Anderson - 114a

But my concern is not only that the Court's decision is unsupported; after all, unsupported
views may nonetheless be supportable, I am more troubled by the fact that the Court's
opinion sends conflicting signals to trial courts and reviewing courts which must deal with
summary judgment motions on a day-to-day basis. This case is about a trial court's
responsibility when considering a motion for summary judgment, but in my view, the
Court, while instructing the trial judge to "consider" heightened evidentiary standards, fails
to explain what that means. In other words, how does a judge assess how one-sided
evidence is, or what a "fair-minded" jury could "reasonably" decide? The Court provides
conflicting clues to these mysteries, which I fear can lead only to increased confusion in the
district and appellate courts.
The Court's opinion is replete with boilerplate language to the effect that trial courts are not
to weigh evidence when deciding summary judgment motions:
"[I]t is clear enough from our recent cases that, at the summary judgment stage, the judge's
function is not himself to weigh the evidence and determine the truth of the matter...
Ante at 477 U. S. 249.
"Our holding... does not denigrate the role of the jury.... Credibility determinations, the
weighing of the evidence, and the drawing of legitimate inferences from the facts are jury
functions, not those of a judge, whether he is ruling on a motion for summary judgment or
for a directed verdict. The evidence of the nonmovant is to be believed, and all justifiable
inferences are to be drawn in his favor."
Ante at 477 U. S. 255.
Page 477 U. S. 266
But the Court's opinion is also full of language which could surely be understood as an
invitation — if not an instruction — to trial courts to assess and weigh evidence much as a
juror would:
"When determining if a genuine factual issue ... exists .. a trial judge must bear in mind
the actual quantum and quality of proof necessary to support liability.... For example,
there is no genuine issue if the evidence presented in the opposing affidavits is of
insufficient caliber or quantity to allow a rational finder of fact to find actual malice by
clear and convincing evidence."
Ante at 477 U. S. 254 (emphasis added).
Anderson - 115a

”[T]he inquiry... [is] whether the evidence presents a sufficient disagreement to require
submission to a jury, or whether it is so one-sided that one party must prevail as a matter of
law."
Ante at 477 U. S. 251-252 (emphasis added).
"[T]he judge must ask himself... whether a fair-minded jury could return a verdict for the
plaintiff on the evidence presented. The mere existence of a scintilla of evidence in support
of the plaintiffs position will be insufficient; there must be evidence on which the jury
could reasonably find for the plaintiff."
Ante at 477 U. S. 252.
I simply cannot square the direction that the judge "is not himself to weigh the evidence"
with the direction that the judge also bear in mind the "quantum" of proof required and
consider whether the evidence is of sufficient "caliber or quantity" to meet that "quantum."
I would have thought that a determination of the "caliber and quantity," i.e., the
importance and value, of the evidence in light of the "quantum," i.e., amount "required,"
could only be performed by weighing the evidence.
If, in fact, this is what the Court would, under today's decision, require of district courts,
then I am fearful that this new rule — for this surely would be a brand new procedure — will
transform what is meant to provide an expedited "summary"
Page 477 U. S. 267
procedure into a full-blown paper trial on the merits. It is hard for me to imagine that a
responsible counsel, aware that the judge will be assessing the "quantum" of the evidence
he is presenting, will risk either moving for or responding to a summary judgment motion
without coming forth with all of the evidence he can muster in support of his client's case.
Moreover, if the judge on motion for summary judgment really is to weigh the evidence,
then, in my view, grave concerns are raised concerning the constitutional right of civil
litigants to a jury trial.
It may well be, as JUSTICE REHNQUIST suggests, see post at 477 U. S. 270-271, that the
Court's decision today will be of little practical effect. I, for one, cannot imagine a case in
which a judge might plausibly hold that the evidence on motion for summary judgment was
sufficient to enable a plaintiff bearing a mere preponderance burden to get to the jury —
i.e., that aprimafacie case had been made out — but insufficient for a plaintiff bearing a
clear-and-convincing burden to withstand a defendant's summary iudgment motion.
Anderson - 116a

Imagine a suit for breach of contract. If, for example, the defendant moves for summary
judgment and produces one purported eyewitness who states that he was present at the
time the parties discussed the possibility of an agreement, and unequivocally denies that
the parties ever agreed to enter into a contract, while the plaintiff produces one purported
eyewitness who asserts that the parties did in fact come to terms, presumably that case
would go to the jury. But if the defendant produced not one, but too eyewitnesses, while
the plaintiff stuck with his single witness, would that case, under the Court's holding, still
go to the jury? After all, although the plaintiffs burden in this hypothetical contract action
is to prove his case by a mere preponderance of the evidence, the judge, so the Court tells
us, is to "ask himself... whether a fair-minded jury could return a verdict for the plaintiff
on the evidence presented." Ante at 477 U. S. 252. Is there, in this hypothetical example, "a
sufficient disagreement to require submission
Page 477 U. S. 268
to a jury," or is the evidence "so one-sided that one party must prevail as a matter of law"?
Ante at 477 U. S. 251-252. Would the result change if the plaintiffs one witness were now
shown to be a convicted perjurer? Would the result change if, instead of a garden variety
contract claim, the plaintiff sued on a fraud theory, thus requiring him to prove his case by
clear and convincing evidence?
It seems to me that the Court's decision today unpersuasively answers the question
presented, and in doing so raises a host of difficult and troubling questions for which there
may well be no adequate solutions. What is particularly unfair is that the mess we make is
not, at least in the first instance, our own to deal with; it is the district courts and courts of
appeals that must struggle to clean up after us.
In my view, if a plaintiff presents evidence which either directly or by permissible inference
(and these inferences are a product of the substantive law of the underlying claim) supports
all of the elements he needs to prove in order to prevail on his legal claim, the plaintiff has
made out a prima facie case, and a defendant's motion for summary judgment must fail,
regardless of the burden of proof that the plaintiff must meet. In other words, whether
evidence is "clear and convincing," or proves a point by a mere preponderance, is for the
factfinder to determine. As I read the case law, this is how it has been, and because of my
concern that today's decision may erode the constitutionally enshrined role of the jury, and
also undermine the usefulness of summary judgment procedure, this is how I believe it
should remain.
[Footnote 2/1]
Anderson - 117a

L

)

)

The Court's holding today is not, of course, confined in its application to First Amendment
cases. Although this case arises in the context of litigation involving libel and the press, the
cbuft-siioidiAg'ig•"'> ‘' ", '
"■
•

. T

* i'

-

v

T
■

“Hf

<•; ’!•.

f

- •-( • *-. ,• .

„• ,*<•

if

: n

.

"in ruling on amotion forSummaryjudgment, the judge'must viewthl'evdd^ice^reseiifca1
through the prism of the substantive evidentiary burden?'*'-1 • ' 4; br’C 1 • ' xStV. .. V. .} - r I >r
I ,

At [

■.

Ante a? f
254. Accordingly, I simplyfdo not understand why JUSTICE Ci ).f 'VREHNQUIST,,dissenting, Jeels it appropriate to citeCalder v. Jpnesy465 U.fS. 783 (1984), ’
and to remind the Court that we have consistently refused to extend special procedural •.
protections to defendants in libel and defamation suits. The Court today does nothing of
the kind. It changes summary judgmbhfpfbceduretfdf all litigahts; regardless 6f the '
•< * .
t n
iifl '
substantive nature of the underlying-litigatibn’. ' • U
v
pm
?„ . ‘01
• :<
»* ,1. ' ; "'o tii.ojor V Moreover, tte Court’s holdingis not limited to those cases in whichithe .evidentiary,. •, . l0
standard is "heightened," i.e., those in which a plaintiff must prove his case by more than a
mere preponderance of the" evidence. -Presumably/ifk* district 'court ruling on a motion for
summary judgment'in a libel case is to'consider th^^^uankmmid^ualit^" of proof
necessary to support liability under New York Times, ante at 477 U. S. 254, and then ask yJ
whether the evidence presented is of "sufficient caliber or quantity" to support that
quantum and quality, the court must ask the same questions in a garden variety action
where the plaintiff need .prevail.only by a mere preponderance of the evidence; In other •
words, today's decision, by its terms, applies to all summary judgment motions,
irrespective of the burden of proof required and the subject matter of the suit.
j -i , /

. F
)

[Footnote 2/2]

-<■

’

• ' > 'ft

>

■ p

J

.■I

■

f

b ‘

'V

'

U! '

Writing in dissentin Matsushita, JUSTICE WHITE stated that he agreed.with.the summary judgment test employed bytthe Court, namely, that j 1 •
[wjhere the record, taken as a whole, could not lead a rational trier of fact to find for the.
•7 . >»•
>.w.
i>\
v*. l u.
■>"
'
f
■ up1 . 1 .
<
nonmovmg party, there is no’genume rssue for trral.’"
'
'’}■}] ;. rnii! ;■ 'irfiu -»m o" I-ft*' ’.J nn1- ■
1
4-*'
'I • .1- u
475 U.S. at 475 & S.‘599l Whether the shift; announced today? from looking toJa
"reasonable," rathertthan a l'ratibhalf'jury is intended tb be ofahy significance; fhefe are '
other aspects of the Matsushita’dissent which'Ffind difficult to squareHvith the Courts' T * • t Y .
holding in the present case. The Matsushita dissenters argued:
"... [T]he Court summarizes Monsanto Go. vlSprcrij-Itite geftjice'Xknffi Supra, as holding
that courts should not permit factfinders to infer .conspiracies rwhen such inferences are
Anderson - 118a
f

T

rage 477. u. a. 2/u
*

u.

1

/

f

-

1 t

1

ground that the plaintiff has .failed to(produce sufficient evidence of malice. The only
evidence ofimalice produced by the plaintiff is the same testimony of witness A, who^is duly
impeached by the defendant for the prior perjury conviction. In addition, the trial judge has
now had an opportunity to observe the demeanor of witness A, and has noticed that he . 1
fidgets when answering critical questions, his eyes shift from the floor to the ceiling, and he
manifests all other indicia traditionally attributed torperjurers3
May the trial court, at this stage, grant a directed verdict? Again, surely not; we are still
\ »
i
'i
ri
i
dealing'With "credibility determinations."

!

V *

?.'V

.

I

.1

' ■

j *

•< -

vj»

The defendant now puts on its testimony, and produces three witnesses who were present
at the time when witness A alleges that the reporter said she had not checked the story and
had grave‘doubts about its accuracy as toplaihtiff.’Witness !Kconcedes that these three
people: wdre’present at the meeting, and that ttie statement of the reporter took place in tbe
presence of all these witnesses. Each witness categorically denies that the reporter made
the claimed statement’to witness !A..
'" ‘ *
h
*’ '
1' *'■
t-

: 0'1'

1>

•

< i-.n

^

May the trial court now grant a directed verdict at the close of all the evidence? Certainly
the plaintiffs case’is appreciably weakened by the testimonylof threeJdisinterested
witnesses/and oiW would hope that a properly charged jury would quickly return a verdict'
for tlie^fetidaht. But as lori^ as credibility is exclusively for the jury, it* seenWthe Court’s ‘
o' rr.

analysis would still require this case -tob'e decided by that body*
av
I
I

!

■ ■■

,rt

> 1. •< 1. • .

k

'< *1

1

jh'J* '

'

.

' '.!■

r .

Thus, in the case that I have posed, it would seem to make no difference whether the
standard,of proof which theiplaintiffhad to meet in order.toiprevail was the preponderance
of the evidence, clear and convincing evidence, or proof beyond a reasonable doubt. But if
the application'fof the standards makes no difference in the: case that I hypothesize, one may
fairly ask'in what sort of case'tides the difference in standards ’
1 '
Page 477 U. S. 271
1

,

*

’

1

j

i.

•t

t

make a difference in outcome? Cases may.be posed dealing with evidence that is essentially
documentary, rather than testimonial; but the Court has held in a related context involving
Federal Rule of Civil Procedure 52(a) that inferences from documentary evidence are as
much the prerogative of the finder of fact as inferences as to the credibility of witnesses.
Anderson v. Bessemer City,^po U. S. 564, 470CU. S.-sy^ (1985)^11x6 Court affords the .
lower courts no guidance whatsoever as to what, if any, difference the abstract standards
that it propounds would make in a particular case.
■»

J

' >

j

Anderson - 121a
0

l

There may be more merit than the Court is willing to admit to Judge Learned Hand's
observation in United States v. Feinberg, 140 F.2d 592, 594 (CA2), cert, denied, 322 U.S.
726 (1944), that ”[w]hile at times it may be practicable" to
"distinguish between the evidence which should satisfy reasonable men and the evidence
which should satisfy reasonable men beyond a reasonable doubtf,] ... in the long run, the
line between them is too thin for day-to-day use."
The Court apparently approves the overruling of the Feinberg case in the Court of Appeals
by Judge Friendly's opinion in United States v. Taylor, 464 F.2d 240 (1972). But even if the
Court is entirely correct in its judgment on this point, Judge Hand's statement seems
applicable to this case, because the criminal case differs from the libel case in that the
standard in the former is proof "beyond a reasonable doubt," which is presumably easier to
distinguish from the normal "preponderance of the evidence" standard than is the
intermediate standard of "clear and convincing evidence."
More important for purposes of analyzing the present case, there is no exact analog in the
criminal process to the motion for summary judgment in a civil case. Perhaps the closest
comparable device for screening out unmeritorious cases in the criminal area is the grand
jury proceeding, though the comparison is obviously not on all fours. The standard for
allowing a criminal case to proceed to trial is not whether the government has produced
prima facie evidence of guilt beyond
Page 477 U. S. 272
a reasonable doubt for every element of the offense, but only whether it has established
probable cause. See United States v. Mechanik, 475 U. S. 66,475 U. S. 70 (1986). Thus, in a
criminal case, the standard used prior to trial is much more lenient than the "clear beyond
a reasonable doubt" standard which must be employed by the finder of fact.
The three differentiated burdens of proof in civil and criminal cases, vague and
impressionistic though they necessarily are, probably do make some difference when
considered by the finder of fact, whether it be a jury or a judge in a bench trial. Yet it is not
a logical or analytical message that the terms convey, but instead almost a state of mind; we
have previously said:
"Candor suggests that, to a degree, efforts to analyze what lay jurors understand concerning
the differences among these three tests ... may well be largely an academic exercise....
Indeed, the ultimate truth as to how the standards of proof affect decisionmaking may well
be unknowable, given that factfinding is a process shared bv countless thousands of
Anderson - 122a

individuals throughout the country. We probably can assume no more than that the
difference between a preponderance of the evidence and proof beyond a reasonable doubt
probably is better understood than either of them in relation to the intermediate standard
of clear and convincing evidence."
Addington v. Texas, 441U. S. 418, 441U. S. 424-425 (1979) (emphasis added).
The Court's decision to engraft the standard of proof applicable to a factfinder onto the law
governing the procedural motion for a summary judgment (a motion that has always been
regarded as raising a question of law, rather than a question of fact, see, e.g., La Riviere v.
EEOC, 682 F.2d 1275,1277-1278 (CA91982) (Wallace, J.)), will do great mischief, with
little corresponding benefit. The primary effect of the Court’s opinion today will likely be to
cause the decisions of trial judges on summary judgment motions in libel cases to be
Page 477 U. S. 273
more erratic and inconsistent than before. This is largely because the Court has created a
standard that is different from the standard traditionally applied in summary judgment
motions without even hinting as to how its new standard will be applied to particular cases.

Oral Argument - December 03,1985

Disclaimer: Official Supreme Court case law is only found in the print version of the United States
Reports. Justia case law is provided for general informational purposes only, and may not reflect current
legal developments, verdicts or settlements. We make no warranties or guarantees about the accuracy,
completeness, or adequacy of the information contained on this site or information linked to from this
site. Please check official sources.
Justia Annotations is a forum for attorneys to summarize, comment on, and analyze case law published
on our site. Justia makes no guarantees or warranties that the annotations are accurate or reflect the
current state of law, and no annotation is intended to be, nor should it be construed as, legal advice.
Contacting Justia or any attorney through this site, via web form, email, or otherwise, does not create an
attorney-client relationship.

Anderson - 123a

APPENDIX 6

i

I

;

0

0

!

O

Home / Browse Decisions / F.3d / 866 F.3d / 866 F.3d 803 (2017)

1

McKinney v.

office of sheriff of whitley county
Email I Print I Comments (o)

No. 16-4131.

View Case

Cited Cases

Citing Case

i

866 F.3d 803 (2017)

i

Terrances. McKINNEY, Plaintiff-Appellant, v. OFFICE OF the SHERIFF OF WHITLEY COUNTY, Defendant-Appellee.

i

s

1

United States Court of Appeals, Seventh Circuit,

i

Argued April 19,2017.

i]

Decided August 8,2017.

i
i
j

Atterneyfs) appearing for the Case

!i

RohertO. Vegeler. Attorney, Vegeler Law Office, Fort Wayne, IN, for Plaintiff-Appellant.

i

j

Julie I. Havenith. Attorney, Law Offices of Travelers Insurance, Merrillville, IN, for Defendants-Appellees.

|

Before Bauer, Posner, and Hamilton, CircuitJudges.

i

Hamilton, CircuitJudge.
In 2013 the Sheriff of Whitley County, Indiana hired the County's first black police officer ever, Terrance McKinney. Nine
[866 F.3d 805]

j
j

months later, McKinney was fired. He sued for race discrimination. The district court granted summary judgment for the Office of the Sheriff, and
McKinney has appealed.

|
j
j
;

We reverse. Viewed in the light most favorable to plaintiff McKinney, his extensive evidence adds up to a strong case of race discrimination. As we
explain in detail, the defendant has offered an ever-growing list of rationales for firing McKinney that fall apart in the face of his evidence. The Sheriff's
termination letter provided three reasons for his discharge. Four days later, the Whitley County Board of Commissioners sent McKinney another letter
that added two more reasons. After McKinney brought suit, the defense added three more reasons. Yet patch after patch, the defense arguments for
summary judgment still will not hold water. McKinney presented evidence that he was treated differently than his similarly situated colleagues who are
not black. He also presented substantial evidence that the many rationales offered for firing him were baseless and pretextual. In addition, the district
court erred by disregarding most of McKinney's evidence, improperly discounting his testimony as "self-serving," and misreading our precedent on
the "common actor" inference that is sometimes argued in discrimination cases. We remand for trial.

!

i

I
|
i

I. Factual and Procedural Background
A. McKinney's Tenure as a Deputy Sheriff
I
1

Because the Office of the Sheriff moved for summary judgment, we construe all evidence and present the facts in the light most favorable to McKinney,
who was the non-moving party. E.g., Chaib v. GEO Group, Inc., 819JL3±337., 340 (7th Cir. 2016). On August 5, 2013, then-Sheriff Mark Hodges hired

McKinney - 124a

on entails a one-year probationary period during \
McKinney as a full-time merit officer. This
.he Sheriff may fire the officer at his sole
discretion, i.e., without approval from the merit ooard. See Ind. Code § 36-8-lO-lO(b). The probationary period is intended to ensure that new officers
are capable of performing their duties before they benefit from state law that requires good cause for firing and provides extensive procedural
protections. See Ind. Code § 36-8-10-11.
McKinney was Whitley County's first black merit officer. Sheriff Hodges discussed McKinney's race with him during his job interview, and McKinney
later testified that he did not expect that he would experience racial discrimination at the Sheriff's Office. After he began, however, a number of
incidents started to make him feel uncomfortable. One officer used the "n-word" in front of him. Once when buying coffee, McKinney's fellow officer
said that he wanted his "coffee black like my partner." McKinney also testified that the other officers refused to train him and sometimes would not
speak to him. Sheriff Hodges told McKinney that he should watch the movie "42," which is about Jackie Robinson breaking the color barrier in major
league baseball in 1947. Hodges told McKinney that the movie would "help [him] out."
On May 15, 2014, Sheriff Hodges fired McKinney. The termination notice gave three reasons: submitting false work hours while attending the Indiana
Law Enforcement Academy; violating the standard operating procedure that requires filing complete monthly reports; and violating the standard
operating procedure that governs fueling county vehicles. Four days later, the Whitley County Board of Commissioners sent McKinney a termination
letter that added two more reasons for his discharge: damaging a county vehicle and "failure to complete a transport and follow verbal instructions."
After McKinney
[866 F.3d 806]

brought suit, the defense added three more reasons, claiming that McKinney once texted while driving, crashed a county vehicle, and was late
transporting a juvenile to court. These various rationales and McKinney's evidence undermining their credibility are discussed below in Part II-C.

B. Discrimination lawsuit
After he was terminated, McKinney brought suit against the Office of the Sheriff of Whitley County and Deputy Sheriff Tony Helfrich on several theories.
The only claim on appeal is McKinney's claim against his employer, the Office of the Sheriff itself, for race discrimination in violation of Title VII of the
Civil Rights Act of 1964, 42 U.S.C. § 2000e-2. The Office of the Sheriff moved for summary judgment, arguing that McKinney "pointed to no direct
evidence of racial discrimination." The defense also argued that McKinney could not establish discrimination through the burden-shifting approach
adapted from McDonnell Douglas Corp. v. Green, 411 U.S. 702. 93 S.Ct. 1817, 36 L.Ed.2d 668 (1973), because he did not meet the Sheriff's legitimate
employment expectations. As evidence of this, the defense relied on Sheriff Hodges' affidavit, which listed the various rationales that had accumulated
since McKinney was fired.
McKinney responded that the racial comments, social exclusion at work, and failure to train provided direct evidence of discrimination. He also
submitted unusually detailed evidence — including testimony, interrogatory answers, relevant gas receipts, scheduling records, prisoner transport
records, the Sheriff's standard operating procedures, and much more — to show that the supposed reasons for firing him were not only wrong but so
baseless as to support an inference of pretext, meaning dishonesty.
The district court granted summary judgment for the defense. McKinney v. Office of the Sheriff of Whitley County, No. l:l5-cv-79, 2016 WL 6680288
(N.D. Ind. Nov. 14, 2016). The court wrote that McKinney failed to specify "any direct evidence of discrimination." It also expressed displeasure with the
format of McKinney's response to the motion for summary judgment, writing that McKinney "points in general to his Statement of Genuine Issues of
Fact" but does "not specify which facts would constitute such direct evidence." The court apparently refused to consider these facts, saying it "is not the
Court's job to sift through the record to determine whether there is sufficient evidence to support a party's claim." 2016 WL 6680288, at *5.
The district court also determined that McKinney failed to establish a prima facie case under the McDonnell Douglas framework because he failed to
meet the Sheriff's legitimate employment expectations. The court based this conclusion almost exclusively on Sheriff Hodges' version of events from
his affidavit. The court did not address most of McKinney's evidence, writing that "all that McKinney offers is his own assertions that he was meeting
Defendant's legitimate job expectations." The court discounted this testimony as "self-serving, speculative, and conclusory." In addition, the court
noted the "strong presumption]" against finding discrimination when the same person both hires and fires a plaintiff-employee: "If Sheriff Hodges
wanted to discriminate against McKinney based on his race, he could have refused to hire him in the first place."

II. Analysis
A. Legal Standards
Summary judgment is appropriate only if the "materials in the record, including depositions, documents, electronically
[866 F,3d 807]

stored information, affidavits or declarations, stipulations (including those made for purposes of the motion only), admissions, interrogatory answers,
or other materials" show that there is no genuine issue as to any material fact and that the moving party is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(c); Magin v. Monsanto Co., 420F,3d 679. 686 (7th Cir. 2005), citing Celotex Corp. v. Catrett, 477 U.S. 317. 322-23,106 S.Ct. 2548, 91 L.Ed.2d
265 (1986). To the extent the district court's ruling was based on its local rules, we review the application of those rules for abuse of discretion. See
Friend v. Valley View Comm. Unit School Dist. 365U, 78q F.3d 707, 710 (7th Cir. 2015); Harmon v. OKI Systems, US F.ld 477. 481 (7th Cir. 1997) (district
court did not abuse discretion by overlooking moving defendant's technical failure to comply with local summary judgment rule where opposing party
was not prejudiced).
Title VII prohibits an employer from discharging an employee because of that person's race. See 42 U.S.C. § 2000e-2(a)(l). A plaintiff may prove race
discrimination either directly or indirectly, and with a combination of direct and circumstantial evidence. The direct method requires the plaintiff to set
forth "sufficient evidence, either direct or circumstantial, that the employer's discriminatory animus motivated an adverse employment action."
Coleman v. Donahoe, 667 F.ld 821;, 845 (7th Cir. 2012). The indirect method allows a plaintiff to prove discrimination by using the burden-shifting
approach articulated in McDonnell Douglas Corp. v. Green, 411 U.S. 7Q2. 93 S.Ct. 1817,36 L.Ed.2d668 (1973). See Coleman, 667 F.3dat845.

McKinney 125a

;

f
i
1
i
[
S

!■

t

j
I
i
j
j
I

j

.ndirect" methods are not subject to different
In Ortiz v. Werner Enterprises, Inc., 81AJL,__ iQ, 765 (7th Cir. 2016), we clarified that the "direct" .
legal standards. Courts should not sort evidence of discrimination "into different piles, labeled 'direct' and 'indirect,1 that are evaluated differently." Id
at 766. Instead, there is a single inquiry: it is "simply whether the evidence would permit a reasonable factfinder to conclude that the plaintiff's race ...
caused the discharge." Id. at 765. Our decision in Ortiz did not alter "McDonnell Douglas or any other burden-shifting framework, no matter what it is
called as a shorthand." Id. at 766.
The McDonnell Douglas burden-shifting framework is designed to "sharpen the inquiry into the elusive factual question of intentional discrimination."
Texas Dep’t of Community Affairs v. Burdine, 4*10 U.S. 248, 255 n.8, 101 S.Ct. 1089, 67 L.Ed.2d 207 (1981). The plaintiff carries the initial burden of
establishing a prima facie case of discrimination, which can be accomplished by setting forth evidence that: "(1) she is a member of a protected class, (2)
her job performance met [the employer's] legitimate expectations, (3) she suffered an adverse employment action, and (4) another similarly situated
individual who was not in the protected class was treated more favorably than the plaintiff." Burks v. Wisconsin Dep 't of Transportation, 4(>4 F.td 744,
750-51 (7th Cir. 2006) (citation omitted). Once established, this prima facie case creates a presumption of discrimination, and the "burden then must
shift to the employer to articulate some legitimate, nondiscriminatory reason" for its employment decision. McDonnell Douglas, 411 U.S. at 802, 93 S.Ct.
1817. "When the employer does so, the burden shifts back to the plaintiff, who must present evidence that the stated reason is a 'pretext,' which in tum
permits an inference of unlawful discrimination." Coleman, 667 F.3d at 845, quoting McDonnell Douglas, 411 U.S. at 804,93 S.Ct. 1817.

f

B. Plaintiff's Presentation of Evidence
|

It is undisputed that McKinney is a member of a protected class and suffered

I
>
!i
j
|

an adverse employment action. To defeat summary judgment by the burden-shifting route, McKinney must also come forward with evidence that he
was meeting the Sheriff's legitimate employment expectations and that a similarly situated employee who is not in his protected class was treated more
favorably. McKinney presented substantial documentary and testimonial evidence to support his claim, but the district court seems to have disregarded
most of his evidence in favor of Sheriff Hodges' affidavit. We first sort out the evidence properly before the district court and then tum to the employer's
stated rationales for firing McKinney.

[866 F.3d 8081

'[

j
!
i

j
|
j

(

|
:
j
(?
f
I

!
j
j
f!
|
[
?
Ij
s
I
|
;
i

I
’

The employer's motion for summary judgment was typical of many such motions in employment discrimination cases. It offered plausible rationales
for the employer's action and challenged the plaintiff, who has the burden of persuasion on all or nearly all issues, to come forward with enough
evidence to reach a jury.
Plaintiff responded with three documents. Docket entry 30 in the district court docket was a 25-page legal memorandum in opposition to the motion,
Docket entry 31 was called Plaintiff's Statement of Genuine Disputes, and it had over 30 pages of detailed factual assertions with numerous citations to
supporting evidence. The third document was an evidentiary appendix to the legal memorandum, containing around 125 pages of the evidence cited in
the Statement of Genuine Disputes.
The district court disregarded most of McKinney's evidence, and that choice lies at the root of the erroneous grant of summary judgment. The court said
McKinney presented no direct evidence of racial discrimination because he "points in general to his Statement of Genuine Issues of Fact" but does "not
specify which facts would constitute such direct evidence." The court seemed to indicate that this rendered McKinney's filings noncompliant with the
Northern District of Indiana's Local Rule 56-1, but it did not explain further. Instead, the court noted that it need not "sift through the record to
determine whether there is sufficient evidence to support a party's claim" and it is the "advocate's job ... to make it easy for the court to rule in his
client's favor." 2016 WL 6680288, at *5 (citations and quotations omitted.)
The district court was entitled to seek specific guidance through the record, but McKinney provided it here. A party seeking or opposing summary
judgment must support his factual assertions about disputed facts with citations to "particular parts of the materials in the record," and the court need
consider only the cited materials (though it may consider other materials in the record). Fed. R. Civ. P. 56(c)(1) & (c)(3). A party opposing summary
judgment does not meet this obligation by simply dropping a stack of paper into the court file (literally or electronically) and asserting that someone
who reads the stack will find a genuine issue of material fact. Accordingly, we have routinely affirmed grants of summary judgment when non-moving
parties have failed to guide the court through their evidence. See, e.g., Sommerfield v. City of Chicago, 863 F.zd 64s. 650, Nos. 12-1506 & 13-1265, 2017
WL 2962243, at *3 (7th Cir. July 12, 2017) (affirming partial summary judgment: the judge "rightly declined to wade through the voluminous record to
find evidence on a counseled plaintiff's behalf"); Ammons v. Aramark Uniform Services, Inc., 368 F.ld 8oq. 817-18 (7th Cir. 2004) ("[W]here a non­
moving party denies a factual allegation by the party moving for summary judgment, that denial must include a specific reference to the affidavit or
other part of the record that supports such a denial. Citations to an entire transcript of a deposition
[866 F.3d 809]

or to a lengthy exhibit are not specific and are, accordingly, inappropriate."); see also Friend, 789 F.3d at 710-11; Davis v. Carter, 432 F.id 686. 692 (7th
Cir. 2006).
Like many district courts, the Northern District of Indiana has adopted local rules regarding the format of summary judgment filings aimed at avoiding
such failings and promoting sound decisions on the merits instead of procedural slipups. We review for abuse of discretion the district court's
enforcement of its local rules. Friend, 789 F.3d at 710.

j
|
s

In this case, the court's explanation of this important issue was terse, and its exact concerns about McKinney's filings are unclear. As best we can tell,
there was no valid ground for refusing to consider McKinney's evidence. Plaintiff's legal memorandum, statement of genuine issues of fact, and
supporting evidence provide what the district court said was missing: a detailed and organized guide to plaintiff's evidence supporting his assertions of
disputed facts and his legal arguments.

I
Sj

The district court asserted that McKinney failed to "specify which facts" support his claim, but in saying that, the court cited one of many pages on
which McKinney did include a citation to the specific, relevant facts: "McKinney in the Statement of Genuine Disputes has presented at length in
Dispute 9 what a reasonable trier of fact could determine includes direct evidence supporting racial discrimination." Dkt. No. 30 at 11. Turning to
"Dispute 9," the reader finds detailed factual assertions about arguably direct evidence of discrimination, supported by specific citations to supporting
evidence. Dkt. No. 31 at 18.

i

McKinney 126a

1

We see nothing in the Northern District's U
le 56-1 that plaintiff failed to satisfy, and the distric.
. and the employer have not identified such
a failing.1 The rule specifies the "Required Filings" for a party opposing summary judgment, which include a response brief and any materials that the
party claims raise a genuine dispute. In addition, the rule notes that the "response brief or its appendix must include a section labeled 'Statement of
Genuine Disputes1 that identifies the material facts that the party contends are genuinely disputed."
McKinney's brief opened by noting his two concurrent filings and how they complied with local rules: "This Brief in response, as Well as the Appendix,
are filed pursuant to Federal Rule of Civil Procedure 56 and N.D. Ind. L.R. 56-i(b). The Appendix, which is separately filed pursuant to (b)(2), includes a
section labeled 'Statement of Genuine Disputes' and contains the material facts that the Plaintiff contends are related to facts that are genuinely
disputed." Dkt. No. 30 at 1. In addition, the second page of McKinney's brief included citations to the "Statement of Genuine Disputes," listing where
each factual dispute was discussed in that filing. Id. at 2.
It is also unclear what action, if any, the district court took in response to the perceived deficiency of McKinney's filings. The court did not strike any
part of the filings, and it expressly considered portions
[866 F.3d 810]

of McKinney's testimonial evidence. However, it did not address most of McKinney's other evidence, which, to be frank, demolishes the employer's
shifting list of rationales. The court instead relied on the Sheriff's affidavit to determine that McKinney did not meet the Sheriff's legitimate
employment expectations. Because the court did not explain its apparent rejection of McKinney's evidence and we see no violation of Local Rule 56-1,
we must conclude that the court abused its discretion when it failed to consider fully McKinney's evidence.

C. The Employer’s Stated Rationales for Firing Plaintiff
The most striking features of this lawsuit are the sheer number of rationales the defense has offered for firing plaintiff and the quality and volume of
evidence plaintiff has collected to undermine the accuracy and even the honesty of those rationales. We review these matters in detail, for they are the
heart of the case.

1. The Sheriff's Original Reasons
When Sheriff Hodges fired McKinney, he gave three reasons. None holds water, at least for purposes of summary judgment.

a. Falsified Hours at the Indiana Law Enforcement Academy?
First, the Sheriff claims, McKinney falsified his hours while attending the Indiana Law Enforcement Academy. That Academy is in Plainfield, Indiana,
which is approximately 140 miles from the Sheriff's Department in Whitley County. McKinney began a fifteen-week course at the Academy in March
2014. The course entailed ten hours per day at the Academy (including breakfast and lunch) from Monday to Thursday. McKinney stayed overnight on
the Academy's campus and ate most meals in the Academy's cafeteria. McKinney's supposedly falsified hours are the hours he recorded for breakfast
and lunch to reach ten-hour work days.
McKinney presented ample evidence that he did not fail to meet legitimate employment expectations by falsifying hours and that this rationale was
false. The Sheriff has no written policy governing how to calculate compensable hours while attending the Academy. McKinney presented emails
showing (a) that he had asked both the Sheriff's administrative assistant and the Chief Deputy Sheriff how he should record his hours at the Academy,
and (b) that both confirmed he should record ten hours per day. McKinney also testified that he asked Sheriff Hodges himself about his hours at the
Academy, and the Sheriff said: "It's ten-hour days. Any time that you do outside of that ten hours, like you got night classes ... just blot down your
time." And the Sheriff later confirmed that McKinney was correctly documenting his hours, telling him "just keep doing what you're doing." Finally,
McKinney presented timesheets showing how other officers had calculated their time while attending the Academy. None of them clocked out for lunch.
They all just recorded ten-hour days. Based on this evidence, a jury could reasonably infer that Sheriff Hodges' first stated rationale for firing McKinney
was not just a misunderstanding but a pretext.

b. Missing Monthly Report?
Second, the Sheriff claimed McKinney did not meet legitimate employment expectations because he failed to comply with the standard operating
procedure that required him to submit complete monthly reports. As a preliminary matter, there simply is no standard operating procedure governing
monthly reports. McKinney testified to this effect, and the Sheriff appears to acknowledge this in an interrogatory response.
[866 F.3d 811]

The supposed infraction involved one missing monthly report, and that was for a month that McKinney spent entirely in training at the Academy.
McKinney testified that since the monthly report simply lists his law enforcement activities (e.g., number of traffic stops, arrests, etc.), he had no
reason to submit it while training at the Academy. Since he had already submitted his gas receipts, it would have amounted to "tum[ing] in a blank
document." McKinney testified that no one told him to submit a monthly report for his time at the Academy until four days before his termination. Once
he was told the report was needed, he submitted it within an hour. The defendant has not tried to refute McKinney's evidence on this point. It simply
states on appeal that he "did not turn in his monthly report as required by the Whitley County Sheriff's Department [standard operating procedures]."
Firing someone for violating a standard operating procedure that does not actually exist, or about which he was not told, could easily be found to be a
pretext.

c. Misusing Gasoline Credit Card?
McKinney - 127a

Third, tne snerirr ciaimea McKinney vio
,ie standard operatmg procedure tnat governs tuenn
:y vemcies. inis is so, tne sneritt said, Decause
McKinney used his official gasoline credit card to fuel his county-provided car while attending the Ac-emy in Plainfield instead of using the designated
county gas facility in Whitley County. In this instance, there was a standard operating procedure, but McKinney presented substantial evidence that he
did not actually violate it. He also presented evidence that he received express permission from his supervisors to use his credit card and that other
officers used their credit cards in the same way he had. This evidence would allow a jury to find that the Sheriff's rationale was both wrong and
dishonest.
The relevant part of the standard operating procedure reads: "Gasoline credit cards shall be ... Used only with a county commission ti e., vehicle] when
fueling at the county facility is not available; Used only for purchases of gas and oil without prior approval from the Sheriff or Chief Deputy." McKinney
presented evidence that the county facility in Whitley was "not available" when he was approximately 140 miles away at the Academy in Plainfield.
McKinney testified that several senior officers instructed him that he was required to keep his fuel tank at least half full in case of emergencies. Basic
math shows that his squad car could not make the round trip to and from Plainfield on one tank of gas, let alone half a tank, so he had to use his gas
credit card to fuel his vehicle when he was at the Academy. McKinney also testified that before leaving for the Academy the Chief Deputy Sheriff asked: "
[Y]ou got your gasoline credit cards? ... you're gonna need those." Finally, McKinney presented dozens of gas receipts from other officers that spanned
several years. They had also used their gas cards to fuel their county-owned vehicles while attending the Academy. Again, this evidence would easily
support an inference that the Sheriff's rationale for firing McKinney was not merely mistaken but dishonest.

2. The Commissioners' Rationales
Four days after the Sheriff issued the initial termination letter, the Whitley County Board of Commissioners added two new reasons for McKinney's
discharge. The County Board said that McKinney damaged a county vehicle and failed to complete a detainee transport. For summary judgment
purposes, these two rationales fare as poorly as the Sheriff's first three.
The vehicle damage, as explained by McKinney's testimony, was a slight ding to
[866 F.3d 812]

the side view mirror of his squad car. This damage occurred when he was responding quickly to an emergency message that an officer was in trouble.
After the emergency was resolved (fortunately it turned out to be a false alarm), McKinney reported the ding on his mirror, and he was told by a
detective that it was "No big deal." Nonetheless, the Sheriff testified that McKinney violated the standard operating procedure that requires officers to
report an accident from the scene where the accident occurred.
Once again, the Sheriff seems to have misconstrued his own standard operating procedures. The policy says in relevant part: "All such crashes shall be
investigated at the scene, as soon as possible, unless an emergency or other justifiable reason causes a delay." McKinney presented evidence that he was
responding to an emergency. The employer has not disputed his evidence. Based on this record, McKinney's conduct simply did not violate the standard
operating procedure. What's more, McKinney testified that another new officer who was white had an accident that tore off the front bumper of his
squad car. That officer did not receive a reprimand. Instead, other officers joked about the accident and gave him the wrecked bumper as a gag gift at a
Christmas party.
The Commissioners' second new rationale was McKinney's "Failure to complete a transport" and to follow certain unspecified instructions. McKinney
presented evidence that he completed the transport as ordered. He submitted the actual transport records that include the date, time, and location of the
completed transport, along with signatures by the approving officials. As for the "instructions," McKinney testified in detail, explaining how he
followed the exact instructions that he received. Again, considering the evidence in the light reasonably most favorable to McKinney, his evidence
refuting the charges is so specific that a jury could reasonably conclude that these added rationales for his firing were not only mistaken but dishonest.

3. Still More Rationales
After McKinney brought suit, the defense offered three more rationales for McKinney's termination: texting while driving; an accident in a vehicle; and
a late transport of a juvenile to court. The Sheriff's Office did not develop these rationales and mentions them only in passing on appeal. McKinney
offered evidence controverting or explaining these as well, just as with the first five rationales for his termination.
The Sheriff testified that another officer reported that she saw McKinney texting while driving. McKinney told the Sheriff that he was not texting, but
rather using his phone's GPS function. The Sheriff said "regardless, he admitted to using his phone while driving which is contrary to our [standard
operating procedures] and is extremely unsafe." Yet again, the Sheriff misreads his own standard operating procedures. The relevant provision says
only that cell phones may "not be used for texting while the vehicle is in motion," and it specifically permits some uses of cell phones: "Use of cellular
telephones while driving is permitted only when it can be done safely." McKinney presented evidence that he was not texting and that he was using his
phone in a way permitted by the relevant standard operating procedure.
The Sheriff's Office also asserts that McKinney had a second "chargeable accident" with a vehicle (the first was the ding to his side mirror), but does not
explain any further. In his deposition McKinney indicated this accident occurred while he was driving in a snowstorm and slid off the road into a
guardrail.
[866 F.3d 813]

The defense also now claims that McKinney was late transporting a juvenile to a court proceeding. Again, McKinney explained the incident in detailed
testimony. In short, he was told that two juveniles were at the same location when they were not, and as a result, the transport was about one minute
-later—------------------------------------------- ------------------------------------------------------------------------The Sheriff's Office failed to explain these rationales at all, and McKinney presented evidence to challenge or explain them. The fact that the defendant
did not offer any of these rationales at the time it fired McKinney also calls into question whether any of these reasons actually motivated the firing, so
these could easily be deemed pretexts, as well.

McKinney 128a

u. outttvtcut Lviuciiuc tv outwti

mutiny Juuguicni

Thus, McKinney offered substantial circumstantial evidence at summary judgment to support his claim of racial discrimination. The core question is
"simply whether [McKinney's] evidence would permit a reasonable factfinder to conclude that the plaintiff's race ... caused the discharge." Ortiz, 834
F-3d at 765. McKinney s evidence would easily support such a finding. He offered various forms of evidence — including testimony, interrogatory
answers, internal department documents, and more — to show that: officers and supervisors made inappropriate racial remarks to him; he was socially
ostracized; supervisors failed to train him adequately; he was fired for conduct that supervisors expressly authorized (e.g., recording ten-hour days at
the Academy, using his gas card, and more); he was treated more harshly than other employees for the same conduct (e.g., dinging his side mirror); he
was penalized for violating standard operating procedures that either did not exist or that he did not in fact violate (e.g., the monthly report, use of his
cell phone's GPS function); and more. In response, the Sheriff's Office has offered sparse evidence, relying almost exclusively on an affidavit from
Sheriff Hodges. After reviewing this evidence, a reasonable factfinder could conclude that McKinney was fired because of his race.
McKinney also offered sufficient evidence to satisfy the McDonnell Douglas burden-shifting framework. At the first stage of McDonnell Douglas, where
McKinney must establish a prima facie case, our inquiry is objective. We do not inquire into the subjective belief of the employer, such as whether the
employer made an honest mistake. The McDonnell Douglas division of labor reserves that consideration for the pretext analysis. E.g., Gilty v. Village of
Oak Park, 019 IT.2d 144.7.11251 (7th Cir. 1990) ("(T]he determination of whether a plaintiff is qualified1 requires an objective analysis. As such, an
employer's knowledge or lack of knowledge is of no relevance at the prima facie stage of the case."); see also Pilditch v. Board of Education of City of
Chicago, 3Ji3d J1J3,1117 (7th Cir. 1993) (at prima facie stage, relevant question is not whether employee satisfied employer's legitimate employment
expectations in the subjective sense but rather "whether the employee is able to put on objective evidence that he is sufficiently competent to satisfy
the legitimate expectations of an employer").
Here, McKinney presented evidence that rebuts defendant's claim that he did not meet legitimate employment expectations. He also presented evidence
that shows he was treated differently than similarly situated employees who were not in his protected class. Because it is also undisputed that McKinney
is a member of a protected class and suffered an adverse employment action, he has established a prima facie case of discrimination. See Burks, 464
F.3d at 750-51.
[666 F.3d 814]

The Sheriff s Office has satisfied the second step of McDonnell Douglas by articulating what would be legitimate, nondiscriminatory reasons for the
termination. See McDonnell Douglas, 411 U.S. at 802, 93 S.Ct. 1817. That shifted the burden to McKinney to offer evidence that the stated reasons were
pretexts. As we explained above, McKinney has presented ample evidence that the stated non-discriminatory reasons are pretextual. Evidence that the
employer has offered false reasons for its actions permits an inference of unlawful discrimination. See Coleman, 667 F.3d at 845, quoting McDonnell
Douglas, 411 U.S. at 804, 93 S.Ct 1817; Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. m. 147, 120 S.Ct. 2097, 147 (L.Ed.2d 105 2000) ("it is
permissible for the trier of fact to infer the ultimate fact of discrimination from the falsity of the employer's explanation").

E. Additional Issues
The foregoing warrants reversal, but we write further to note two additional legal errors in the summary judgment order. First, the court was wrong to
discount McKinney's testimony as "self-serving, speculative, and conclusory." Our cases for at least the past fifteen years teach that "Self-serving
affidavits can indeed be a legitimate method of introducing facts on summary judgment" Widmar v. Sun Chemical Corp., 772 F.3d457, 459-60 (7th Cir.
2014) (citations omitted). We have tried often to correct "the misconception that evidence presented in a 'self-serving' affidavit is never sufficient to
thwart a summary judgment motion." Payne v. Pauley, 337_E.3d.7jS7., 773 (7th Cir. 2003); see especially Hill v. Tangherlini, izl F.3d 065, 967 & n.l (7th
Cir. 2013) (overruling earlier cases indicating "self-serving" evidence could not be used to show genuine dispute of fact) ("Deposition testimony,
affidavits, responses to interrogatories, and other written statements by their nature are self-serving. As we have repeatedly emphasized over the past
decade, the term self-serving' must not be used to denigrate perfectly admissible evidence through which a party tries to present its side of the story at
summary judgment.") (citations omitted).
Second, the district court seems to have overestimated the strength of the "common actor" inference when it wrote that if the Sheriff had wanted to
discriminate against McKinney, he would have refused to hire him in the first place. As we have explained, the "common actor inference says it is
reasonable to assume that if a person was unbiased at Time A (when he decided to hire the plaintiff), he was also unbiased at Time B (when he fired the
plaintiff). Perez v. Thorntons, Inc., .733JL3dJ2.9H» 710 (7th Cir. 2013). The district court used this principle by relying on our decision in EEOC v. Our Lady
ofResurrection Medical Center, 77_E,3dX45,151- 52 (7th Cir. 1996). Our cases since then, however, have clarified that this inference is not a conclusive
presumption and that it should be considered by the ultimate trier of fact rather than on summary judgment or the pleadings. See, e.g., Perez, 731 F.3d at
709 ( The common actor or same actor' inference is a reasonable inference that may be argued to the jury, but it is not a conclusive presumption that
applies as a matter of law.... That inference is "something for the trier of fact to consider.'") (citations and quotations omitted); Hermreiter v. Chicago
Housing Authority, 315 F,3d 742, 747 (7th Cir. 2002) ("It is misleading to suggest (as some cases do) that [the common actor inference] creates a
presumption' of nondiscrimination, as that would imply that the employee must meet it or lose his case. It is just something for the trier of fact to
consider.") (citations omitted); Kadas v. MCISystemhouse Corp.,255LE.3d.35Q, 361
[866 F.3d 8151
(7th Cir. 2001) ("We emphatically rejected the "same-actor inference' in the race-discrimination setting in Johnson v. Zema Systems Corp 170 F.3d
.7.34., 745 (7th Cir. 1999) ■•")■
We have tried to impose limits on the common actor inference to ensure it does not outgrow its usefulness. The inference may be helpful in some
limited situations, which is why "we allow the jury to hear such evidence and weigh it for what it is worth." Perez, 731 F.3d at 710. There are many other
occasions, however, where it is unsound to infer the absence of discrimination simply because the same person both hired and fired the plaintiffemployee. Examples abound. The same supervisor may need to fill a position quickly, then later when the exigency subsides, fire the employee due to
unlawful bias. The same supervisor could both hire a woman and then refuse to promote her for discriminatory reasons. The same supervisor could both
hire a woman and later fire her because she became pregnant. Cf. Young v. United Parcel Service, Inc., 575 U.S.___ ,___ , 135 S.Ct. 1328, 1343, 191
L.Ed.2d 279 (2015) ("The Pregnancy Discrimination Act makes clear that Title VII's prohibition against sex discrimination applies to discrimination
based on pregnancy."). The list could go on, but only one more example is needed. The same supervisor could hire a county's first black police officer,
hoping there would be no racial friction in the workplace. But after it became clear that other officers would not fully accept their new black colleague'

McKinney -129a

j

tnat same supervisor coma lire tne DiacK - ~ -r Decause or ms race Dasea on a mistaKen notion or tr

i

j
j

For the foregoing reasons, we REVERSE l
VII claim consistent with this opinion.

'ater gooa " oi tne department. -1

'Strict court s grant of summary judgment, and we Rt.... .,iX) for further proceedings on McKinney's Title

FootNotes
. The Northern District's Local Rule 56-1 states in relevant part:
(b) Opposing Party's Obligations.
1

(1) Required Filings. A party opposing the motion must, within 28 days after the movant serves the motion, file and serve
(A) a response brief; and
(B) any materials that the party contends raise a genuine dispute.
nuine Disputes that

science on

Comment
Your Name

j

Your Email

Comments

Submit
1000 Characters Remaining
^

to

g0j orfo explain individual moderation decisions.

1

'i: J
i

V
1

,/V.\

r

•>

•‘M,;

.1

•r
r,t

•V

-r
J.

Hi

t-

;

>•

f?-

■i

h<i r-

■

.v
.'r'.v

■T-:

,t -'

:**.•{
't-

‘t

•r' «
.i

.Vfc

„ t
r.>.

•(

’j

'v

•r

<"• 'Hr

V

,

/

i-

ife’f

•A.:

<r

k

l

.i

r

r

APPENDIX 7

Receive free daily summaries of new opinions
from the Oregon Supreme Court.

Edwards v. Edwards
801 P.2d 782 (1990)
310 Or. 672
Laverne Watts EDWARDS, Petitioner On Review, v. Ernest Jackson EDWARDS,
Respondent On Review.
TC16-85-06382; CA A48610; SC S36265.
Supreme Court of Oregon, In Banc.
Argued and Submitted November 1,1989.
Decided November 26,1990.
*783 Ira L. Gottlieb, Portland, argued the cause for petitioner on review. With him on the
petition were Lawrence D. Gorin, Portland and Keller, Gottlieb & Gorin, Portland.
John G. Cox, Eugene, argued the cause for respondent on review.
Before PETERSON, C.J., and LINDE, CARSON, JONES, GILLETTE, VAN HOOMISSEN
and FADELEY, JJ.[*]
EADELEY,-JusticeT

Edwards - 131a

Plaintiff relies on service by certified mail, return receipt requested, addressed to an
individual defendant's Nevada post office box, to constitute sufficient service of summons
and complaint in an Oregon action. That mail was not delivered to defendant but was,
instead, returned to plaintiff by the postal authorities rubber-stamped "UNCLAIMED." The
Court of Appeals affirmed a circuit court judgment dismissing the complaint because of
insufficient service. Edwards v. Edwards, 96 Or. App. 623, 773 P.2d 809 (1989). We affirm.
Plaintiff filed her complaint pro se in August of 1985. [1] Plaintiff's testimony at an
evidentiaiy hearing, held to determine the sufficiency of the mailed service, disclosed that
she knew of the opportunity to serve defendant by personal service in California during
September of 1985. The trial court found that personal service could have been undertaken
in California but was not attempted. Instead, plaintiff mailed the summons and complaint
to defendant's Nevada post office box address on October 9,1985. After leaving notices to
pick up certified mail three times in October and on November 1,1985, the Nevada postal
officials, by rubber-stamped directions, returned the mail to plaintiff as sender. Plaintiff’s
hearing testimony also disclosed that she knew defendant travelled extensively, having
been in at least five states in the first nine months of 1985.
More than 30 days after the mailing to defendant's post office box, plaintiff delivered a
notice of default to the office of the lawyer who had represented defendant in the 1978
dissolution and in related, subsequent but completed appeals and proceedings therein.
Shortly thereafter, defendant challenged the sufficiency of service of the summons and
complaint in the August, 1985, action by a special appearance motion to dismiss under
ORCP 21 Afs) signed by that lawyer. [2]
*784 Following the hearing and briefing by the parties, the trial judge ruled as follows:
"Evidence presented at the hearing discloses that Petitioner had an opportunity to serve
Defendant at the parties' daughter's residence in Monrovia, California. This, Plaintiff
declined to do. Instead, her papers were mailed to a post office address in Minden, Nevada,
which was not determined to be the dwelling or abode of Defendant. Actual notice upon
Defendant is contended based upon his handwriting appearing upon rejected envelopes
other than the one mailed by Petitioner's affiant [i.e., other than the certified, return receipt
requested, mailing envelope sent to defendant's Nevada post office box]. Other, admittedly
inadequate, service was attempted by mailing copies of the papers to the Defendant's
attorney John Cox, Defendant's mother, and Defendant's daughter. These attempts are
described by Plaintiff as 'good faith efforts to provide actual notice of the proceeding.'
"Based upon the foregoing, I make the following findings and conclusions: "1. Actual
knowledge of the proceeding is insufficient absent adequate service. "2. Personal service
Edwards -132a

could have been undertaken at the parties' daughter's residence in California but was not
attempted. "3. Acts supporting substituted service are lacking. "4. Service by mail by itself
upon an individual is not prescribed and does not constitute adequate service. "5. Copies of
complaint and summons to Defendant's attorney, mother, and daughter do not cure the
inadequacy of service. "6. Rule 7G is not available to cure the defect. ORCP 7 (D)(6)(a)[[3]]
was not utilized to seek judicial determination of a method of service which under the
circumstances would have been reasonably calculated to apprise the Defendant of the
existence and pendency of the action. "It is my conclusion that, under all of the
circumstances, the mailing of the complaint and summons, by Plaintiff or Plaintiffs agent,
certified mail, return receipt requested, was not reasonably calculated to give Defendant
notice of the pendency of the action and the opportunity to appear and defend. Service is
found to be inadequate."!^] CONSTITUTIONAL STANDARD FOR SERVICE
What must court records show to establish adequate service of summons and complaint?
The short answer is compliance with ORCP 7 D. A more detailed answer follows, including
discussion of a number of ORCP subsections and the relative efficacy of several methods of
service on individuals.
*785 Those rules currently are embodied in ORCP 7 D, modified on some occasions and to
some extent by ORCP 7 E, 7 F, and 7 G.
Summons shall be served in any manner reasonably calculated, under all of the
circumstances, to apprise defendant of the court action and to afford a reasonable
opportunity to defend against plaintiffs invocation of the court's power. See ORCP 7 D(i).
[5] The required service of summons may be in a manner specified in ORCP 7 D or some
other rule or statute. ORCP 7 D(i). The rule refers to several discrete methods of service of
summons. One is "personal service * * * upon defendant or an agent of defendant * * * "
Another is service by mail. That latter method of serving a defendant is the one used in this
case. The nature of adequate service is further spelled out by categories of the defendants to
be served, including individual as opposed to corporate defendants, as follows:
"D.(3) Particular defendants. Service maybe made upon specified defendants as follows:
"D.(3)(a) Individuals. "D.(3)(a)(i) Generally. Upon an individual defendant, by personal
service upon such defendant or an agent authorized by appointment or law to receive
service of summons * * * »*
A specific rule for service on individual defendants provides that they may be served
their offices. ORCP 7 D(3)(a)(i). Also permissible is any other method of service which is
Edwards - 133a

most reasonably calculated to apprise the defendant of the action, provided that alternate
method has been authorized in advance by a court upon a showing by affidavit. ORCP 7
D(6)(a). Service by mail or publication may be permitted for any class of defendants
including individuals. ORCP 7 D(i).[6]
Where any service by any manner detailed in the preceding paragraph is accomplished, the
defendant is brought within the power of the court to decide the matter in dispute.
However, some manners or methods of service presumptively meet the "reasonably
calculated to apprise" standard. Others do not, and adequacy to meet that standard must be
supported case by case.
A. Presumptively Adequate Service
Personal or substituted service on an individual defendant at his or her dwelling or office is
presumptively adequate. The presumption of adequate service, which attaches to service on
an individual in a manner specified in ORCP 7 D(3)(a)(i) only, does not apply to mailed
service on an individual, because that subparagraph does not list mailed service. In this
case, no presumptively adequate method of service on an individual was used. Neither
personal service nor substituted service at defendant's dwelling or place of abode, or at his
office, was attempted. See ORCP 7 D(2)(c). Although service by mail on an *786 individual
is not presumed adequate, lack of that presumption does not foreclose a holding that
mailed service is adequate in light of individual circumstances, for example, where a trial
court orders that mode of service as the one most likely to achieve its function and
defendant receives the mail.
B. Other Service Adequacy
Because the general standard of service in any manner reasonably calculated, under all the
circumstances, to apprise the defendant of the existence and pendency of the action and to
afford a reasonable opportunity to appear and defend, ORCP 7 D(i) expressly permits
service by mail, that method may be used to serve individuals. [7] However, adequacy of
service by mail on an individual will be decided case by case because there is no
presumption of adequacy of that method of service on an individual.
In absence of a presumption, the burden is on plaintiff to show that, in the individual
circumstances, the manner of service employed was reasonably calculated to apprise the
defendant of the action and to afford a reasonable opportunity to defend. Stated another
way, when plaintiff decided to forego personal service on defendant in California, she
assigned herself the burden to show the adequacy of the alternate method which she chose.

Edwards - 134a

This court recently adopted a methodology to test adequacy of service under ORCP 7. Baker
v. Foy, 310 Or. 221, 228-29, 797 P-2d 349 (i990).[81 The methodology employs a series of
questions. 310 Or. at 229, 797 P.2d 349.
The first question was the method of service specifically permitted for use upon the
particular defendant by ORCP 7 D(3) is answered "No" in this case because the method of
service is not one specifically provided for by the rule governing service on individuals.
ORCP 7 D(3)(a). Therefore, the methodology adopted in Baker requires asking a second
question, which is:
"Question 2. Does the manner of service employed by plaintiff satisfy the 'reasonable
notice’ standard of adequate service set forth in ORCP 7 D(i)?" 310 Or. at 229.
That question is also answered "No" in this case. Service by mail, to be adequate, cannot be
based upon a mailing returned by the post office and marked by it "UNCLAIMED." No
Oregon case upholds service of summons by mail as adequate unless receipt is
acknowledged by defendant. It must be sent "return receipt requested," as ORCP 7 D(2)(d)
expressly requires. See also ORS 174.160 (allowing for "any mailing method that provides
for a return receipt"). However, ORCP 7 D(2)(d) only prescribes the method of mailing to
be used when a mailed service is attempted; it does not itself describe circumstances under
which mailed service may be adequate service. In Lake Oswego Review v. Steinkamp, 298
Or. 607, 695 P.2d 565 (1985), defendant signed a receipt for a deliver-to-addressee-only
certified mail, return receipt requested, envelope. Analogous federal mailed-service rules
require acknowledgement of receipt for validity. Merrill, Jurisdiction and Summons in
Oregon 203, note 153 to § 2.11 (1986).
The Oregon Council on Court Procedures did not adopt the federal rules permitting service
by mail generally, if an acknowledgement of receipt is obtained. As Merrill observes, id. at
156,
*787 "While other jurisdictions, including the federal courts, allow some type of service of
summons by mail for individual defendants, the Council [on Court Procedures] decided
that mail was not sufficiently reliable to be specified as a general service method for all
circumstances." (Footnotes omitted.)
Choice of a less likely method of service, by mailing to a post office box held by a frequent
sojourner in other states, does not seem reasonably calculated to apprise that sojourner,
.especially-jiot^where a plaintiff decides against the more likely method of personal service
upon him at a place and time that plaintiff knows defendant will be there.

Edwards - 135a

Assuming, as plaintiff argues, that defendant declined to accept the certified-mail envelope
(which the record does not demonstrate) and two regular-mail envelopes forwarded by his
relatives, the things he declined to accept were three envelopes bearing his former wife's
return address. There is no indication that the envelopes contained summons and
complaint. The exterior of the envelopes do not communicate any notice that an action
exists or is pending. Plaintiff concedes that the regular mail, sent to defendant via his
relatives, is not sufficient service but argues that she hoped to provide a chance of actual
notice thereby. However, the unopened regular-mail envelopes in the record, described in
the appendix, disclose that plaintiffs return address is typed on their upper left corners and
that they were returned to that address. Perhaps they prove that defendant knew his former
wife was trying to communicate with him and that he was not interested. They do not prove
that defendant knew he was being haled into an Oregon court.
Even if the contents of those envelopes had been disclosed to the defendant by being
brought forth in his presence, the rule of Lake Oswego Review v. Steinkamp, supra that
service by mail which does not comply with the service-by-mail rule, but which is more
likely to be received by the defendant than mailing under the rule, and which is delivered to
and accepted by the defendant, is adequate service also brings plaintiff no comfort. First,
the mail was not delivered to and signed for by defendant, as in Steinkamp. Second,
Steinkamp excuses the defect in service by mail by reference to the second sentence of
ORCP 7 G, which requires a court to disregard any error in service of summons that does
not materially prejudice the substantive rights of the party served. The Steinkamp court
found no material prejudice, because Mr. Steinkamp actually and personally received and
signed for the envelope containing summons and complaint. The court observed that the
certified mail used there was more likely to result in adequate notice to defendant than
ORCP 7 F(2)(d) requires, because it was sent restricted to delivery to addressee only.
Service by an authorized, but not presumptive, method was accomplished. 298 Or. at 614,
695 P.2d 565. As Steinkamp makes clear, adequate service is, itself, a prerequisite to
disregarding errors in content or service of a summons under the authority of the second
sentence of ORCP 7 G. Id. 298 Or. at 614 n. 2, 695 P.2d 565.
Plaintiff also argues that defendant must have had actual notice because of the fact that he
made a special appearance. Of course, accepting this argument would make ORCP 21 A(s),
providing for a motion to dismiss for "insufficiency of service of summons," a dead letter.
That aside, the argument proves too much. It would erase the rules stating what is required
for adequate service and replace them with a new standard of actual notice, the effect of
which would be to require an evidentiary hearing in each case to determine whether the

idwards - 136a

court had jurisdiction of the parties claimed to be on actual notice. See Merrill, supra, at
140, § 2.01.

Plaintiffs delivery on November 22,1985, of a notice of default in the newly instituted case
to defendant's lawyer in a prior, separate legal proceeding may have prompted that lawyer
to overturn many stones in search of defendant, enlisting the aid of many people. Thus, the
special appearance does not prove that the legally inadequate earlier attempt to serve
defendant *788 by leaving summons and complaint at a lawyer’s office actually achieved
notice. But assuming that in some word-of-mouth fashion defendant received actual notice
that plaintiff had instituted a new action against him in Lane County, Oregon, the method
employed of leaving a summons in a new case at the office of a lawyer employed by
defendant on other matters does not rise to the required level that it be reasonably
calculated to apprise defendant of the pendency of that new action. The fact of actual notice
would not excuse use of an unauthorized method of attempting service, although it could
excuse lesser defects in the form or issuance of summons under ORCP 7 G (first sentence).
Adequate service is required by ORCP 7 D, not just word-of-mouth notice. Otherwise, a
plaintiff could ring a defendant on the telephone, tell him about the action, avoid the
requirements of ORCP 7 D that service of summons and complaint be made, and deprive a
court asked to enter a default of any records showing whether the defendant had been
apprised of the action except a plaintiffs word on it.
Furthermore, in this case, the hearing evidence concerning plaintiffs testimony of her
knowledge of defendant's whereabouts does not support the assumption that defendant
received actual notice by plaintiffs efforts to serve summons by mail. After the complaint
was filed in August, 1985, plaintiff knew that, in September of 1985, defendant was in
California, not Nevada. The certified mailing to Nevada was made on October 9,1985. The
envelope, mailed October 16,1985, to defendant's mother and forwarded by her to Nevada,
raises an inference that defendant was in Nevada on or near November 5,1985, when it was
returned to sender. Between October 9 and November 5,1985, the letter sent by certified
mail, return receipt requested, was returned from the Nevada post office box to Oregon.
When plaintiff gave notice of default on November 22,1985, she knew that defendant had
not received the certified mail and had not accepted or opened the regular-mail envelopes
forwarded by his relatives, containing summons copies for the new action.
Recognizing, perhaps, the inadequacy of the service method that she used, plaintiff argues
not
reasonably calculated to be accomplished, in cases where a defendant is attempting to

Edwards - 137a

avoid service of process. She does not point to anything in the service of process rules or
decided cases as a basis for support of that argument. No fact was found by the trial judge
that defendant attempted to avoid service. The trial judge found as fact that "[plersonal
service could have been undertaken * * * but was not attempted." Plaintiff chose not to use
personal service on defendant at that time.
The form of service chosen, in its notice aspect, must be substantially no less likely to bring
home notice than other of the feasible and customary substitutes. Mullane v. Central
Hanover Bank & Trust Co., 339 U.S. 306,315,70 S. Ct. 652, 657, 94 L. Ed. at 865, 874
(1950) (requiring "method * * * in itself reasonably certain to inform those affected" to
satisfy due process).
There is no basis in the record or in any authority pointed out to us for answering the
second question of the Baker v. Foy methodology in the affirmative. Because the answer is
"No," the service attempted was inadequate.
The decision of the Court of Appeals is affirmed, The judgment of the circuit court is
affirmed.
APPENDIX
Examination of the court record concerning the certified mailing reveals:
An unopened envelope mailed by certified mail with return receipt requested, addressed to
defendant at the Nevada post office box. It bears the rubber-stamped legend
"UNCLAIMED." Attached to the envelope is an unsigned, green, certified-mail returnreceipt post card. Also affixed to the envelope are two postal department forms reciting that
notices to pick up certified *789 mail were placed in the post office box on three different
dates in October and on November 1,1985. A rubber-stamped imprint in the shape of a
hand, with index finger extended and the words "Return to Sender," points to plaintiffs
return address in Eugene, Oregon, which is typed on the upper-left corner of the unopened
envelope.
An appropriate affidavit confirms that certified true copies of the summons and the
complaint were placed in the unopened envelope, and that it was mailed on October 9,
1985. Although the affidavit does not say certified mail was used, the envelope shows that it
was, as hearing testimony confirms. The attached, unsigned postal card, intended as a
record of receipt, shows that the postal system was requested to "show to whom, date and
address of delivery."

Edwards - 138a

In an effort, as plaintiff claims, to give actual notice to defendant, other mailings were
made. The record discloses:
(1) A second unopened envelope sent by regular mail addressed to defendant "c/o Mrs. E.J.
Edwards" at a Creswell, Oregon, address. The Creswell addressee, defendant's mother,
crossed off her Oregon address, leaving the defendant's name, and wrote in the Nevada
post office box address. This envelope bears the imprint of a postal department rubber
stamp, showing that the mother remailed the envelope on October 18,1985. In defendant's
handwriting, the words "Return to Sender" appear above the original address. An arrow is
drawn from those words to the typed return address of plaintiff in the upper-left corner.
This letter was mailed from Eugene to defendant in care of his mother on October 16,1985.
On the envelope appears the date "November 5,1985," and "Reno. NV 895," as rubberstamped.
(2) A third unopened envelope is addressed to defendant "c/o Mrs. Douglas T. Wile," the
daughter of plaintiff and defendant, at the daughter's California address. The address is
lined through. Above it, in defendant's hand, is written "Return to Sender" with an arrow
pointing to the return address of plaintiff. This envelope was first mailed from Eugene
October 16,1985, according to an affidavit.
(3) Copies of summons and complaint were also mailed to and personally delivered to the
lawyer who represented the defendant in the 1978 dissolution and subsequent modification
proceedings therein.
NOTES
[*] Linde, J., retired January 31,1990; Jones, J., resigned April 30,1990.
[1] The parties' marriage was previously and finally dissolved in Lane County, Oregon in
1978. The decree did not mention a future expectancy of a military retirement pension to be
based on defendant's military career during the marriage. However, spousal support was
ordered. By subsequent modification, based on occurrence of a condition that, under the
parties’ agreement, could terminate spousal support, that support was terminated before
plaintiff commenced this action. See Edwards and Edwards, 73 Or. App. 272, 698 P.2d 542
(1985). After the agreement, confirmed in the final decree, monthly pension distribution
commenced, payable solely to defendant. After the federal law changed, plaintiff filed an
original complaint to institute a new case seeking "partition" of the pension and attempted
the service by mail which is at issue.

Edwards - 139a

[2] Plaintiff did not contend in the trial court that delivery of documents to that lawyer,
who previously represented defendant in the completed dissolution, was adequate service.
Only the certified mail sent to Nevada was argued to constitute service. Likewise, she did
not contend that defendant's use of his mother’s Oregon address for driver license, travel
trailer, and other vehicle licenses or his ownership of Oregon real property, with tax
statements sent to his mother’s address, made his mother's address acceptable for service
by mail purposes. No certified mail was sent there.
Plaintiff did not contend in the trial court, or in her assignment of error in the Court of
Appeals, that regular mail sent to defendant in care of his mother in Oregon or his daughter
in California constituted adequate service; rather, she relied upon the certified mail sent to
Nevada. However, the Court of Appeals discussed the effect of the regular mail sent via
defendant's relatives and to the lawyer who represented him in the prior dissolution case.
Plaintiff argues to this court that the combination of those methods of attempting actual
notice makes the certified mail, returned unclaimed, adequate service as "reasonably
calculated, under all the circumstances, to apprise the defendant of the existence and
pendency of the action and to afford a reasonable opportunity to appear and defend." She
argues that the methods attempted, each in itself insufficient, make the undelivered
certified mail adequate service. The appendix to this opinion discloses details of the regular
mail efforts.
[3] That rule in part provides:
"On motion upon a showing by affidavit that service cannot be made by any method
otherwise specified in these rules or other rule or statute, the court, at its discretion, may
order service by any method or combination of methods which under the circumstances is
most reasonably calculated to apprise the defendant of the existence and pendency of the
action, including but not limited to: publication of summons; mailing without publication
to a specified post office address of defendant, return receipt requested, deliver to
addressee only; or posting at specified locations. If service is ordered by any manner other
than publication, the court may order a time for response." (Emphasis added.)
[4] Letter ruling from Lane County Circuit Court Judge Pierre Van Rysselberghe to lawyers
for plaintiff and defendant dated March 18,1988.
[5] ORCP 7 D(i) states:
"Summons shall be served, either within or without this state, in any manner reasonably
calculated, under all the circumstances, to apprise the defendant of the existence and

Edwards - 140a

pendency of the action and to afford a reasonable opportunity to appear and defend.
Summons may be served in a manner specified in this rule or by any other rule or statute
on the defendant or upon an agent authorized by appointment or law to accept service of
summons for the defendant. Service may be made, subject to the restrictions and
requirements of this rule, by the following methods: personal service of summons upon
defendant or an agent of defendant authorized to receive process; * * * service by mail; or,
service by publication."
[6] There are additional rules specific to service in situations described in those rules. See,
e.g., ORCP 7 D(4)(a)(i) for service in some vehicle accident cases. If substitute service is the
question, proof that an Oregon address was used to obtain a driver license or a vehicle title
certificate does not necessarily prove a place of abode required for substitute service. See
Thoenes v. Tatro, 270 Or. 775, 788, 529 P.2d 912 (1974) (college student in Colorado used
parents' address for driver license and vehicle registration but usual place of abode was his
apartment in Colorado for purposes of service of summons). Indeed, in Baker v. Foy, 310
Or. 221, 797 P.2d 349 (1990), this court affirmed a trial court's judgment dismissing a
complaint for inadequacy of substitute service at a defendant's address shown on those
records. The trial court in Baker found as fact that defendant did not reside at the address
he provided.
[7] Of course, the requirements for service by mail provided in ORCP 7 D(2)(d) certified,
return receipt required must be followed.
[8] That case holds inadequate an attempted substituted service on defendant's mother
which included certified mail addressed to defendant at mother's address, as ORCP 7 D(2)
(b) requires, even though defendant gave that address as his at the scene of the automobile
accident which gave rise to the plaintiff’s complaint, the vehicle which defendant, a
teenager, was driving was titled to his mother there, and defendant's driver license listed
that address as his residence. The fact that defendant did not live there meant he was not
served at his usual place of abode and, therefore, the requirement for presumptive
adequacy of the service was not met because the provisions of ORCP 7 governing substitute
service were not satisfied, even though defendant admitted actual notice of the summons
and complaint.

-Edwards-=44 la.

APPENDIX!^
Seventh Circuit Review

Volume 13

Fall 2017

OUTGROWING ITS USEFULNESS: SEVENTH
CIRCUIT LIMITS THE APPLICATION OF THE
COMMON ACTOR INFERENCE IN TITLE VII
DISCRIMINATION CASES
Michael G. Zolfo*

t

Cite as: Michael G. Zolfo, Outgrowing Its Usefulness: Seventh Circuit Limits the
Application of the Common Actor Inference in Title VII Discrimination Cases, 13
Seventh Circuit Rev. 352 (2017), at https://www.kentlaw.iit.edu/sites/ck/
files/public/academics/jd/7cr/vl3/zolfo.pdf.
!

Introduction
Can a person harbor discriminatory views toward protected
minority groups, yet still hire a member of that minority group as an
employee? That is the question at the heart of the common actor
inference in Title VII employment discrimination jurisprudence. The
common actor inference holds if the same supervisor hires an
employee from a protected minority group, and then fires that
employee a short period of time later, there is a strong inference that
discrimination did not factor in the employment decision.1 Because the
burden for proving Title VII discrimination on the basis of race, color,
religion, sex, or national origin lies with the plaintiff, the common
actor inference is a tool employer-defendants can use to defeat Title
VII discrimination claims. However, in the Seventh Circuit’s recent
decision in McKinney v. Sheriff of Whitley County, the court not only
critiqued the district court’s reliance on the common actor inference,
* J.D. candidate, May 2018, Chicago-Kent College of Law, Illinois Institute of
Technology.
l
Perez v. Thornton’s, Inc., 731 F.3d 699, 710 (7th Cir. 2013).

157
7th Circuit - 142a

Seventh Circuit Review

Volume 13

• 1

' '' Rail 2017

where there are'genuine issues /of material ,fact:7oThe-Seventh-Gircuit 1
has adopted-.the most harrow application of the commomactor
;
10
inference, ., holding that the‘inference should;onlyrbe:considered byjhe
ultimate trier of fact and should notibe applied in motions to dismiss or
motionsifor summary judgment:8 The.Eleventh Circuit has'takemaV ■
similar approachto the-Seventh;Circuit.? r Y'Pii?-.v'„ no o)
r*
Section I of this comment wilTdiscuss the background that TI-1:.'
preceded the:passage 6fiTitle >VII, employees-’ protections.under Title
VII,-and how a plaintiff brings-a Title VII discrimination .suit: Section
II wilhdiseuss the background McKinneyivyOffice.ofSheriff of
If7uY/ey;Go««ri,i?and how'the.Seyenth Circuit reached its decision to‘
limit the application of the common actor inference: Section III will
explain why, the Seventh Circuit madevtheiright decisiomand will;
argue that other circuits should adopt -the .Seventh Circuit ’s approach.
i
i
' j < -I •1
I
* * tr J
I.
"Title VII History/andiDevelopment, 1
J >
.i
c' uail: *<i uu<c< .’jh : njo’j 'on.**b
J.f 1
A. Title VIIProtects Members of'ProtectediGlassesfromr ■
. EmploymentDiscriminatiomni - 0'r,L ,?Oj j ru ~ *
or o ^ -uP .rri'M'i'nu R - <l
?!.' r<l .om/: linx )
; ;Federal-protections against employment discriminatioh, known as
the Title VII protections, emerge.fformthe.Civil Rights Act of 1964.10
The Civil.Rights Act wasdandmark legislation that-emerged rafter a, M
long, often bloody struggle to achieve equalirights*for minorities in the
’ •

i

> .1

t ’

f.

j *

°

M'

r' \

J..

’

*• J / '

*;/ >.

'\

Seey^g., Brown yv©SC Logic Inc,, 82 F.3d 651, 658 (5th Cir, 1996); Wexler
v. White’s Fine Furniture, Inc., 317 F.3d 564, 573 (6th©iri 2003); Kells v. Sinclair
Buick-GMC Truck, Inc., 210 F.-3d 827,i835 (SthfGir.^.OOOjlabrpgated[ on qthef
grounds by Torgerson v. City of Rochester, 643 FJd f031 (8th Cir, 20,11 j),
8 McKinney ,v. Office of Sheriff of Whitley Cnty., 866 F. 3d 803, 814-15 (7th
i >
Cir. 2017).,
;,r
.
‘ ",
.? WHliams v. Vitro Serv. Cqrp.', 144 F.3d.,1438, 1443,(1-1 thCir. 1998). _
■i
■ 10 Civil Rights Act of 1964, Pub. L. No. 88-352,-78 jStat. 241{(1964) (codified .
as amended at 42 U.S.C. § 2000a et seq.).

3‘54

7th Circuit - 144a

Seventh Circuit Review

Volume 13

Fall 2017

United States.11 The 1963 Civil Rights March in Birmingham,
Alabama, and the horrifically violent response that accompanied it, is
often credited with finally spurring Congress to act to protect certain
employees from discrimination based on race, color, sex, religion, or
national origin.12 Despite fierce debate in Congress, the Act was
politically popular enough to pass by well over 100 votes in the House
of Representatives and with over two-thirds of the members in the
U.S. Senate, enough to defeat a filibuster.13
Title VII of the Civil Rights Act specifically prohibits
“employers,” as defined by the Act,14 “to fail or refuse to hire or to
discharge any individual, or otherwise to discriminate against any
individual with respect to his compensation, terms, conditions, or
privileges of employment, because of such individual’s race, color,
religion, sex, or national origin.”15 The Act also states an employer
cannot “limit, segregate, or classify his employees or applicants for
employment in any way which would deprive or tend to deprive any
individual of employment opportunities or otherwise adversely affect
his status as an employee, because of such individual’s race, color,
religion, sex, or national origin.”16
Title VII protects employees before and during their relationship
with the employer.17 Before the employment relationship officially
exists, employers may not advertise for a position by indicating they
11 Emmanuel O. Iheukwumere & Philip C. Aka, Title VII, Affirmative Action,
and the March Toward Color-Blind Jurisprudence, 11 TEMP. POL. & Civ. RTS. L.
Rev. 1,21 (2001).
12 Mat 21-22.
13 Id. at 22.
14 With some exception, Title VII defines an employer as “a person engaged in
an industry affecting commerce who has fifteen or more employees for each working
day in each of twenty or more calendar weeks in the current or preceding calendar
year, and any agent of such a person.” 42 U.S.C. § 2000e(b) (2012).
15 42 U.S.C. § 2000e-2.
l6Id.
17 D. Wendy Greene, Categorically Black, White, or Wrong: ‘‘Misperception
Discrimination ” and the State of Title VII Protection, 47 U. MICH. J.L. REFORM 87,
95-96 (2013).

-3-55'

7th Circuit - 145a

Seventh Circuit Review

Volume 13

Fall 2017

prefer to hire employers of a certain class, or that the employer will
not hire a member of a protected class.18 Second, employers cannot
refuse to hire employees for a job because of their status as a member
of a protected class.19 Third, employers may not institute employment
tests or training programs that are designed to discriminate against a
protected class of employees or potential employees.20 Title VII
therefore provides remedies to any person who faces employment
discrimination before the employer-employee relationship begins.21
Title VII also protects employees once their official relationship
with an employer begins. An employer is prohibited from firing an
employee solely because of their race, color, religion, sex, or national
origin.22 Employers cannot refuse to assign an employee to certain
duties solely because of their membership in a protected class.23
Employers cannot unfairly segregate or classify their employees at
work because of the employee’s membership in a protected class.24
Employers also cannot promote or refuse to promote an employee
based on their, race, color, sex, religion, or national origin.23
Title VII protects employees who oppose unlawful employment
practices or file a complaint against their employer for discriminatory
practices.26 This includes protections that allow employees to
participate in investigations of their employer for discriminatory
employment practices.27 Title VII prohibits an employer from
retaliating “against any of his employees or applicants for employment
... because he has opposed any practice made an unlawful
18

42 U.S.C § 2000e-3(b) (“class” as used in this sentence means race, color,
sex, religion, or national origin).
Greene, supra note 17, at 95.
20 42 U.S.C. §§ 2000e-2(d); 2000e-2(h).
21 42 U.S.C. § 2000e-5.
22 42 U.S.C. § 2000e-2(a).
23 Id.
24

Greene, supra note 17, at 94
25 42 U.S.C. § 2000e-2.
26

Greene, supra note 17, at 95.
21 Id.

356

7th Circuit - 146a

Seventh Circuit Review

Volume 13

Fall 2017

employment practice by this subchapter, or because he has made a
charge, testified, assisted, or participated in any maimer in an
investigation, proceeding, or hearing under this subchapter. ?>28
Title VII goes beyond merely providing employees with
protection from employment discrimination. It also provides
employees with enforcement provisions and remedies for any
discrimination they may face. Title VII created the Equal
Employment Opportunity Commission (EEOC) which has the power
to investigate, study, intervene, and assist employees who believe they
have been victims of prohibited discrimination by their employer or
potential employer.29 The EEOC is designed to work with state and
local employment enforcement agencies to ensure all claims are
investigated thoroughly.30 The EEOC serves as an enforcement,
investigatory, and regulatory body.31
Title VII also specifically allows the Attorney General to bring an
action against employers for discriminatory employment practices in
United States District Courts.32 Notably, Title VII also contains a feeshifting provision that awards a prevailing plaintiff attorney fees if he
or she can prove employment discrimination under § 2000e-2(m).33
Awards of attorney fees are not the norm in U.S. civil cases, and

28 42 U.S.C. § 2000e-3(a).
29 42 U.S.C. § 2000e-4.
10

42 U.S.C. § 2000e-5 (“[i]n the case of any charge filed by a member of the
Commission alleging an unlawful employment practice occurring in a State or
political subdivision of a State which has a State or local law prohibiting the practice
alleged and establishing or authorizing a State or local authority to grant or seek
relief from such practice or to institute criminal proceedings with respect thereto
upon receiving notice thereof, the Commission shall, before taking any action with
respect to such charge, notify the appropriate State or local officials.”)
31 Id.
32 42 U.S.C. §'2000e-6.
33

42 U.S.C. 2000-e-5(k) (“[i]n any action or proceeding under this subchapter
the court, in its discretion, may allow the prevailing party, other than the
Commission or the United States, a reasonable attorney's fee (including expert fees)
as part of the costs, and the Commission and the United States shall be liable for
costs the same as a private person.”); 42 U.S.C. § 2000e-2(m).

337

7th Circuit - 147a

Seventh Circuit Review

Volume 13

Fall 2017

special fee provisions in legislation are a sign that Congress wished to
encourage private lawyers to bring a certain type of litigation.34
B. Bringing a Title VII Claim as a Plaintiff
Based on the preceding section, it would be easy to conclude that
Title VII’s employment protections make it easy for a plaintiff to
prevail on an employment discrimination claim. Title VII defines
forbidden acts employers may not engage in, creates an investigative
and enforcement agency to examine Title VII claims, and provides
incentives to pursue Title VII actions. However, Title VII’s broad
provisions and years ofjudicial interpretation have made it very
difficult for a plaintiff to prevail on a Title VII claim.
Title VII was never intended to protect an employee from being
discharged or passed over for any reason other than prohibited
discrimination. Title VII does not protect an employee from being
discharged for poor performance, inappropriate work activity, poor
judgment, or disputes with management.35 Title VIPs protections are
thus limited only to cases where the plaintiffs can prove they suffered
an adverse employment action because of their race, religion, color,
sex, or national origin. A Title VII discrimination case over unlawful
termination is thus decided on the limited scope of whether “the
evidence would permit a reasonable factfinder to conclude that the
plaintiff’s race [religion, color, sex or national origin] ... caused the
discharge.”36
A plaintiff may prove race discrimination by either direct or
indirect proof, relying on direct or circumstantial evidence.37 Because
direct proof of discrimination is usually present in only the most
blatant cases, most Title VII cases require indirect proof of
34

Jeffrey A. Blevins and Gregory J. Schroedter, The Civil Rights Act of 1991:
Congress Revamps Employment Discrimination Law and Policy, 80 ILL. BJ. 336,
336(1992).
35 Hill v. St. Louis University, 123 F.3d 1114, 1120 (8th Cir. 1997).
36 Ortiz v. Werner Enter. Inc., 834 F.3d 760, 765 (7th Cir. 2016).
37 Coleman v. Donahue, 667 F.3d 835, 845 (7th Cir. 2012).

358

7th Circuit - 148a

Seventh Circuit Review

Volume 13

Fall 2017

discrimination.38 In order to “sharpen the inquiry into the elusive
factual question of intentional discrimination” the United States
Supreme Court and the Seventh Circuit have developed a distinct
framework demonstrating what a plaintiff needs to prove to prevail on
a Title VII discrimination claim. The United States Supreme Court
established a framework, for plaintiffs who are bringing indirect proof
of discrimination, in McDonnell Douglas Corp. v. Green.40
IQ

C. The McDonnell Douglas Framework
In McDonnell Douglas, the plaintiff, an African-American man,
was laid off as part of general workforce reduction by the McDonnell
Douglas Corporation.41 The plaintiff and other workers protested these
firings as racially motivated and staged protests at the McDonnell
Douglas job site.42 After the protests ended, plaintiff noticed
McDonnell Douglas was advertising for open positions, including the
position the plaintiff used to hold.43 McDonnell Douglas declined to
rehire the plaintiff, citing his participation in the protest activities, and
the plaintiff filed a complaint with the EEOC.44 The EEOC found
some cause that McDonnell Douglas had violated Title VII by refusing
to rehire the plaintiff, and the plaintiff then brought an action in the
district court.45 The district court dismissed the plaintiff’s claims,
stating that McDonnell Douglas’s “refusal to rehire respondent was
based solely on his participation in the illegal demonstrations and not
on his legitimate civil rights activities” or his race or color. 46

38 Id.
39 Texas Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248, 255 n. 8 (1981).
40 McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973).
41 Id. at 794.
42 Mat 795.
43 Id. at 796.
44 Id.
45 Id. at 797.
46
Id.

33V

7th Circuit - 149a

Seventh Circuit Review

Volume 13

Fall 2017

Plaintiff appealed the district court’s decision to the Eight Circuit
Court of Appeals.47 The Eight Circuit upheld some of the district
court’s decision, but reversed the district court’s decision to dismiss
the plaintiff’s complaint for discriminatory hiring practices against
McDonnell Douglas.48 In explaining its decision to remand, the Eight
Circuit attempted to create a framework for examining Title VII
employment discrimination claims.49 The Eight Circuit stated that
when the district court considered the evidence offered by the plaintiff
and McDonnell Douglas, the district court relied on subjective criteria
which carried little weight in rebutting charges of discrimination.50
The court explained that the plaintiff should be given the opportunity
to demonstrate that McDonnell Douglas’s reasons for refusing to
rehire him were mere pretext for discriminatory purposes.51 The
Supreme Court granted certiorari to better clarify the Eight Circuit’s
standards for evaluating a plaintiff’s Title VII employment
discrimination claim.52
The Supreme Court created a four-element test for a plaintiff to
establish a prima facie case of Title VII prohibited discrimination. The
Supreme Court held that for a plaintiff to establish a prima facie case
of racial discrimination in his hiring, the plaintiff must demonstrate: 1)
he is a member of a racial minority; 2) he applied and was qualified
for a position for which the employer was seeking applicants; 3)
despite his qualifications for the position, he was rejected; and 4) after
his rejection, the position remained open and the employer continued
to seek applications from persons of plaintiff's qualifications.53 The
47 Id.
48
Id. at 798.

49 m
50 Id.
51 Id.
52 Id.
53

Id. at 802. The McDonnell-Douglas framework is now used for any Title VII
claim where discrimination is alleged, including race, religion, color, sex, or national
origin. See Tristin K. Green, Making Sense of the McDonnell Douglas Framework:
Circumstantial Evidence and ProofofDisparate Treatment Under Title VII, 87
Calif. L. R. 983,985 (1999).

360

7th Circuit - 15Qa

Seventh Circuit Review

Volume 13

Fall 2017

Supreme Court agreed with the Eight Circuit that the plaintiff did
demonstrate a prima facie case of race discrimination.54
After the plaintiff demonstrates a prima facie case, the burden
shifts to the defendant to articulate a legitimate, nondiscriminatory
reason for not hiring the plaintiff.55 The Supreme Court stated it is not
necessary for an employer to delineate every legitimate reason why an
employer chose to fire or not hire an employee, but makes clear that
any legitimate, nondiscriminatory reason for the employment decision
relieves the employer from this burden.56 The inquiry does not end if
the employer demonstrates a legitimate, nondiscriminatory reason for
the hiring decision. The burden then shifts back to the plaintiff to
demonstrate through evidence that the employer’s stated legitimate,
nondiscriminatory reason for its hiring decision is mere “pretext” to
hide or overshadow a discriminatory reason.57 The Supreme Court
then remanded the case to the district court with the instructions that
the plaintiff’s case should be evaluated with the tests stated in this
decision, in what came to be known as the McDonnell Douglas
burden-shifting framework.58
McDonnell Douglas is an example of the Supreme Court creating
a test that the district courts and circuit courts can follow when
interpreting and applying legislation from Congress. It also
demonstrated the burdens a plaintiff carries in proving a Title VII
discrimination case. The plaintiff not only carries the initial burden of
proving a prima facie case, the plaintiff must also have sufficient
evidence to prove that any legitimate, nondiscriminatory reason the
employer offers for its decision is mere pretext for a discriminatory
purpose.

54 McDonnell Douglas, 411 U.S. at 802.
55 Id. at 802-803.
56 Id.
57 Id. at 807.
58 Id.

3bT

7th Circuit - 151a

Seventh Circuit Review

Volume 13

Fall 2017

D. Introduction of Common Actor Inference as an additional
hurdle to a Title VII claim
The common actor inference is a judicially-created inference that
weighs against the plaintiff in a Title VII case. The common actor
inference developed after the Supreme Court established the
McDonnell Douglas framework and is a way to help the judge or jury
better apply the framework in a case. It is important to understand at
what point in a Title VII case the common actor inference is
considered, as it varies from circuit to circuit, and the inference can
have a more substantial impact on a Title VII case based on when it is
considered.
The first appearance of the common actor inference was in the
Fourth Circuit Court of Appeals.59 The Fourth Circuit articulated the
test, which is “in cases where the hirer and the firer are the same
individual and the termination of employment occurs within a
relatively short time span following the hiring, a strong inference
exists that discrimination was not a determining factor for the adverse
action taken by the employer.”60 The Fourth Circuit analyzed the
common actor inference in the context of the McDonnell Douglas
framework, and stated “[t]he relevance of the fact that the employee
was hired and fired by the same person within a relatively short time
span comes at the third stage of the analysis,” when the plaintiff must
demonstrate that the employer’s stated reason for the employment
action is mere pretext for a discriminatory purpose.61 The court
explained that if the same employer hired and fired the employee in a
relatively short time span, this then “creates a strong inference that the
employer's stated reason for acting against the employee is not
pretextual.”62
U.S. Courts of Appeals vary on what stage of litigation is
appropriate to consider the common actor inference. There are
59 Proud v. Stone, 945 F.2d 796, 797 (4th Cir. 1991).
60 Id.
61 Id. at 798.
62 Id.

362

7th Circuit- 152a

Seventh Circuit Review

Volume 13

Fall 2017

typically three ways a Title VII race discrimination case can reach a
final judgment: 1) an order dismissing the complaint; 2) summary
judgment before the case reaches the ultimate trier of fact; or 3) a final
judgment rendered after trial to a judge or jury.63 In Proud v. Stone, the
Fourth Circuit considered evidence of the common actor inference
when considering a motion to dismiss the plaintiff’s Title VII
complaint. Because a motion to dismiss is based solely on the
pleadings, the Fourth Circuit established that the common actor
inference can apply before the litigation moves to the fact-finding
stage.64 A majority of the other circuit courts have followed the
Fourth Circuit’s precedent and allow courts to consider the common
actor inference when evaluating a plaintiff’s claim in a motion to
dismiss or in a summary judgment motion.65 Other circuits have
limited the application of the common actor inference to only when
discrimination has been alleged and there are genuine issues of
material fact.66 However, in McKinney v. Office of Sheriff of Whitley
County, the Seventh Circuit limited the application of the common
actor inference to the narrowest of circumstances, and stated its
concern that the common actor inference may be “outgrowing] its
usefulness” in Title VII jurisprudence.67

63 See Nana Gyimah-Brempong, Tahl Rabino & Neonu Jewell, Title VII of the
Civil Rights Act of1964, 4 GEO. J. GENDER & L. 563, 587 (2002).
64 Stone, 945 F.2d at 798.
65 See Cordell v. Verizon Commc’n, Inc., 331 F.App’x. 56, 58 (2d Cir. 2009);
Waldron v. SL Industries Inc., 56 F.3d 491, 496 n.6 (3d Cir. 1995); Coghlan v. Am.
Seafoods Co. LLC., 413 F.3d 1090, 1096-97 (9th Cir. 2005); Antonio v. Sygma
Network Inc., 458 F.3d 1177, 1183 (10th Cir. 2006).
66 See, e.g., Wexler v. White’s Fine Furniture, Inc., 317 F.3d 564, 573 (6th Cir.
2003); Kells v. Sinclair Buick-GMC Truck, Inc., 210 F.3d 827, 835 (8th Cir. 2000)
(abrogated on other grounds by Torgerson v. City of Rochester, 643 F.3d 1031 (8th
Cir. 2011)).
67 McKinney v. Office of Sheriff of Whitley Cnty, 866 F.3d 803, 815 (7th Cir.
2017).

3b3

7th Circuit- 153a

Seventh Circuit Review

II.

Volume 13

Fall 2017

McKinney v. Office of Sheriff of Whitley County
A. Factual Background and District Court Decision

Sheriff Mark Hodges of Whitley County, Indiana, hired Terrance
McKinney as a full-time merit officer on August 5, 2013.68 McKinney
was the first-ever black officer in Whitley County.69 The merit officer
position carries a one-year “probationary period” where the officer can
be fired at the sole discretion of the Sheriff, without input from the
county merit review board.70 The purpose of the probationary period is
to allow a sheriff to determine if a new officer is capable of
performing his or her duties before he or she benefits from state law
that requires “good cause” for termination, as well as the law’s
procedural protections.71
Because McKinney would have been the first black officer in
Whitley County history, Sheriff Hodges and McKinney discussed
McKinney’s race during the interview.72 McKinney stated that he did
not expect that he would experience racial discrimination at the
Sheriff’s Office.73 However, throughout his employment, McKinney
was able to point to specific instances when he was subjected to racist
or discriminatory words and actions by his fellow officers. McKinney
related that one officer used the “n-word” in front of him, that officers
joked about ordering their coffee “like him,” and that certain officers
would not train him or even speak to him.74 Sheriff Hodges
recommended that McKinney watch the movie 42, which depicts
Jackie Robinson’s battle to break the color barrier in baseball, and told
him the movie would “help him out.”75
68

Id. at 805.
69 Id.
70 Id.
71 Id.
12 Id.
73 Id.
74 Id.
15 Id.

364

7th Circuit - 154a

Seventh Circuit Review

Volume 13

Fall 2017

On May 15, 2014, Sheriff Hodges fired McKinney, invoking the
power he had as Sheriff under the “probationary period.”76 Sheriff
Hodges’ termination letter listed three reasons for firing McKinney: 1)
submitting false work hours while attending the Indiana Law
Enforcement Academy; 2) violating standard operating procedure for
filing complete monthly reports; and 3) violating standard operating
procedure for fueling county vehicles.77 The Whitley County Board of
Commissioners added more reasons for McKinney’s firing in a
termination letter sent four days after McKinney’s firing, including
damaging a county vehicle, failing to complete a transport, and failing
to follow verbal instructions.78
After McKinney was terminated, he brought suit against the
Office of the Sheriff of Whitley County and Deputy Sheriff Tony
Helfrich in the District Court, alleging several theories, including race
discrimination in violation of Title VII.79 In the course of the defense,
counsel for the Sheriff’s office offered even more reasons for
McKinney’s firing, including texting while driving, crashing a county
vehicle, and being late while transporting a juvenile to court. After
pleadings were filed and discovery was completed, the Sheriff’s office
moved for summary judgment, arguing that under the McDonnell
Douglas framework, McKinney had failed to allege a prima facie case
of discrimination in order to successfully meet the burden-shifting
requirement.81 The defense relied on an affidavit from Sheriff Hodges,
which stated the reasons why McKinney was fired, and did not include
any mention of McKinney’s race.
The district court ultimately ruled for the
defense and granted
fiq
summary judgment for the Sheriff’s Office. The court ruled that
76 Id.
11 Id.

nId.
79 Id. at 806.
80
Id.
81 Id.
92 Id.
*3Id.
T65

7th Circuit - 155a

Seventh Circuit Review

■ Volume 13

Fall 2017

McKinney failed to present any direct evidence of discrimination. 84
The court also stated McKinney could not point to any direct evidence
that would constitute a genuine issue of material fact. 5 The court
further determined that McKinney failed to meet the Sheriff’s
legitimate employment expectations, based largely upon the Sheriff’s
affidavit.86 The court also based its decision upon the “strong
presumption against finding discrimination when the same person
hires and fires a plaintiff-employee.”87 The district court stated “[i]f
Sheriff Hodges wanted to discriminate against McKinney based on his
race, he could have refused to hire him in the first place. „88
B.

7th Circuit Decision in McKinney v. Office of Sheriff of
Whitley County

McKinney appealed the district court’s decision to the Seventh
Circuit Court of Appeals. A panel consisting of Judges Bauer, Posner,
and Hamilton unanimously reversed the district court’s decision. 89
After a review of the factual and procedural background of the case,
the Seventh Circuit began its analysis by examining McKinney’s
presentation of evidence and the Sheriff’s stated reasons for firing
McKinney.90 The Seventh Circuit utilized the elements of prima facie
case of race discrimination and the McDonnell Douglas framework in
analyzing the district court’s decision.91
First, the court examined whether McKinney had met the
elements for a prima facie case of race discrimination, whether: 1) he
is a member of a racial minority; 2) his job performance met the
employer’s legitimate expectations; 3) he suffered an adverse
84

Id.
«5Id.
86
Id.
87 Id.
88
Id.
89
Id. at 815.
90 Mat 808.
91 Id. at 807.

366

7th Circuit - 156a

Seventh Circuit Review

Volume 13

Fall 2017

employment action; and 4) another similarly situated individual who
was not in the protected class was treated more favorably than him.92
The court noted that it was undisputed that McKinney is a member of
a protected class and that he suffered an adverse employment action.93
The court stated that for McKinney to prevail under the McDonnell
Douglas framework, he must present sufficient evidence to show that
his performance met the Sheriff’s legitimate employment expectations
and that other similarly situated employees who are not in the
protected class were treated more favorably. 94
The court evaluated the weight of the evidence presented by both
sides, noting that the Sheriff’s Office offered plausible rationales for
why McKinney did not meet the Sheriff’s legitimate employment
expectations.9 However, the Seventh Circuit ruled that the district
court did not give sufficient weight to McKinney’s evidence.9 • The
Seventh Circuit ruled the district court failed to properly consider
McKinney’s legal memorandum, the genuine issues of material fact he
raised, and the supporting evidence that he offered to show he met the
Sherriff’s legitimate employment expectations. The Seventh Circuit
particularly focused on “the sheer number of rationales the defense has
offered for firing plaintiff and the quality and volume of the evidence
plaintiff has collected to undermine the accuracy and even the honesty
of those rationales.”97
The court examined the Sheriff’s stated reasons for the firing: 1)
falsifying hours; 2) missing his monthly reports; 3) and misusing the
gasoline credit card.98 After a very thorough review of the Sheriff’s
evidence and McKinney’s evidence, the court found that McKinney
had presented sufficient evidence to at least raise a genuine issue of
material fact as to whether the Sheriff’s stated reasons for his
92 Id
93 Id. at 807-08.
94 Mat 808.
95 Id. at 814.
96 M. at 813.
97 Id. at 810.
98

M. at 810-11.

-367-

7th Circuit - 157a

Seventh Circuit Review

Volume 13

Fall 2017

termination were “pretext” for discriminatory actions." The court then
pointed out that the Sheriff’s office had offered even more
explanations for McKinney’s termination after it became clear that
McKinney intended to sue for discriminatory employment practices.100
The Seventh Circuit examined each of these additional reasons, and
also found that the plaintiff had offered sufficient evidence in response
to satisfy the McDonnell Douglas framework and avoid summary
judgment.101
The Seventh Circuit reminded the district court that when
evaluating McKinney’s evidence under the McDonnell Douglas
framework on a summary judgment motion, the question is “simply
whether McKinney’s evidence would permit a reasonable factfinder to
conclude that the plaintiff’s race ... caused the discharge, »102 The
court concluded that after evaluating McKinney’s testimony,
interrogatory answers, internal department documents, and other
evidence, McKinney more than satisfied his burden under McDonnell
Douglas, and that McKinney had presented enough evidence to permit
a reasonable factfinder to question whether the Sheriff’s stated reasons
for firing were pretext for discriminatory actions.103 As a result, the
Seventh Circuit reversed the district court’s grant of summary
judgment to the Sheriff’s Office, and remanded the case for further
proceedings.104
The Seventh Circuit also took time to criticize the district court
for “overestimat[ing] the strength of the ‘common actor’ inference. „105
The district court cited the common actor inference as further proof of
its decision, holding that if the Sherriff had wanted to discriminate
against McKinney, the Sherriff would have refused to hire him in the

99 Id. at 813.
100
Id. at 812.
101
Id. at 814.
102
Id. at 813.
103
Id. at 813-14.
104
Id. at 815.
105
Id. at 814.

368

7th Circuit - 158a

Seventh Circuit Review

Volume 13

Fall 2017

first place.106 The district court relied on the Seventh Circuit’s
explanation of the common actor inference in previous cases such as
EEOC v. Our Lady ofResurrection Medical Center, which led the
district court to believe that the common actor inference applied at the
pleading or summary judgment stage of a Title VII case. In
McKinney, however, the court seemed to walk back some of its
position in Our Lady ofResurrection, stating that “this inference is not
a conclusive presumption and ... it should be considered by the
ultimate trier of fact rather than on summary judgment or the
pleadings.” The common actor inference may be argued to a jury or
judge in a fact-finding endeavor, but it is not a conclusive presumption
that applies as a matter of law.109 The inference is “just something for
the trier of fact to consider.”110
The court further stated “[w]e have tried to impose limits on the
common actor inference to ensure it does not outgrow its
usefulness.”111 While the court acknowledged that it maybe helpful to
let the jury hear evidence of the common actor inference and weigh
the inference in the case before it, the court stated the inference is
helpful only “in some limited situations.” Yet, the court continued
that “[tjhere are many other occasions, however, where it is unsound
to infer the absence of discrimination simply because the same person
hired and fired the plaintiff-employee. „113
As an example of such a situation, the court pointed out that an
employer may need to quickly fill a position, and as a result hire an
individual from a protected class because the supervisor had no other
i r\o

106

Id.
77 F.3d 145, 151-52 (7th Cir. 1996).
108
McKinney, 866 F.3d at 814.
109
Id.
110
Id (citing Hermreiter v. Chicago Flousing Authority, 315 F.3d 742, 747 (7th
Cir. 2002)).
111 Mat 815.
112 Id.
113 Id.
107

369

7th Circuit - 159a

Seventh Circuit Review

Volume 13

Fall 2017

choice.114 Once other candidates for that position are available,
especially non-minority candidates, the employer could then fire the
minority employee for discriminatory reasons and hire a different
employee from a non-protected class.115 In this circumstance, it would
not be appropriate to assume that the employer did not act in a
discriminatory manner just because he or she hired and fired an
employee from a protected class. Similarly, the court imagined how an
employer could hire a woman, but then refuse to give her a promotion
or a raise for discriminatory purposes.116 The court also pointed out
that an employer could hire a woman, but later fire her once she
became pregnant, which would certainly qualify as a discriminatory
action.11
In the closing paragraph of its analysis, the Seventh Circuit stated
that “examples abound” for why the same employer could hire an
employee with a nondiscriminatory purpose, but then later fire that
same employee with a discriminatory purpose. The court asked the
district court to image a scenario where:
The same supervisor could hire a county’s first
black police officer, hoping there would be no racial
friction in the workplace. But after it became clear
that other officers would not fully accept their new
black colleague, that same supervisor could fire the
black officer because of his race based on a
mistaken notion of the “greater good” of the
department.118
Without expressly stating this is what happened in the case of Officer
McKinney, the Seventh Circuit, at a minimum, demonstrated why the
common actor inference should not be considered in a motion for
114 Id.
115 Id.
116
Id.
U1Id.
118
Id.

370

7th Circuit - 160a

Seventh Circuit Review

Volume 13

Fall 2017

summary judgment. There are simply too many plausible scenarios for
why a supervisor may hire, and then later fire, an employee from a
protected class for discriminatory reasons to accord the inference a
significant amount of weight at the pleading or summary judgment
stage of litigation.
McKinney is thus a stark limitation on the common actor inference
in the Seventh Circuit. Although the court presented its holding in
McKinney as a logical extension of its previous Title VII
discrimination and common actor jurisprudence, this is the clearest the
Seventh Circuit has been about the application of the common actor
inference. The court definitively stated that the common actor
inference is not a conclusive presumption that applies as a matter of
law.119 Therefore, the inference cannot be considered in a motion to
dismiss or a summary judgment motion.120 The inference is merely a
consideration that the ultimate fact-finder, whether a judge or a jury,
may weigh when making a decision. The Seventh Circuit thus
presented a very narrow definition and use of the common actor
inference.
III. Analyzing the Seventh Circuit ’ s decision and its
IMPACT ON THE LEGITIMACY OF THE COMMON ACTOR
INFERENCE

A. Seventh Circuit exposes logical flaws and uses negative tones
when addressing the common actor inference
The Seventh Circuit’s McKinney decision is notable for both the
ease with which the Seventh Circuit found logical flaws in the
common actor inference and the almost dismissive tone the court used
when discussing the inference. After evaluating the approach other
U.S. Circuit Courts of Appeals have taken toward the common actor
inference, it is clear that the Seventh Circuit took the lead in criticizing
the use of the common actor inference in Title VII cases. This becomes
119
120

Id. at 814.
Id.
T7T

7th Circuit - 161a

Seventh Circuit Review

Volume 13

Fall 2017

abundantly clear upon a close reading of the court’s legal analysis and
the language it used when discussing the common actor inference.
The Seventh Circuit could have invalidated the district court’s
ruling in McKinney based solely the plaintiff’s evidence, without
addressing the district court’s reliance on the common actor inference.
McKinney appealed the district court’s grant of summary judgment; all
the Seventh Circuit needed to find to reverse the district court’s
decision was find a genuine issue of material fact that would require
final adjudication by a judge or jury.121 The court went through the
facts presented to the district court in long and painstaking detail, and
it found many issues of material fact that would be sufficient to reverse
the grant of summary judgment.122 However, the Seventh Circuit went
beyond just invalidating the circuit court’s decision based on genuine
issues of material fact; it devoted an entire section to exposing the
123
logical flaws in the common actor inference.
The Seventh Circuit stated that “examples abound” of scenarios
where it would be unsound to infer that the same supervisor hiring and
firing an employee in a short time period did not have a discriminatory
purpose for doing so.124 Although the court stated that examples
abound, it listed only four examples: 1) a supervisor hires an employee
from a protected class out of necessity, then later fires that employee
when members of a nonprotected class are available; 2) a supervisor
who hires a woman, but refuses to promote her because of her gender;
3) a supervisor who hires a woman, but later fires her when she
becomes pregnant; and 4) when a supervisor hires the county’s first
black police officer and then fires him because of racial friction in the
department.125 These are all very clear and easy-to-follow examples of
how the common actor inference can be unsound, and unfairly slanted
toward the supervisor who fires an employee from a protected class.

121 Fed. R. Civ. P. 56.
122 McKinney, 866 F.3d at 807-13.
123 Id. at 814-15.
124
Id. at 815.
125 Id.

372

7th Circuit - 162a

Seventh Circuit Review

Volume 13

Fall 2017

However, as the Seventh Circuit suggested, these three examples
are far from the only ones that expose flaws in the common actor
inference. Imagine a supervisor who feels compelled to hire an
employee from a protected class out of a company-wide push to
increase diversity, only to later fire that employee for discriminatory
reasons. Or, consider an all-male law firm who hires female partner to
attract new female clients, only to later fire the female partner because
she does not “fit-in” with the boy’s club culture. One can also think of
a scenario where a supervisor hires a Muslim man or woman, but then
later fires him or her after a domestic terrorist attack because the
supervisor does not want to associate with people of that religion.
These are just a few of a multitude of “examples,” as the Seventh
Circuit said, that demonstrate the inherent flaws of the common actor
inference, and cast doubt on its usefulness or probative value in Title
VII discrimination cases.
It is also important to note the tone the court uses in discussing the
common actor inference in McKinney. The Seventh Circuit opened its
discussion of the common actor inference by stating “the district court
seems to have overestimated the strength of the common actor
inference” in reaching its decision.126 In its very first sentence on the
common actor inference, the Seventh Circuit signaled that the common
actor inference is not an especially strong one because it has been
“overestimated” by the district court.127 The Seventh Circuit then
explained its interpretation of the common actor inference and took the
time to clearly explain to the district court how it improperly applied
the Seventh Circuit’s analysis.128 The Seventh Circuit stated that the
district court may have gone astray by relying on older Seventh Circuit
cases such as EEOC v. Our Lady ofResurrection Medical Center, a
1996 case in which the Seventh Circuit implied the common actor
inference could be used in summary judgment motions. However, in
McKinney, the Seventh Circuit pointed out that its decisions since Our
126

Id. at 814.
127 Id.
128
Id.
129
Id.
373

7th Circuit - 163a

Seventh Circuit Review

Volume 13

Fall 2017

Lady ofResurrection have “clarified that this inference is not a
conclusive presumption and that it should be considered by the
ultimate trier of fact rather than on summary judgment or the
pleadings.”130
The court then stated that it has tried to “impose limits on the
common actor inference to ensure it does not outgrow its
usefulness.”131 It refered to inference as “just something for the trier of
fact to consider.”132 It stated that the inference may be helpful “in
some limited situations.”133 The court then provided four clear
examples of when the inference is illogical.134 The combination of the
court’s tone and the narrow application it assigned to the common
actor inference cannot help but the leave the reader with the
impression the court does not look upon the inference with great favor.
In the Seventh Circuit’s own words, the inference is in danger of
“outgrowing its usefulness,” “just” something to be considered, and is
only in helpful in “limited circumstances.” These are not words or
phrases that convey a positive connotation.
B. Circuit Courts should limit the application of the common actor
inference to an evidentiary inference at the trial stage
Despite the Seventh Circuit’s critique of the common actor
inference and its logical flaws, the court did not completely scrap the
use of the common actor inference in the Seventh Circuit.135 Rather,
the Seventh Circuit clearly stated limits on the inference and
proscribes when the inference can be considered. The Seventh Circuit
framed the common actor inference as an evidentiary issue, and it
130

Id.
Id. at 815 .
132 Id. at 814.
133 Id. at 815.
131

134

Id.
Id. ([“t]he inference may be helpful in some limited situations, which is
why we allow the jury to hear such evidence and weigh it for what it is worth”
(internal quotations omitted)).
135

■374

7th Circuit - iR4a

Seventh Circuit Review

Volume 13

Fall 2017

stated the inference can only considered by the ultimate trier of fact at
the trial stage of litigation.136
There are definite practical implications of the Seventh Court’s
decision in McKinney as it pertains to the common actor inference. A
defendant may not assert the common actor inference as an affirmative
defense; it can only be argued at trial as probative evidence. Therefore,
when a plaintiff brings a Title VII complaint against a defendantemployer, even if the relationship between the plaintiff and supervisor
would implicate the common actor inference, the defendant cannot use
the inference to defeat a complaint in a motion to dismiss or in a
summary judgment motion in the Seventh Circuit.
The court’s decision removed one hurdle a plaintiff must
overcome to successfully plead Title VII discrimination in the Seventh
Circuit. A hypothetical Title VII plaintiff in the Seventh Circuit must
first plead a prima facie case of discrimination: that he or she is a
member of a protected class; that he or she was qualified for the
1 27
position; and that he or she suffered an adverse employment action.
If the plaintiff can successfully plead a prima facie case, then pursuant
to McDonnell Douglas, the burden shifts to the defendant to articulate
i oo
legitimate, nondiscnminatory reason for the employment action. At
this stage in the litigation, there would be no reason for the defendant
to assert a common actor inference (even if they could) because
discriminatory acts by the defendant are not considered at this stage. 139
If the defendant articulates a legitimate, nondiscriminatory reason for
the employment action, the burden shifts back to the plaintiff to
demonstrate through evidence that the employer’s reasons were
“pretext” for a discriminatory purpose.140 It is at this stage that the
plaintiff begins presenting his or her evidence of the employer’s
discriminatory actions.

136

Id. at 814.
137 See McDonnell-Douglas v. Green, 411 U.S. 792, 802 (1973).
138
Id. at 802-03.
139
Id.
140
Id. at 807.
375

7th Circuit - 165a

Seventh Circuit Review

Volume 13

Fall 2017

Once the plaintiff has offered evidence of the defendant’s
discriminatory acts, other circuit courts will allow the defendant to
introduce the common actor inference to weigh against the plaintiff’s
evidence.141 In Proud v. Stone, the Fourth Circuit stated the fact that
the same supervisor hired and fired an employee “creates a strong
inference that the employer's stated reason for acting against the
employee is not pretextual.”142 The Fourth Circuit recognized the
strong impact this inference has on a plaintiff’s case, and stated “[t]he
plaintiff still has the opportunity to present countervailing evidence of
pretext, but in most cases involving this situation, such evidence will
not be forthcoming. In short, employers who knowingly hire workers
within a protected group seldom will be credible targets for charges of
pretextual firing.”1 3
The Fourth Circuit’s approach is very favorable to defendants, and
assists defendant-employers in defeating Title VII discrimination
claims before those claims ever reach an ultimate trier of fact. This
scenario occurred in the Indiana district court’s decision, where
McKinney’s complaint was defeated at the summary judgment stage
based in part on the Sheriff invoking the common actor inference. 144
However, as the Seventh Circuit demonstrated in its opinion, there are
simply too many flaws in the common actor inference to accord it so
much power at the pleadings or summary judgment stage.145
The Seventh Circuit’s awareness of how the common actor
inference can result in illogical conclusions or too strong of an
advantage for employers led the court to limit the use of the inference

141 See Proud v. Stone, 945 F.2d 796, 798 (4th Cir. 1991); LeBlanc v. Great
American Ins. Co., 6 F.3d 836, 847 (1st Cir. 1993); Cordell v. Verizon Commc’n,
Inc., 331 F.App’x. 56, 58 (2d Cir. 2009); Waldron v. SL Industries Inc, 56 F.3d 491,
496 n.6 (3d Cir. 1995); Coghlan v. Am. Seafoods Co. LLC, 413 F.3d 1090,1096-97
(9th Cir. 2005); Antonio v. Sygma Network Inc, 458 F.3d 1177,1183 (10th Cir.
2006).
142
Proud, 945 F.2d at 798.
143 Id.
144

145

McKinney v. Sheriff of Whitley County, 866 F.3d 803, 805 (7th Cir. 2017).
Id. at 815.

376

7th Circuit - 166a

Seventh Circuit Review

Volume 13

Fall 2017

to only the trial stage of litigation.146 The court stated that “the
common actor inference is a reasonable inference that may be argued
to the jury, but it is not a conclusive presumption that applies as a
matter of law. ,,147 The court continued that the defendant may argue
the inference to the jury, who may then “weigh it for what it is
worth.” The court acknowledged the flaws of the inference when it
is applied as a matter of law at the pleadings or summary judgment
stages, stating “[i]t is misleading to suggest (as some cases do) that the
inference creates a ‘presumption’ of nondiscrimination, as that would
imply that the employee must meet it or lose his case. „149 Thus in the
Seventh Circuit, any employer who wishes to use the common actor
inference as a way to overcome a Title VII discrimination claim may
only do so when arguing to the ultimate trier of fact. 150
Conclusion
The Seventh Circuit presented the most logical use of the
common actor inference, if it is to be used at all. As this comment has
demonstrated, Congress created Title VII to protect certain American
workers from discriminatory employment actions. The subsequent
judicial interpretations of Title VII created the very rigorous
McDonnell Douglas framework that specifies exactly what a plaintiff
must allege, and eventually prove, in order to succeed on a claim. The
text of Title VII and the McDonnell Douglas framework already
provide defendants with a number of protections against frivolous
claims. Plaintiffs must plead a prima facie case of discrimination
before defendants even need to respond to charges of discrimination.
Defendants then have an opportunity to articulate legitimate,
nondiscriminatory reasons for their employment action. Plaintiffs then
146

Id. at 814.
Id.
148
Id. at 815.
149
Id. at 814 (quoting Hermreiter v. Chicago Housing Authority, 315 F.3d
742, 747 (7th Cir. 2002)).
150
Id. at 815.
147

317

7th Circuit - 167a

Seventh Circuit Review

Volume 13

Fall 2017

must produce actual evidence of discrimination to show that the
defendant’s reasons are merely pretextual. These steps help ensure that
only serious and credible Title VII claims can even advance to the
summary judgment or trial stage.
The inclusion of the common actor inference in pleadings and
summary judgment is an example of how a powerful yet ultimately
flawed judicially-created inference places a significant burden on Title
VII plaintiffs. The Fourth Circuit, and those other circuits who have
followed the Fourth Circuit’s lead, have acknowledged that the
common actor inference is a nearly fatal blow to a plaintiff’s claim. A
plaintiff who has met the prima facie elements of Title VII
discrimination and demonstrated discrimination through evidence
should be able to advance to a trial without having to overcome a
defendant-friendly inference that the Seventh Circuit so easily
critiqued.
While the common actor inference can be logical when applied to
the right scenario, it contains too many easily-identifiable flaws that
tip the scales towards a defendant. Therefore, the inference should not
be considered before reaching the ultimate trier of fact. At the trial
stage, the ultimate trier of fact will have the chance to survey all of the
evidence presented, including the common actor inference, and will be
able to weigh the evidence as the he or she sees fit. Applying the
common actor inference before the trial robs the plaintiff of the chance
to argue all of its evidence, and ultimately can lead to judgment for the
defendant for less than solid reasons.
U.S. Circuit Courts should follow the Seventh Circuit’s lead and
limit the application of the common actor inference only to the trial
stage. McKinney’s guidance on the common actor inference will
achieve Congress’ goal of protecting Americans from discrimination
based on their race, sex, religion, color, or national origin, while also
protecting defendants from frivolous claims by plaintiffs. The
framework for a Title VII claim is well-established and fair, and
protects both plaintiffs and defendants equally with a rigid burdenshifting test. The common actor inference disrupts this framework by
shifting the scales too far toward the defendant, and as a result it

378

7th Circuit - 168a

1

Seventh Circuit Review

Volume 13

Fall 2017

should be limited in accordance with the Seventh Circuit’s decision in
McKinney.

t

^7Qa

7th Circuit - 169a

